<html>
<title> - NOMINATIONS TO THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION AND THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 113-685]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-685
 
                  NOMINATIONS TO THE NATIONAL HIGHWAY
                     TRAFFIC SAFETY ADMINISTRATION,
                 U.S. DEPARTMENT OF TRANSPORTATION AND
                THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               BEFORE THE
                               
                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PUBLISHING OFFICE
95-743 PDF               WASHINGTON : 2015                     

________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  
      
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 3, 2014.................................     1
Statement of Senator McCaskill...................................     1
Statement of Senator Thune.......................................     2
Statement of Senator Blumenthal..................................    69
Statement of Senator Heller......................................    71
Statement of Senator Markey......................................    75
Statement of Senator Klobuchar...................................    76
Statement of Senator Cantwell....................................    79
Statement of Senator Ayotte......................................    83
Statement of Senator Nelson......................................    86

                               Witnesses

Dr. Mark R. Rosekind, Member, National Transportation Safety 
  Board; National Highway Traffic Safety Administration, 
  Administrator-Designate........................................     4
    Prepared statement...........................................     6
    Biographical information.....................................     7
Carlos A. Monje, Jr., Counselor to the Secretary, U.S. Department 
  of Transportation; Assistant Secretary of Transportation for 
  Policy-Designate...............................................    48
    Prepared statement...........................................    50
    Biographical information.....................................    51
Dr. Tho Bella Dinh-Zarr, Nominee, Member, National Transportation 
  Safety Board (NTSB)............................................    58
    Prepared statement...........................................    59
    Biographical information.....................................    60

                                Appendix

Response to written questions submitted to Dr. Mark R. Rosekind 
  by:
    Hon. John D. Rockefeller IV..................................    91
    Hon. Maria Cantwell..........................................    91
    Hon. Edward Markey...........................................    92
    Hon. John Thune..............................................    93
    Hon. Marco Rubio.............................................    96
    Hon. Deb Fischer.............................................    96
Response to written questions submitted to Carlos A. Monje, Jr. 
  by:
    Hon. Maria Cantwell..........................................    98
    Hon. John Thune..............................................    98
    Hon. Marco Rubio.............................................    99
Response to written question submitted to Dr. Tho Bella Dinh-Zarr 
  by:
    Hon. John Thune..............................................   101
    Hon. Marco Rubio.............................................   101


                  NOMINATIONS TO THE NATIONAL HIGHWAY.
                     TRAFFIC SAFETY ADMINISTRATION,.
                   U.S. DEPARTMENT OF TRANSPORTATION.
              AND THE NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 12:39 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Claire 
McCaskill, presiding.

          OPENING STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. The Committee will come to order.
    Today we will hear from individuals nominated by the 
President to fill three positions critical to transportation 
safety and policy. We have Mr. Carlos Monje, nominated to serve 
as Assistant Secretary for Policy at the Department of 
Transportation. Mr. Monje is currently Counselor to U.S. 
Transportation Secretary Anthony Foxx, a role in which he works 
on the Administration's proposal to reauthorize the surface 
transportation programs on the TIGER discretionary grant 
program and on efforts to promote equity and economic 
development. Mr. Monje previously served as a Senior Policy 
Adviser and Chief of Staff at the White House Domestic Policy 
Council, where he worked on a wide variety of domestic policy 
issues. If confirmed for this position, Mr. Monje will play a 
critical role in working across the Executive Branch and with 
Congress in the coming months as we look to renewing expiring 
authorizations for surface transportation aviation and rail 
programs.
    We also have Dr. Tho Bella Dinh-Zarr. Is it Dinh-Zarr or 
Dinh-Zarr? Nominated to serve as a Member of the National 
Transportation Safety Board, she will bring valuable surface 
transportation experience of the Board. Currently Dr. Dinh-Zarr 
is the Director of the U.S. Office of the FIA Foundation, an 
international philanthropy dedicated to promoting safe and 
sustainable transportation. In previous positions, she has 
worked at the American Automobile Association, the U.S. 
National Highway Traffic Safety Administration, the U.S. 
Centers for Disease Control and Prevention, and the Texas 
Transportation Institute. If confirmed for this position, Dr. 
Dinh-Zarr will fill a vacancy on the five-person safety board 
charged with determining the proper cause of transportation 
accidents and making recommendations to improve transportation 
safety.
    And, finally, we have Dr. Mark Rosekind, nominated to serve 
as Administrator of the National Highway Traffic Safety 
Administration. Since 2010, Dr. Rosekind has served as a Member 
of the NTSB. He is considered a leading expert on human 
fatigue, having published more than 150 scholarly articles and 
having founded Alertness Solutions, a scientific consulting 
firm that specializes in fatigue management. Prior to that, Dr. 
Rosekind directed the Fatigue Countermeasures Program at the 
Nassau Ames Research Center, was Chief of Aviation Operations 
Branch in the Flight Management and Human Factors Division, and 
served as the Director of the Center for Human Sleep Research 
at Stanford University's Sleep Disorders and Research Center.
    This committee and the Consumer Protection Subcommittee 
have held four hearings this year alone looking at NHTSA's 
ability to effectively identify defects and exercise its 
enforcement authority over the industries that it regulates. 
Through investigations into defects, General Motors' ignition 
switch and Takata airbags, we examined industry's compliance 
with Federal safety laws and the agency's capacity to ensure 
that cars on the road are safe to drive. I think it's safe to 
say that I speak for many members on both sides of the aisle 
when I say we were pleased to see the President submit a 
nominee for this position after calls from many of us to fill 
this important position that has been without a confirmed 
Administrator for nearly a year.
    NHTSA faces a number of challenges, significant challenges, 
in the coming months and years as it works to catch up to an 
auto industry that has far outpaced it with technology. And 
Congress has a role to play in ensuring the agency has the 
resources, both financial and technical, to do its job. I look 
forward to hearing from Dr. Rosekind today about his plans for 
leading this agency and restoring confidence in its ability to 
protect the driving public. I hope that if the Members of this 
committee get the answers they are looking for today, we can 
move forward in the coming days with quickly confirming these 
nominees.
    Welcome to all of our witnesses, and I look forward to 
hearing your testimony.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Senator McCaskill, for agreeing 
to chair this hearing to consider the nominations of Mark 
Rosekind to be the next Administrator of the National Highway 
Traffic Safety Administration, Bella Dinh-Zarr to be a Member 
of the National Transportation Safety Board, and Carlos Monje 
to be Assistant Secretary of Policy at the U.S. Department of 
Transportation. I appreciate the willingness of these nominees 
to serve the Nation in what are very important roles.
    As I stated in our hearing last month regarding faulty 
Takata airbags, the string of recalls this year has been cause 
for grave concern. We are on pace to have the all-time worst 
year for auto recalls in U.S. history, with roughly 56 million 
vehicles being subject to recall so far. In many of these 
cases, there are legitimate questions about whether NHTSA 
should have identified the defective products earlier and 
communicated more effectively with the public. That is why Dr. 
Rosekind will face substantial challenges at NHTSA should he be 
confirmed.
    Since the start of the year, I called on President Obama to 
nominate a qualified individual to lead without NHTSA without 
delay because inaction sends a terrible signal to the regulated 
community and the American people about automobile safety and 
oversight. In March of this year, over 8 months ago, as the 
Nation began to fully realize the severity of the problems at 
General Motors with regard to certain ignition switch defects, 
I wrote a letter to the President calling on him to nominate a 
new administrator for NHTSA as quickly as possible. I never 
received a response. In September, I sent a second letter to 
the President, stressing the urgency for NHTSA to have a 
Senate-confirmed leader as the agency dealt with the GM recalls 
as well as serious allegations information had been withheld 
from the agency by GM. In September, Senators Heller, 
McCaskill, the leaders of our Consumer Protection Subcommittee 
that oversees NHTSA, also both called on the President to 
nominate a new NHTSA administrator without delay. 
Unfortunately, President Obama didn't formally nominate a new 
NHTSA administrator until the evening before this committee's 
hearing on Takata airbags, on November 20. By contrast, this 
committee is moving swiftly to consider this nomination.
    Dr. Rosekind has served as a Member of the NTSB since 2009. 
His has experiences in the developing countermeasures for 
fatigue in order to enhance vehicle safety. He served at NASA 
for a number of years and founded a technology company aimed at 
creating software that helps to reduce the role of fatigue and 
traffic incidents.
    NHTSA's mission is safety. And that is paramount to all of 
us. I will be asking Dr. Rosekind how his experience at NHTSA 
and academia and in the private sector can be translated to 
managing an agency that many perceive to be in crisis. I will 
also be asking Dr. Rosekind how his expertise in fatigue and 
impaired driving can be utilized to lead an agency that is much 
different than the NTSB. I believe that NHTSA must have a 
leader that can hit the ground running. I will also be asking 
Dr. Rosekind about his familiarity with NHTSA and, in 
particular, about the administration's ongoing top-to-bottom 
review of NHTSA reported in the New York Times. I want to know 
how Dr. Rosekind will be involved in this top-to-bottom review 
of NHTSA should he be confirmed.
    If he is confirmed, Dr. Rosekind will be departing from the 
NTSB. And Dr. Bella Dinh-Zarr has been nominated to take over 
the vacancy at NTSB left by the departure of Deborah Hersman, 
who stepped down as Chairman earlier this year. Dr. Dinh-Zarr 
has a solid record as a traffic safety advocate, a compelling 
personal life story that includes escaping Vietnam as a small 
child as the Communists took over the country. The NTSB plays 
an important role in highway, aviation, and other modes of 
transportation safety. I look forward to hearing from Dr. Dinh-
Zarr about what she would seek to prioritize at the NTSB should 
she be confirmed.
    And, finally, Dr. Carlos Monje has been nominated to be 
Assistant Secretary for Policy at the Department of 
Transportation. I had the opportunity to meet Mr. Monje when he 
accompanied Secretary Foxx during his visit to South Dakota 
last month. I very much appreciated the Secretary's time and 
seeing firsthand a host of the transportation challenges that 
exist in a rural state like South Dakota. And I am glad that 
Mr. Monje was able to come to South Dakota.
    Among other things, I will be asking Mr. Monje about his 
views on issues regarding changes in the department's TIGER 
grant review process and other issues facing the DOT as we 
approach the expiration of the MAP-21 extension that runs out 
on May 31 of next year.
    Thank you again, Madam Chair, for holding this important 
hearing, and I look forward to hearing from our witnesses.
    Senator McCaskill. Thank you, Senator Thune.
    We'll begin with you, Dr. Rosekind. We look forward to your 
testimony.

           STATEMENT OF DR. MARK R. ROSEKIND, MEMBER,
             NATIONAL TRANSPORTATION SAFETY BOARD;
        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION,
                    ADMINISTRATOR-DESIGNATE

    Dr. Rosekind. Senator McCaskill, Ranking Member Thune, 
members of the Committee, it is an honor to appear before you 
today as the nominee for administrator of the National Highway 
Traffic Safety Administration. I would like to thank President 
Obama for this nomination and Secretary Foxx for his support in 
my selection.
    Before I begin, let me introduce some very special people 
that are joining me today. My wife, Dr. Debra Babcock, is here. 
She always provides unwavering support and has enriched my life 
for over 30 years. Our son, Aaron, and his new bride, Dr. 
Madalyn Radlauer, are viewing from Minneapolis; and our 
daughter, Eve, is watching from Baltimore. My mother, Marilyn, 
and mother-in-law, Lila Babcock, are viewing at home in the San 
Francisco Bay area. And my family really is a remarkable gift 
and a constant source of strength in my life.
    Professionally, former NTSB Chairman Deborah Hersman and my 
other NTSB colleagues, many of them here today, have really 
been tremendous partners, passionate about enhancing 
transportation safety.
    NHTSA touches all of our lives in some way every day. As 
drivers, passengers, pedestrians, or bicyclists, NHTSA's 
mission is to help keep all of us safe as we move about our 
nation's roadways. The agency's mission is to save lives, 
prevent injuries, and reduce the economic costs of crashes, but 
in 2012, 33,561 lives were lost and 2.36 million individuals 
were injured in crashes on America's roads. These are the 2.4 
million reasons why roadway safety must always be a national 
priority and constantly improved. The numbers actually become 
staggering when considering over the past decade how they have 
grown. Of course, the actual toll is much higher when realizing 
that each one of these individuals has a family, friends, 
coworkers, classmates, and others, whose lives are also changed 
forever.
    It is the personal, human, and individual costs that should 
be foremost in our minds as we discuss NHTSA's safety mission. 
This discussion must acknowledge how much NHTSA's hard work has 
already made our roadways safer. The opportunity to protect 
lives now and in the future is certainly what drives the safety 
professionals at NHTSA. It is through their efforts, in 
collaboration with many others across the country, that we have 
made significant safety achievements over the past 60 years 
with fatalities on the roadways reaching their lowest level 
since 1950. Although much still needs to be done, in many 
respects, NHTSA has led the world in building data-driven 
processes that have sparked the advancement of safety 
technologies and systems contributing to this tremendous 
decline.
    NHTSA pursues its safety mission through programs that 
recognize the complexity of human behavior, the evolution of 
automotive engineering, and innovations in technology. Core 
safety programs establish a foundation for crash prevention and 
survivability while regulation and enforcement provide crucial 
safety standards. This includes identifying defects and 
recalls, developing educational materials and activities that 
touch every segment of our society, improvement of fuel 
efficiency and emissions, the EMS system, and so much more. 
NHTSA leverages this diverse portfolio to enhance safety, 
though it is always critical to ensure that resources and 
authority align with mission and expectations. This must be 
balanced with the need for ongoing efforts to identify and 
pursue actions that will constantly improve the agency's 
effectiveness in meeting its objectives.
    If confirmed, I plan to apply my knowledge, experience, and 
passion for safety to NHTSA's crucial safety mission. The NTSB 
shares the same safety objectives as NHTSA, which is to save 
lives and prevent injuries. And for the past four and a half 
years as an NTSB board member, it has been my privilege to 
pursue accident investigations, issue safety recommendations, 
and undertake advocacy efforts that make our transportation 
system safer. As a scientist, I developed an analytical, data-
driven approach to examining problems and becoming an expert in 
human fatigue that is relevant to safety in all environments. 
While at NASA, I expanded my field of knowledge into varied 
human factors arenas and translated that science into effective 
solutions that address operational problems in safety-critical 
environments. Work in the private sector provided invaluable 
lessons in developing innovative solutions to complex, 
challenging, real-world safety problems.
    I recognize that my nomination to lead NHTSA comes at a 
pivotal juncture. If confirmed, you have my commitment that I 
will maintain an aggressive focus on continuing to improve 
NHTSA's safety record and ensuring that NHTSA's regulatory 
regime is current for today's safety environment. To this task, 
I will bring a fresh set of eyes and a different perspective 
honed over the years as a safety professional and manager at 
NASA, the NTSB, and in the private sector.
    Chairman, in closing, safety has also been a very personal 
priority for me since my earliest days. My father was a San 
Francisco police officer, who was killed in the line of duty 
when a driver ran a red light. And through this single and 
profound event in my own life, I share in the individual and 
personal stories of so many people who have been affected by 
preventable tragedy on our roadways.
    I thank you again for your consideration of my nomination 
to serve as NHTSA Administrator. And I look forward to your 
questions.
    [The prepared statement and biographical information of Dr. 
Rosekind follow:]

     Prepared Statement of Dr. Mark R. Rosekind, Member, National 
     Transportation Safety Board; National Highway Traffic Safety 
                Administration, Administrator-Designate
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, it is an honor to appear before you today as the nominee for 
Administrator of the National Highway Traffic Safety Administration 
(NHTSA). I would like to thank President Obama for this nomination and 
Secretary Foxx for his support in my selection.
    Before I begin, please let me introduce some very special people 
joining me today. My wife, Dr. Debra Babcock, is here. She always 
provides unwavering support and has enriched my life for over 30 years. 
Our son, Aaron, and his new bride, Dr. Madalyn Radlauer, are viewing 
from Minneapolis, and our daughter, Eve, is watching in Baltimore. My 
mother, Marilyn, and mother-in-law, Lila Babcock, are viewing at home 
in the San Francisco Bay Area. My family is a remarkable gift and 
constant source of strength in my life. Professionally, former National 
Transportation Safety Board (NTSB) Chairman Deborah Hersman and my 
other NTSB colleagues have been tremendous partners passionate about 
enhancing transportation safety.
    NHTSA touches all of our lives in some way every day. As drivers, 
passengers, pedestrians or bicyclists, NHTSA's mission is to help keep 
all of us safe as we move about our Nation's roadways. The agency's 
mission is to save lives, prevent injuries, and reduce the economic 
costs of crashes, but in 2012, 33,561 lives were lost and 2.36 million 
individuals were injured in crashes on America's roads. These are 2.4 
million reasons why roadway safety must always be a national priority 
and constantly improved. The numbers become staggering when considered 
over the past decade. Of course, the actual toll is much higher when 
realizing that each one of these individuals has family, friends, co-
workers, classmates, and others whose lives are also changed forever.
    It is the personal, human, and individual costs that should be 
foremost in our minds as we discuss NHTSA's safety mission. This 
discussion must acknowledge how much NHTSA's hard work has already made 
our roadways safer. The opportunity to protect lives now and in the 
future is certainly what drives the safety professionals at NHTSA. It 
is through their efforts, in collaboration with many others across the 
country, that we have made significant safety achievements over the 
past 60 years with fatalities reaching their lowest levels since 1950. 
Although much still needs to be done, in many respects NHTSA has led 
the world in building data driven processes that have sparked the 
advancement of safety technologies and systems contributing to this 
tremendous decline.
    NHTSA pursues its safety mission through programs that recognize 
the complexity of human behavior, the evolution of automotive 
engineering, and innovations in technology. Core safety programs 
establish a foundation for crash prevention and survivability, while 
regulation and enforcement provide crucial safety standards. This 
includes identifying defects and recalls, developing educational 
materials and activities that touch every segment of our society, 
improvement of fuel efficiency and emissions, the Emergency Medical 
Services system, and so much more. NHTSA leverages this diverse 
portfolio to enhance safety, though it is always critical to ensure 
that resources and authority align with mission and expectations. This 
must be balanced with the need for ongoing efforts to identify and 
pursue actions that will constantly improve the agency's effectiveness 
in meeting its objectives.
    If confirmed, I plan to apply my knowledge, experience, and passion 
for safety to NHTSA's crucial safety mission. The NTSB shares the same 
safety objectives as NHTSA, to save lives and prevent injuries. For the 
past four and a half years as an NTSB Board Member, it has been my 
privilege to pursue accident investigations, issue safety 
recommendations, and undertake advocacy efforts that make our 
transportation system safer. As a scientist, I developed an analytical, 
data-driven approach to examining problems and became an expert in 
human fatigue that is relevant to safety in all environments. While at 
NASA, I expanded my field of knowledge into varied human factors arenas 
and translated that science into effective solutions that address 
operational problems in safety-critical environments. Work in the 
private sector provided invaluable lessons on developing innovative 
solutions to complex, challenging real-world safety problems.
    I recognize my nomination to lead NHTSA comes at a pivotal 
juncture. If confirmed, you have my commitment that I will maintain an 
aggressive focus on continuing to improve NHTSA's safety record and 
ensuring that NHTSA's regulatory regime is current for today's safety 
environment. To this task, I will bring a fresh set of eyes and a 
different perspective honed over the years as a safety professional and 
manager at NASA, NTSB and in the private sector.
    Mr. Chairman, in closing, safety has also been a very personal 
priority for me since my earliest days. My father was a San Francisco 
Police Officer killed in the line of duty by a driver who ran a red 
light. Through this single and profound event in my own life, I share 
in the individual and personal stories of so many people who have been 
affected by preventable tragedy on our roadways.
    Thank you again for your consideration of my nomination to serve as 
NHTSA Administrator. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mark Ralph 
Rosekind.
    2. Position to which nominated: Administrator, National Highway 
Traffic Safety Administration.
    3. Date of Nomination: November 19, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: National Transportation Safety Board, 490 L'Enfant 
        Plaza SW, Washington, D.C. 20594.

    5. Date and Place of Birth: February 1, 1955; San Francisco, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Debra A. Babcock, M.D. (pediatrician) Altos Pediatrics, 
        Los Altos, CA; son: Aaron A. Rosekind (27 years old); daughter: 
        Eve M. Rosekind (21 years old).

    7. List all college and graduate degrees. Provide year and school 
attended.

        A.B., Stanford University, Stanford, CA, 1977.

        M.S., Yale University, New Haven, CT, 1982.

        M.Phil., Yale University, New Haven, CT, 1983.

        Ph.D., Yale University, New Haven, CT, 1987.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    All previous employment relevant to nominated position.

        (a) Research Director, Sleep Research Facility and Chief, Drug 
        Evaluation Program, Stanford Sleep Disorders Clinic and 
        Research Center, Department of Psychiatry, Stanford University 
        School of Medicine, 1977-1979.

        (b) Associate Research Director, Health Behavior Research 
        Program, Center for Educational Research at Stanford, Stanford 
        University, 1979-1980.

        (c) Research Coordinator, Yale Psychophysiology Center, 
        Department of Psychology, Yale University, 1982-1984.

        (d) Predoctoral Clinical Fellowship, Department of Psychiatry, 
        Yale University School of Medicine and Yale-New Haven Hospital, 
        1984-1985.

        (e) Lecturer, Departments of Psychology and Psychiatry, Yale 
        University and Yale University School of Medicine, 1986-1987.

        (f) Director, Sleep Laboratory, Yale Psychophysiology Center, 
        Department of Psychology, Yale University, 1982-1987.

        (g) Research Fellowship in Sleep and Chronobio1ogy, E.P. 
        Bradley Hospital, Department of Psychiatry and Human Behavior, 
        Brown University Program in Medicine, 1987-1989.

        (h) Director, Center for Human Sleep Research, Stanford Sleep 
        Disorders Center and Research Associate, Department of 
        Psychiatry, Stanford University School of Medicine, 1989-1990.

        (i) Research Associate, Stanford Center of Excellence, 
        Department of Psychology, Stanford University, 1990.

        (j) Research Psychologist and Team Leader, Fatigue 
        Countermeasures Program, Aviation Safety Research Branch, 
        Flight Management and Human Factors Division, NASA Ames 
        Research Center, Moffett Field, CA, 1990-1997.

        (k) Acting Assistant Professor, Department of Human Biology, 
        Stanford University, January-March, 1993-1995.

        (l) Chief, Aviation Operations Branch, Flight Management and 
        Human Factors Division, NASA Ames Research Center, Moffett 
        Field, CA, 1996-1997.

        (m) President and Chief Scientist, Alertness Solutions, 
        Cupertino, CA, 1997-2010.

        (n) Board Member, National Transportation Safety Board, 2010 to 
        present.

    9. Attach a copy of your resume. See Attachment 1.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        (a) Provided consultation on fatigue factors in accident 
        investigations and served as a resource for current fatigue-
        related scientific research to National Transportation Safety 
        Board (NTSB) staff. 1998-2010.

        (b) Co-developed and co-taught a two-day NTSB Training Center 
        course on examining fatigue factors in an accident 
        investigation. 2004-2010.

        (c) Board Member, National Scientific Advisory Board, Patient 
        Safety Center of Inquiry, Palo Alto Veterans Administration 
        Health Center, Palo Alto, CA, 1998-2010.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        (a) Advisory Board, School of Sleep Medicine, Palo Alto, CA. 
        1990-2010.

        (b) President/Owner, Alertness Solutions, 1997-2010.

        (c) Editorial Board, Journal of Sleep and Sleep Disorders 
        Research, 2004-2010.

        (d) Board of Trustees, Menlo School, Atherton, CA, 2007-2010.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        (a) Member, International Brotherhood of Magicians, 1974 to 
        present (no restrictions).

        (b) Member, Sleep Research Society, 1977 to present (no 
        restrictions).

        (c) Member, Aerospace Medical Association, 1990-2010 (estimate) 
        (no restrictions).

        (d) Member, Aerospace Medical Association, Aerospace Human 
        Factors Association, 1993-2010 (estimate) (no restrictions).

        (e) Honorary Life Member, The Magic Castle, 1993 to present (no 
        restrictions).

        (f) Member, Fremont Hills Country Club, 1999-2007 (no 
        restrictions).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        (a) Sigma Xi (The Scientific Research Society).

        (b) A.B., Honors in Psychology, Stanford University, 1977.

        (c) Yale University Fellowship, 1980-1983

        (d) Prize Teaching Fellowship, Yale University, 1983-1984.

        (e) NASA Ames Honor Award for Excellence in the category of 
        Group, 1992.

        (f) NASA Group Achievement Award, 1993.

        (g) Honorary Life Member, Academy of Magical Arts, Magic 
        Castle, 1993.

        (h) NASA Exceptional Service Medal, 1995.

        (i) Flight Safety Foundation Presidential Citation for 
        Outstanding Safety Leadership, 1997.

        (j) Flight Safety Foundation Business Aviation Meritorious 
        Award, 1999.

        (k) Fellow, World Economic Forum, Annual Meeting, Davos, 
        Switzerland, 1999, 2000.

        (l) NASA Ames Honor Award for Excellence in the category of 
        Group/Team, 2003.

        (m) NASA Turning Goals into Reality (TGIR), Exceptional 
        Progress Toward Support of MER Ops, Office of Aerospace 
        Technology, 2003.

        (n) NASA Headquarters Award for Group Achievement for the Mars 
        Exploration Rover Mission System Development Team, 2004.

        (o) William E. Collins Award, Outstanding Human Factors 
        Publication of the Year, Aerospace Human Factors Association, 
        2007.

        (p) Mark O. Hatfield Award for Public Policy, American Academy 
        of Sleep Medicine, 2011.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Please see Attachment 2 (Publications) and Attachment 3 
(Presentations).
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        (a) Federal Railroad Administration Reauthorization: Human 
        Factors Issues Hearing. Testimony provided to Committee on 
        Transportation and Infrastructure, Committee on Transportation, 
        U.S. House of Representatives, Subcommittee on Railroads, 
        Washington, D.C., April 29, 1998.

        (b) Managing Fatigue in Transportation: No Magic Bullet. 
        Fatigue and Its Safety Effects on the Commercial Motor Vehicle 
        and Railroad Industries Hearing, U.S. Senate, Committee on 
        Commerce, Science, and Transportation, Subcommittee on Surface 
        Transportation and Merchant Marine, Washington, D.C., September 
        16, 1998.

        (c) Joint Committee on the Judiciary, Commonwealth of 
        Massachusetts, on House Bill 1278, Ignition Interlocks, Boston 
        Massachusetts, September 25, 2013.

        (d) Subcommittee on Coast Guard and Maritime Transportation, 
        Committee on Transportation and Infrastructure, U.S. House of 
        Representatives Hearing on Coast Guard and Maritime 
        Transportation Authorization Issues, Washington, D.C., October 
        29, 2013.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?

        (a) Member, National Transportation Safety Board (NTSB). During 
        my term as a Board Member at the NTSB, my knowledge, skills, 
        and experience have expanded significantly through my unique 
        and diverse duties. Accident investigations, Board Meetings, 
        issuing safety recommendations, advocacy activities, hearings, 
        and forums are just some of the many NTSB efforts undertaken to 
        enhance transportation safety. The experience and knowledge 
        obtained through my direct involvement in this broad range of 
        safety efforts can be directly applied to the programs and 
        challenges at NHTSA. For example, I have led NTSB advocacy 
        efforts related to substance impaired driving and fatigue, 
        including the creation of stakeholder coalitions, chaired a 
        drowsy driving forum, and provided numerous presentations to 
        diverse audiences. As a Board Member, my responsibilities 
        include the final determination of accident probable cause and 
        deciding what safety recommendations are issued to prevent 
        future occurrences. During my term, we have addressed a broad 
        range of roadway safety issues, including distraction, fatigue, 
        crashworthiness, seat belts, survival factors, regulatory 
        oversight, medical conditions, graduated licensing, and 
        training issues. The NTSB multi-modal perspective further adds 
        to a fresh safety approach that can guide, create and implement 
        enhanced efforts at NHTSA.

        (b) Innovative leadership in academics, NASA, and private 
        sector. Whether growing a NASA program to international 
        significance or opening new opportunities to effectively apply 
        fatigue management in diverse settings worldwide, my 
        professional focus has been to enact innovative solutions to 
        challenging safety issues. This has required a strong 
        scientific foundation, appreciation for real-world, practical 
        challenges and operations, an ability to translate technical 
        information into clear and meaningful communications, and to 
        ensure the effectiveness of activities and programs. All of the 
        knowledge, skills, and experience acquired throughout my career 
        can directly advance NHTSA's safety mission.

        (c) Safety focus and scientific expertise. My entire 
        professional career has been focused on enhancing safety. Even 
        my earliest academic-based research efforts involved applied 
        issues intended to improve safety. Therefore, my fundamental 
        worldview involves actions needed to make the world a safer 
        place. This is reflected in the scientific expertise that I 
        have developed over the course of my career, including fatigue 
        (sleep and circadian rhythms), human factors, psychology/
        behavior change, and human performance. Given that 94 percent 
        of all traffic crashes involve human factors, my expertise is 
        relevant to addressing the core safety issues encompassed by 
        NHTSA. All of this expertise is rooted in a scientific-based, 
        data-driven approach to understanding problems and seeking 
        solutions. My fundamental focus on safety and particular areas 
        of scientific expertise are all relevant to NHTSA's safety 
        mission.

        (d) Why serve in the position? To enhance safety. Enhancing 
        safety means saving lives, preventing injuries, and eliminating 
        crashes. The NTSB has been a remarkable experience with so many 
        opportunities to make a safety difference. Leading an operating 
        modal administration represents a different opportunity to 
        enhance safety. NHTSA is where safety programs get created and 
        implemented, regulations are generated and enforced to protect 
        the traveling public, and diverse informational resources guide 
        and inform all of us. NHTSA is, literally, where the rubber 
        meets the road and offers diverse, meaningful opportunities to 
        enhance safety for drivers, passengers, pedestrians, and 
        bicyclists. For example, one area that holds tremendous safety 
        potential is technology. Automated vehicle technologies are 
        currently available to warn about lane deviations, blind spots, 
        forward collisions, and more. Future technology innovations may 
        lead to autonomous vehicles that make substance impaired 
        driving, distraction, and fatigue obsolete safety risks. NHTSA 
        can help to lead the discussion and incentivize the solutions 
        that will translate current and future technology innovations 
        into greater safety on our roadways.

    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Administrator, I will have ultimate responsibility 
to ensure that NHTSA has proper management and accounting controls in 
place and functioning effectively. These areas deserve an in-depth 
examination and, where needed, innovation to enhance these functions to 
reach optimal effectiveness. The same critical evaluation applied to 
NHTSA's safety activities should be used in these areas to identity 
where improvements in management and accounting controls will support 
the agency's safety mission.
    My management experience includes my time as Chief of the Aviation 
Operations Branch in the Flight Management and Human Factors Division 
at NASA Ames Research Center, with direct oversight of 60 scientists, 
researchers, and administrative personnel, including budget and 
operational responsibilities. During my tenure as the Team Leader of 
the Fatigue Countermeasures Program in the Aviation Safety Research 
Branch at NASA Ames Research Center, I created and led multiple 
international coalitions conducting research, addressing policies, and 
collaborating on projects. As a Board Member at the NTSB, my advocacy 
efforts have included leading the creation of a stakeholders coalition 
to address substance-impaired driving. While my experience has provided 
a variety of management opportunities with diverse groups, it does not 
include an organization the size of NHTSA.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (a) Improving oversight, defect identification, investigation, 
        and recall processes. Recent events clearly demonstrate that 
        the current processes related to defect oversight, collection 
        and analysis of complaints, investigating defects, and recall 
        procedures require an in-depth examination, improvement, and 
        innovation. All levels of the process should be examined to 
        determine if and where greater transparency could enhance 
        safety. Information accuracy, clear communication, and 
        coordination need to be evaluated for their roles in improving 
        this process. Direct interactions with automakers are critical 
        to establishing expectations and emphasizing requirements, 
        including the consequences and potential penalties for 
        inaction, slowed or incomplete responses. The full range of 
        NHTSA's authority and tools should be applied to require and 
        enforce needed safety measures.

        There is an immediate need to address the current recall 
        situation, as well as a near-term need to address the full 
        defect-recall process. These efforts should go beyond just 
        'fixing' the current situation and involve improvements and 
        innovations that represent the future of roadway safety. These 
        efforts must be considered in the context of NHTSA's mission 
        requirements given the agency's current resources and 
        authority. It will be critical to determine how resources 
        (e.g., personnel, funding, training) and authority will need to 
        be increased for the agency to effectively meet its mission 
        requirements and expectations. Most importantly, the NHTSA 
        safety mission must be paramount: save lives and prevent 
        injuries. As these issues are examined and changed, safety 
        should be the guiding principle.

        (b) Core safety program innovations. NHTSA maintains a core set 
        of legacy safety programs that must be maintained and will 
        potentially grow as new issues emerge. These core safety 
        efforts that focus on seat belt use, car seats, substance 
        impaired driving, distraction, pedestrian and bicyclist safety, 
        school buses, motorcycles, and much more remain the foundation 
        for driver, passenger, and vehicle safety. These efforts must 
        continue and would benefit from innovative enhancements because 
        of their fundamental role in roadway safety. The ever-
        increasing information overload of modern society creates a 
        challenge for these core safety programs and they must be 
        meaningful and innovative if they are going to be effective. 
        There is a need to bring new ideas and approaches to these core 
        programs so that the safety messages grab attention and lead to 
        actions that will make a difference. These same challenges 
        confront safety and health advocates outside transportation, 
        where their successes in changing and maintaining behavior can 
        inform and guide innovations in these core NHTSA programs.

        (c) The Future: Technology innovations. NHTSA data show that 
        human error accounts for 94 percent of traffic crashes, and 
        there are ongoing efforts to introduce technology solutions to 
        reduce or eliminate these vulnerabilities. There are automated 
        vehicle technologies available today that can dramatically 
        reduce these human error related crashes. Forward collision 
        warning systems, automatic braking, blind spot monitoring, and 
        vehicle-to-vehicle (V2V) communications are only a few examples 
        of these technologies. Future innovations may lead to self-
        driving vehicles that are fully autonomous. These current and 
        future innovations need to be discussed, explored, built, 
        evaluated, evolved, and implemented if their potential is to be 
        fully realized. It will be exciting to see current automated 
        vehicle technologies and future innovations integrated into a 
        roadway safety system for drivers, vehicles, pedestrians, and 
        bicyclists. NHTSA can lead the technology innovation 
        discussions, incentivize development and adoption, and maintain 
        a clear focus on the safety objectives and requirements of new 
        technology.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no deferred compensation agreements or other continuing 
dealings with business associates, clients or customers. The sale of my 
former company, Alertness Solutions, involved structured note payments. 
The Office of Government Ethics and the NTSB's designated agency ethics 
officials were consulted to identify potential conflicts of interest My 
retirement accounts are independent of previous employers.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and DOT's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with DOT's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and DOT's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with DOT's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During my term at the NTSB, I have participated in Board Meetings 
that addressed accident investigations and typically included the 
issuance of safety recommendations to varied organizations. The Board 
also has issued urgent safety recommendations and other recommendations 
through the agency's online notation system. The NTSB has no regulatory 
or enforcement authority, though NTSB safety recommendations do 
identify public policy actions intended to prevent the reoccurrence of 
transportation accidents. The NTSB maintains a Most Wanted List of 
transportation safety issues that is the basis for advocacy efforts 
intended to highlight NTSB safety recommendations. My advocacy areas 
have included substance-impaired driving, fatigue, fire safety, and 
mass transit.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with 
DOT's designated agency ethics official and that has been provided to 
this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 2001, I was named as a defendant in a patent lawsuit against the 
Stanford Sleep Center, where I worked. There was no complaint of 
personal wrongdoing on my part. I had no involvement in the litigation, 
which was handled by Stanford University, and I am not aware of the 
disposition of the suit.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                       Attachment 1: Question #9
                   Resume of Mark R. Rosekind, Ph.D.
Current Position

Board Member, National Transportation Safety Board, Washington, D.C., 
June, 30 2010-present

Nominated by President Obama and confirmed by the U.S. Senate as the 
40th Member of the National Transportation Safety Board for a 5-year 
term ending December 31, 2014
Previous Professional Positions

President and Chief Scientist, Alertness Solutions, Cupertino, CA, 
December, 1997-June, 2010.

Research Scientist and Team Leader, Fatigue Countermeasures Program, 
Aviation Safety Research Branch, Flight Management and Human Factors 
Division, NASA Ames Research Center, Moffett Field, CA. December, 1990-
November, 1997.

Chief, Aviation Operations Branch, Flight Management and Human Factors 
Division, NASA Ames Research Center, Moffett Field, CA. January, 1996-
April, 1997.

Director, Center for Human Sleep Research, Stanford Sleep Disorders and 
Research Center, Department of Psychiatry, Stanford University School 
of Medicine, 1989-1990.
Education

A.B., Psychology, Stanford University, Stanford, CA, 1977

M.S., Psychology (Psychophysiology/Clinical), Yale University, New 
Haven, CT, 1982

M.Phil., Psychology (Psychophysiology/Clinical), Yale University, New 
Haven, CT, 1983

Ph.D., Psychology (Psychophysiology/Clinical), Yale University, New 
Haven, CT, 1987
Honors and Awards

Sigma Xi

A.B., Honors in Psychology, Stanford University, 1977

Yale University Fellowship, 1980-1983

Prize Teaching Fellowship, Yale University, 1983-1984

NASA Ames Honor Award for Excellence in the category of Group, 1992

NASA Group Achievement Award, 1993

Honorary Life Member, Academy of Magical Arts, Magic Castle, 1993

NASA Exceptional Service Medal, 1995

Flight Safety Foundation Presidential Citation for Outstanding Safety 
Leadership, 1997

Flight Safety Foundation Business Aviation Meritorious Award, 1999

Fellow, World Economic Forum Annual Meeting, Davos, Switzerland, 1999, 
2000

NASA Turning Goals into Reality (TGIR) for Outstanding Contributions to 
the Fatigue Countermeasures Program Research Team and Exceptional 
Progress Towards Aviation Safety, 2000

NASA Ames Honor Award for Excellence in the category of Group/Team, 
2003

NASA Turning Goals into Reality (TGIR) for Exceptional Progress Toward 
Support of MER Ops, Office of Aerospace Technology, 2004

NASA Headquarters Award for Group Achievement for the Mars Exploration 
Rover Mission System Development Team, 2004

William E. Collins Award, Outstanding Human Factors Publication of the 
Year, Aerospace Human Factors Association, 2007

Mark 0. Hatfield Award for Public Policy, American Academy of Sleep 
Medicine, 2011
Academic Appointments

Lecturer, Departments of Psychology and Psychiatry, Yale University and 
Yale University School of Medicine, 1986-1987.

Research Associate, Department of Psychiatry, Stanford University 
School of Medicine, 1989-1990,

Research Associate, Stanford Center of Excellence, Department of 
Psychology, Stanford University, 1990.

Acting Assistant Professor, Department of Human Biology, Stanford 
University, January-March, 1993-1995.
Professional Training

Predoctoral Clinical Fellowship, Department of Psychiatry, Yale 
University School of Medicine and Yale-New Haven Hospital, July, 1984-
June, 1985.

Research Fellowship in Sleep and Chronobiology, E.P. Bradley Hospital, 
Department of Psychiatry and Human Behavior, Brown University Program 
in Medicine, 1987-1989.
Editorial Activities

Ad Hoc Reviewer: Psychophysiology; Health Psychology; American Journal 
of Diseases of Children; Psychiatric Research; Pediatrics; EEG Journal; 
Plenum Press; Sleep; Sleep Research; Journal of the American Geriatrics 
Society; Psychological Bulletin; Aviation Space and Environmental 
Medicine.

Editorial Board, Journal of Sleep and Sleep Disorders Research, 
January, 2004-June, 2010.
Professional Affiliations

Sleep Research Society
               Attachment 2: Question #16 (Publications)
Book Chapters

Thoresen, C.E., Coates, T.J., Zarcone, V.P., Kirmil-Gray, K., and 
Rosekind, M.R. Treating the complaint of insomnia: Self-management 
perspectives. In J.M. Ferguson and C.B. Taylor (Eds.), The 
Comprehensive Handbook of Behavioral Medicine. New York: Spectrum 
Publications, 1980.

Bagian T. and Rosekind M.R. Human factors in aerospace systems design 
and operations. In R. DeHart and J. Davis, (Eds.) Fundamentals of 
Aerospace Medicine, 3rd ed., Philadelphia, Lippincott Williams & 
Wilkins, 2002.

Rosekind, M.R., Boyd, J.N., Gregory, K.B., Glotzbach, S.F., and Blank, 
R.C. Alertness management in 24/7 settings: Lessons from aviation. In 
K. Green (Ed.), Occupational Medicine: State of the Art Reviews. 
Philadelphia: Hanley and Belfus, Inc., 2002.

Rosekind, M.R., Managing work schedules: An alertness and safety 
perspective. In Kryger, M.A., Roth, T., and Dement, W.C. (Eds.), 
Principles and Practice of Sleep Medicine, 4th ed., Philadelphia: 
Elsevier Science, 2005.

Rosekind M.R., Flower D.J.C., Gregory, K.B., and Jung W.E. General 
occupational implications of round-the-clock operations. In Kushida 
C.A. (Ed.), Sleep Deprivation. New York: Marcel Dekker, 2005.
Encyclopedia Entries

Rosekind, M.R. Pilots. In Carskadon, M.A. (Ed.), The Encyclopedia of 
Sleep and Dreaming. New York: MacMillan Publishing, 1992.

Rosekind, M.R. Biofeedback. In Carskadon, M.A. (Ed.), The Encyclopedia 
of Sleep and Dreaming. New York: MacMillan Publishing, 1992.

Rosekind, M.R. Relaxation Therapy. In Carskadon, M.A. (Ed.), The 
Encyclopedia of Sleep and Dreaming. New York: MacMillan Publishing, 
1992.

Rosekind, M.R. Behavioral Modification. In Carskadon, M.A. (Ed.), The 
Encyclopedia of Sleep and Dreaming. New York: MacMillan Publishing, 
1992.
Journal Articles

Rosekind, M.R., Coates, T.J., and Thoresen, C.E. Telephone transmission 
of polysomnographic data from subjects' homes. Journal of Nervous and 
Mental Disease, 1978, 166:438-441.

Coates, T.J., Rosekind, M.R., and Thoresen, C.E. All-night sleep 
recordings in clients' homes via telephone. Journal of Behavior Therapy 
and Experimental Psychiatry, 1978, 16:339-346.

Coates, T.J., Rosekind, M.R., Strossen, R.J., Thoresen, C.E., and 
Kirmil-Gray, K. Sleep recordings in the laboratory and the home: A 
comparative analysis. Psychophysiology, 1978, 9:157-162.

Guilleminault, C. and Rosekind, M.R. The arousal threshold: Sleep 
deprivation, sleep fragmentation, and obstructive sleep apnea syndrome. 
European Bulletin of Respiratory Pathophysiology, 1981, 17:341-349.

Guilleminault, C., Simmons, F.B., Motta, J., Cummiskey, J., Rosekind, 
M.R., Schroeder, J.S., and Dement, W.C. Obstructive sleep apnea 
syndrome and tracheostomy: Long term follow-up experience. Archives of 
Internal Medicine, 1981, 141:985-988.

Thoresen, C.E., Coates, T.J., Kirmil-Gray, K. and Rosekind, M.R. 
Behavioral self-management in treating sleep-maintenance insomnia. 
Journal of Behavioral Medicine, 1981, 4:41-52.

Burnett, K., Taylor, C.B., Thoresen, C.E., Rosekind, M.R., Miles, L.E. 
and DeBusk, R. Toward computerized scoring of sleep using ambulatory 
recordings of heart rate and physical activity. Behavioral Assessment, 
1985, 7:261-271.

Carskadon, M.A., Cavallo, A., and Rosekind, M.R. Sleepiness and nap 
sleep following a morning dose of clonidine. Sleep, 1989, 12(4):338-
344.

Cavallo, A., Carskadon, M.A., Rosekind, M.R., and Cattell-Harvey, G. 
Sleep, clonidine, and their interaction on growth hormone secretion in 
normal men. Psychoneuroendorinology, 1990, 15(1):15-21.

Rosekind, M.R. The epidemiology and occurrence of insomnia. The Journal 
of Clinical Psychiatry, 1992, 53(6, suppl.):4-6.

Gander, P.H., Nguyen, D., Rosekind, M.R., and Connell, L.J. Age, 
circadian rhythms, and sleep loss in flight crews. Aviation, Space and 
Environmental Medicine, 1993, 64(3):189-195.

Rosen, R.C., Rosekind, M.R., Rosevear, C., Cole, W.E., and Dement, W.C. 
Physician education in sleep and sleep disorders: A national survey of 
U.S. Medical Schools. Sleep, 1993, 16(3):249-254.

Rosekind, M.R., Gander, P.H., Miller, D.L., Gregory, K.B., Smith, R.M., 
Weldon, K.J., Co, E.L., McNally, K.L., and Lebacqz, J.V. Fatigue in 
operational settings: Examples from the aviation environment. Human 
Factors, 1994, 36(2):327-338.

Smith-Coggins, R., Rosekind, M.R., and Hurd, S. The relationship of day 
vs. night sleep to physician performance and mood. Annals of Emergency 
Medicine, 1994, 24:928-934.

Rosekind, M.R., Smith, R.M., Miller, D.L., Co, E.L., Gregory, K.B., 
Webbon, L.L., Gander, P.H., and Lebacqz, J.V. Alertness management: 
Strategic naps in operational settings. Journal of Sleep Research, 
1995, 4:62-66.

Rosekind, M.R., Gander, P.H., Gregory, K.B., Smith, R.M., Miller, D.L., 
Oyung, R.L., Webbon, L.L., and Johnson, J.M. Managing Fatigue in 
Operational Settings 1: Physiological Considerations and 
Countermeasures. Journal of Behavioral Medicine, 1996, 21:157-165.

Rosekind, M.R., Gander, P.H., Gregory, K.B., Smith, R.M., Miller, D.L., 
Oyung, R.L., Webbon, L.L., and Johnson, J.M. Managing Fatigue in 
Operational Settings 2: An Integrated Approach. Journal of Behavioral 
Medicine, 1996, 21:166-170.

Smith-Coggins, R., Rosekind, M.R., Buccino, K.R., Dinges, D.F., and 
Moser, R.P. Rotating shift schedules: Can we enhance physician 
adaptation to night shifts? Journal of Academic Emergency Medicine, 
1997, 4:951-961.

Gander, P.H., Graeber, R.C., Connell, L.J., Gregory, K.B., Miller, 
D.L., and Rosekind, M.R. Flight crew fatigue I: Objectives and methods. 
Aviation, Space, and Environmental Medicine, 1998, 69(9, Suppl.):B1-7.

Gander, P.H., Gregory, K.B., Graeber, R.C., Connell, L.J., Miller, 
D.L., and Rosekind, M.R. Flight crew fatigue II: Short-haul fixed-wing 
air transport operations. Aviation, Space, and Environmental Medicine, 
1998, 69(9, Suppl.):B8-15.

Gander, P.H., Barnes, R.M., Gregory, K.B., Graeber, R.C., Connell, 
L.J., and Rosekind, M.R. Flight crew fatigue III: North Sea helicopter 
air transport operations. Aviation, Space, and Environmental Medicine, 
1998, 69(9, Suppl.):B16-25.

Gander, P.H., Gregory, K.B., Connell, L.J., Graeber, R.C., Miller, 
D.L., and Rosekind, M.R. Flight crew fatigue IV: Overnight cargo 
operations. Aviation, Space, and Environmental Medicine, 1998, 69(9, 
Suppl.):B26-36.

Gander, P.H., Gregory, K.B., Miller, D.L., Graeber, R.C., Connell, 
L.J., and Rosekind, M.R. Flight crew fatigue V: Long-haul air transport 
operations. Aviation, Space, and Environmental Medicine, 1998, 69(9, 
Suppl.):B37-48.

Gander, P.H., Rosekind, M.R., and Gregory, K.B. Flight crew fatigue VI: 
A synthesis. Aviation, Space, and Environmental Medicine, 1998, 69(9, 
Suppl.):B49-60.

Drake, C.L., Roehrs, T.A., Burduvali, E., Bonahoom, A., Rosekind, M.R., 
Roth, T. Effects of rapid versus slow accumulation of eight hours of 
sleep loss, Psychophysiology, 2002, 38(6):979-87.

Howard, S.K., Rosekind, M.R., Katz, J.K., Berry, A.J. Fatigue in 
anesthesia: implications and strategies for patient and provider 
safety. Anesthesiology, 2002, 97:1281-94.

Howard, S.K., Gaba, D.M., Rosekind, M.R., & Zarcone, V.P. The risks and 
implications of excessive daytime sleepiness in resident physicians. 
Academic Medicine, 2003, 77(10):1019-25.

Hartenbaum, N., Collop, N., Rosen, I.M., Phillips, B., George, C.F.P., 
Rowley, J.A., Freedman, N., Weaver, T.E., Gurubhagavatula, I., Strohl, 
K., Leaman, H.M., Moffitt, G.L., & Rosekind, M.R. Sleep apnea and 
commercial motor vehicle operators: Statement from the Joint Task Force 
of the American College of Chest Physicians, American College of 
Occupational and Environmental Medicine, and the National Sleep 
Foundation. Journal of Occupational and Environmental Medicine, 2006, 
48(9, Suppl.):S1-37.

Smith-Coggins, R., Howard, S.K., Mac, D.T., Wang, C., Kwan, S., 
Rosekind, M.R., Sowb, Y., Balise, R., Levis, J., & Gaba, D.M. Improving 
alertness and performance in emergency department physicians and 
nurses: the use of planned naps. Annals of Emergency Medicine, 2006, 
48:596-604, 604.e1-3.

Rosekind, M.R., Gregory, K.B., Mallis, M.M. Alertness management in 
aviation operations: Enhancing performance and sleep. Aviation, Space, 
and Environmental Medicine, 2006, 77(12):1256-65.

Mallis, M.M., Brandt, S.L., & Rosekind, M.R. The challenges of modern 
day work schedules: Effects on alertness, performance, safety, and 
health. Int J Sleep Wakefulness, 2007, 1(1):7-13.

Gregory K, Winn W, Johnson K, Rosekind M. Pilot Fatigue Survey: 
Exploring Fatigue Factors in Air Medical Operations. Air Medical 
Journal, 2010 Nov-Dec; 29(6):309-19.

Rosekind, M.R., Gregory, K.B., Mallis, M.M., Brandt, S.L., Seal, B., & 
Lerner, D. The cost of poor sleep: workplace productivity loss and 
associated costs. Journal of Occupational and Environmental Medicine, 
2010, 52(1):91-98.

Rosekind, M.R. & Gregory, K.B. Insomnia Risks and Costs: Health, 
Safety, and Quality of Life. The American Journal of Managed Care, 
2010, 16(8):617-26.

Zammit, G.K., Joish, V.N., Kong, M.C., Balkrishnan, R., Lerner, D., & 
Rosekind, M. (2010, May). Impact of nighttime awakenings on worker 
productivity and performance. J Occup Environ Med, 52(5):513-8.

Swanson, L.M., Arnedt, J.T., Rosekind, M.R., Belenky, G., Balkin, T.J., 
Drake, C. (2011). Sleep disorders and work performance: findings from 
the 2008 National Sleep Foundation Sleep in America poll. Journal of 
Sleep Research, 20(3), 487-494. Epub 2010 Sep 30.
Abstracts

Rosekind, M.R., Phillips, R., Rappaport, J., Babcock, D., and Dement, 
W.C. Effects of the waterbed surface on sleep: A pilot study. Sleep 
Research, 1976, 5:132.

Bell, I., Rosekind, M.R., Isaacs, J., Guilleminault, C., and Dement, 
W.C. Provocation-neutralization food injection testing in excessive 
daytime sleepiness patients. Sleep Research, 1976, 5:158.

Bell, I., Rosekind, M.R., Palmer, M., Babcock, D., Guilleminault, C., 
and Dement, W.C. MMPI and sleep-habit profiles of young adults with 
different degrees of postprandrial drowsiness. Sleep Research, 1977, 
6:138.

Bell, I., Rosekind, M.R., Hargrave, V., Guilleminault, C., and Dement, 
W.C. Lunchtime and nap sleep after specific foods in normals. Sleep 
Research, 1977, 6:45.

Coates, T.J., Thoresen, C.E., Strossen, R.J., and Rosekind, M.R. 
Obtaining reliable all-night sleep recording data: How many nights are 
needed? Sleep Research, 1978, 7:285.

Coates, T.J., Strossen, R.J., Rosekind, M.R., and Thoresen, C.E. How 
reliable are sleep scoring procedures? Sleep Research, 1978, 7:284.

Coates, T.J., Thoresen, C.E., Rosekind, M.R., Kirmil-Gray, K., and 
Strossen, R.J. Home and laboratory sleep recordings: A comparative 
analysis. Sleep Research, 1978, 7:283.

Kirmil-Gray, K., Coates, T.J., Thoresen, C.E., Rosekind, M.R., and 
Price, V.A. Treating insomnia in adolescents. Sleep Research, 1978, 
7:237.

Rosekind, M.R., Thoresen, C.E., Coates, T.J., Kirmil-Gray, K., Garson, 
G., George, J.M., and Hamilton, S. Transmission of polysomnographic 
data from subjects' homes via telephone. Sleep Research, 1978, 7:299.

Thoresen, C.E., Coates, T.J., Kirmil-Gray, K., and Rosekind, M.R. 
Treating insomnia: A self-management approach. Sleep Research, 1978, 
7:284.

Rosekind, M.R., Coates, T.J., and Zarcone, V.P. Lateral dominance 
during wakefulness, NREM stage 2 sleep, and REM sleep. Sleep Research, 
1979, 8:36.

Rosekind, M.R., Seidel, W.F., Brown, E.D., Davison, H., Van den hoed, 
J., Carskadon, M.A., and Dement, W.C. The evaluation of daytime 
sleepiness in insomnia. Sleep Research, 1979, 8:214.

Rosekind, M.R., Seidel, W.F., Brown, E.D., Davison, H., Van den hoed, 
J., and Dement, W.C. 28-night sleep laboratory evaluation of 
Flunitrazepam. Sleep Research, 1979, 8:104.

Guilleminault, C., Simmons, F.B., Motta, J., Cummiskey, J., Rosekind, 
M.R., Schroeder, J.S., and Dement, W.C. Obstructive sleep apnea 
syndrome and tracheostomy: Long-term follow-up experience. Sleep 
Research, 1980, 9:201.

Rosekind, M.R., Babcock, D. Carskadon, M., Mitler, M., and Dement, W.C. 
Dose level and efficacy study of a new compound on chronic insomniacs. 
Sleep Research, 1977, 6:80.

Stavosky, J.M., Rosekind, M.R., England W.R., Miles, L.E., and Dement, 
W.C. Circadian rhythms of body temperature and sleep latency in blind 
subjects. Sleep Research, 1980, 9:227.

Thoresen, C.E., Burnett, K.F., Rosekind, M.R., George, J.M., Clark, 
J.R., and Hamilton, S. Chronic stress and reported sleep disturbance. 
Sleep Research, 1980, 9:250.

Burnett, K.F., Taylor, C.B., Thoresen, C.E., Rosekind, M.R., Stavosky, 
J.M., Bragg-Remschel, D.A., Miles, L.E., and Debusk, R.F. Validation of 
a computerized sleep onset detection program utilizing ambulatory heart 
rate and activity level recordings. Sleep Research, 1981, 10:274.

Thoresen, C.E., Burnett, K.F., Rosekind, M.R., Bracke, P., Kirmil-Gray, 
K., Dexter, G., Jacobson, S., and Clark, J. Psychosocial contrasts 
between normal and sleep disturbed subjects with onset, maintenance, 
and combined complaints. Sleep Research, 1981, 10:236.

Thoresen, C.E., Rosekind, M.R., Burnett, K.F., Stavosky, J., Jacobson, 
S., Dexter, G., and Miles, L. Ambulatory physiological monitoring in 
the natural environment of normal and sleep disturbed subjects with 
latency, maintenance, and combined complaints. Sleep Research, 1981, 
10:237.

Rosekind, M.R. and Schwartz, G.E. The perception of sleep and 
wakefulness I: Accuracy and certainty of subjective judgments. Sleep 
Research, 1988, 17:89.

Rosekind, M.R. and Schwartz, G.E. The perception of sleep and 
wakefulness II: Information used for discrimination and effects of 
personality style. Sleep Research, 1988, 17:131.

Rosekind, M.R. and Ronan, K.J.C. Improving sleep and wakefulness 
discrimination in subjective insomnia: A case study. Sleep Research, 
1989, 18:297.

Carskadon, M.A., Rosekind, M.R., Galli, J., Sohn, J., Herman, K.B. 
Classroom multiple sleep latency tests. Sleep Research, 1989, 18:385.

Carskadon, M.A., Rosekind, M.R., Galli, J., Sohn, J., Herman, K.B., 
Davis, S.S. Adolescent sleepiness during sleep restriction in the 
natural environment. Sleep Research, 1989, 18:115.

Carskadon, M.A., Mancuso, J., Rosekind, M.R. Impact of part-time 
employment on adolescent sleep patterns. Sleep Research, 1989, 18:114.

Carskadon, M.A., Wyatt, J., Etgen, G., Rosekind, M.R. Nonvisual sensory 
experiences in dreams of college students. Sleep Research, 1989, 
18:159.

Carskadon, M.A., Cavallo, A., Rosekind, M.R., Mancuso, J., Cattell-
Harvey, G. Effects of clonidine on sleepiness and nap sleep. Sleep 
Research, 1989, 18:49.

Cavallo, A., Carskadon, M.A., Rosekind, M.R., Mancuso, J., Cattell-
Harvey, G. Effects of clonidine and sleep on growth hormone (GH) 
secretion. Sleep Research, 1989, 18:87.

Carskadon, M.A., Millman, R.P., Rosenberg, C.L., Babcock, D.A., 
Rosekind, M.R. Cephalometric measurements may predict sleep-disordered 
breathing due to nasal occlusion in adolescents. Sleep Research, 1989, 
18:213.

Rosekind, M.R., Cohen, S., Welsh, B., Yost, D., Rountree, M., Dement, 
W.C. Recent experience recruiting a population of older insomniacs. 
Sleep Research, 1990, 19:273.

Rosekind, M.R., Yost, D., Rountree, M., Welsh, B., Cohen, S., Seidel, 
W.F., Dement, W.C. Laboratory investigation of sleepiness in night 
shiftworkers. Sleep Research, 1990, 19:403.

Rosekind, M.R., Townsend, B., Rountree, M., Connell, L., Yost, D., 
Graeber, R.C., Spinweber, C., Dinges, D.F., Dement, W.C. Modification 
of the Medilog 9000-II recorder to reduce 400 HZ noise in the cockpit 
environment. Sleep Research, 1990, 19:377.

Dinges, D.F., Graeber, R.C., Connell, L.J., Rosekind, M.R., and Powell, 
J.W. Fatigue-related reaction time performance in long-haul flight 
crews. Sleep Research, 1990, 19:117.

Rosekind, M.R., Connell, L.J., Dinges, D.F., Rountree, M.S., and 
Graeber, R.C. Preplanned cockpit rest: EEG sleep and effects on 
physiological alertness. Sleep Research, 1991, 20, 129.

Connell, L.J., Dinges, D.F., Rosekind, M.R., Gregory, K.B., Rountree, 
M.S., and Graeber, R.C. Preplanned cockpit rest: Changes in aircrew 
subjective alertness during long-haul flights. Sleep Research, 1991, 
20, 119.

Dinges, D.F., Connell, L.J., Rosekind, M.R., Gillen, K.A., Kribbs, 
N.B., and Graeber, R.C. Effects of cockpit naps and 24-hr layovers on 
sleep debt in long-haul transmeridian flight crews. Sleep Research, 
1991, 20, 406.

Cohen, S., Seidel, W.F., Yost, D., Rountree, M., Bailey, R., Rosekind, 
M.R., and Dement, W.C. Triazolam used in the treatment of jet lag: 
effects on sleep and subsequent wakefulness. Sleep Research, 1991, 20, 
61.

Smith-Coggins, R., Rosekind, M.R., Hurd, S., Buccino K. The 
relationship of day vs. night sleep to physicians performance and mood. 
Annals of Emergency Medicine, 1991, 20(4):455.

Dinges, D.F., Rosekind, M.R., Connell, L.J., Graeber, R.C., and Gillen, 
K.A. Eastbound night flights vs. westbound day flights: Directionally 
dependent effects on flight crew layover sleep. Sleep Research, 1992, 
21, 118.

Rosekind, M.R., Dinges, D.F., Gregory, K.B., Gillen, K.A., Smith, R.M., 
Powell, J.W., and Miller, D.L. Estimating nap sleep in operational 
settings: A comparison of actigraphy vs. ambulatory polysomnography. 
Sleep Research, 1993, 22:380.

Smith, R.M., Rosekind, M.R., Gregory, K.B., Miller, D.L., and McNally, 
K.L. Comparison of disposable vs. disc electrodes in ambulatory 
recordings. Sleep Research, 1993, 22:388.

Smith-Coggins, R., Rosekind., M.R., Buccino K.R., Cole., W. Promoting 
alertness and performance on the night shift: An intervention study. 
Annals of Emergency Medicine, 1993, 22(5):946.

Rosekind, M.R., Gander, P.H., Co, E.L., Miller, D.L.,Weldon, K.J., 
Smith, R.M., Gregory, K.B., and Lebacqz, J.V. Fatigue Countermeasures: 
A NASA Education and Training Module. Sleep Research, 1994, 23:143.

Gander, P.H., Gregory, K.B., and Rosekind, M.R. Flight schedules and 
the circadian clock influence sleep loss during overnight cargo 
operations. Sleep Research, 1995, 24:520.

Dinges, D.F., Gillen, K.A., Powell, J.W., Pack, F., Williams, K.S., 
Kribbs, N.B., Orne, E.C., Carlin, M.C., Ott, G.E., Rosekind, M.R., 
Orne, M.T., and Pack, A.I. Mood reports during total and partial sleep 
deprivation: Is anger inevitable? Sleep Research, 1995, 24:441.

Dinges, D.F., Ott, G.E., Gillen, K.A., Orne, E.C., Powell, J.W., 
Carlin, M.C., Kribbs, N.B., Rosekind, M.R., and Orne, M.T. Homeostatic 
and circadian control of waking during sleep deprivation. Sleep 
Research, 1995, 24:442.

Rosekind, M.R., Miller, D.L., Gregory, K.B., and Dinges, D.F. Flight 
crew sleep in long-haul aircraft bunk facilities: Survey results. Sleep 
Research, 1995, 24:112.

Howard, D.K., Gaba, D.M., and Rosekind, M.R. Evaluation of daytime 
sleepiness in resident anesthesiologists. Anesthesiology, 1995, 
83:A1007.

Howard, D.K., Gaba, D.M., and Rosekind, M.R. Subjective assessment of 
sleepiness and sleep onset perception of resident anesthesiologists. 
Anesthesiology, 1995, 83:A1009.

Rosekind, M.R., Smith, R.M., Gregory, K.B., and Miller, D.L. NASA 
AIRLOG: An Electronic Sleep/Wake Diary. Sleep Research, 1996, 25:525.

Howard, S.K., Rosekind, M.R., and Gaba, D.M. Improving daytime 
alertness in resident anesthesiologists: The effects of sleep 
extension. Sleep Research, 1996, 25:468.

Gander, P.H., Gregory, K.B., Miller, D.L., and Rosekind, M.R. Circadian 
and environmental factors affecting sleep of longhaul flight crews. 
Sleep Research, 1996, 25:549.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Co, E.L., Lebacqz, J.V., 
and Brenner. M. Crew fatigue factors in the Guantanamo Bay aviation 
accident. Sleep Research, 1996, 25:571.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Oyung, R.L., Neri, D.F., & 
Dinges, D.F. Sleep quantity and quality of augmented long-haul flight 
crews in on-board crew rest facilities. Sleep Research, 1997, 26:41.

Rosekind, M.R., Co, E.L., Gregory, K.B., Miller, D.L., & Neri, D.F. A 
survey of fatigue factors in corporate/executive aviation operations. 
Sleep Research, 1997, 26:213.

Dijkman, M., Sachs, N., Levine, E., Mallis, M., Carlin, M.M., Gillen, 
K.A., Powell, J.W., Samuel, S., Mullington, J., Rosekind, M.R., & 
Dinges, D. F. Effects of reduced stimulation on neurobehavioral 
alertness depend on circadian phase during human sleep deprivation. 
Sleep Research, 1997, 26:265.

Howard, S.K., Keshavacharya, S., Smith, B.E., Rosekind, M.R., Weinger, 
M., Gaba, D.M. Behavioral evidence of fatigue during a simulator 
experiment. Anesthesiology 1998, A-1236.

Herndon, C.N., Weinger, M.B., Smith, B.E., Howard, S.K., Rosekind, 
M.R., Gaba, D.M. Use of task analysis to evaluate the effects of 
fatigue on performance during simulated anesthesia cases. 
Anesthesiology 1998, A-1180.

Roth, T., Roehrs, T., Bonahoom, A., Rosekind, M., Koshorek, G., and 
Rosenthal, L. Cumulative effects of sleep loss. Sleep, 1998, 21(3, 
Suppl.):239.

Akerstedt, T., comp. Consensus Statement: Fatigue and accidents in 
transport operations. J. Sleep Res., 2000, 9:395. (Written and endorsed 
by 27 authors including M. R. Rosekind).

Rosekind, M.R., Neri, D.F., Gregory, K.B., Mallis, M.M., Bowman, S.L., 
Oyung, R.L., A NASA Education and Training Module on Alertness 
Management: A Survey of Implementation and Application. Sleep, 2001, 
24(Suppl.):A415.

Smith-Coggins, R., Howard, S., Kwan, S., Wang, C., Mac, D.T., Rosekind, 
M.R., Sowb, Y., Balise, R., Gaba, D. Do naps during the night shift 
improve performance in the emergency department. Annals of Emergency 
Medicine, 2002, 9(5):466.

Smith-Coggins, R., Howard, S., Kwan, S., Wang, C., Mac, D.T., Rosekind, 
M.R., Sowb, Y, Balise, R., Gaba, D. Do naps during the night shift 
improve performance in the emergency department. Sleep, 2002, 25:A116-
A117.

Mallis, M.M., Co, E.L., Rosekind, M.R., Neri, D.F., Oyung, R.L. Brandt, 
S.L., Colletti, L.M., Reduta, D.D.: Evaluation of a web-based fatigue 
education and training module in the general aviation (GA) population. 
Aviation, Space and Environmental Medicine, 2003, (Suppl.):382.

Mallis, M.M., Rosekind, M.R., Chapman, P.M., Colletti, L.M., Neri, 
D.F.: Evaluation of the NASA education and training module on alertness 
management: knowledge gained an organizational impact. Sleep, 2004, 
27(Suppl.):A376.

Rosekind, M.R. (2005). Underestimating the societal costs of impaired 
alertness: safety, health and productivity risks. Sleep Medicine, 
6(Suppl. 1), S21-S25.

Mallis, M., Gregory, K., Brandt, S., Grubb, W., and Rosekind, M. 
Effects of insomnia subtypes on perceived occupational functioning: 
survey of nursing professionals. Sleep, 2007, 30 (Abstract 
Suppl.):A266.

Mallis, M., Brandt, S., Gregory, K., Grubb, W., and Rosekind, M. 
Effects of insomnia subtypeson perceived health, mood, and help-
seeking: survey of nursing professionals. Sleep, 2007, 30 (Abstract 
Suppl.):A267.

Rosekind, M. R., Brandt, S. L., Mallis, M. M., Seal, B., Gregory, K. 
B., & Balkrishnan, R. (2007). Sleep disruption and insomnia: Relation 
to work productivity and treatment use [Abstract]. Journal of Managed 
Care Pharmacy, 13(8), 706.

Rosekind, M. R., Gregory, K. B., Brandt, S. L., Mallis, M. M., Joish, 
V. N., & Lerner, D. (2008, June). Insomnia and sleep loss: Reported 
effects on performance, safety, and productivity. Sleep, 31(Abstract 
Suppl.), A247.

Balkrishnan R., Joish V., Koerber C., Rosekind M., Lerner D., Kong M., 
& Zammit G. (2009, June). Impact of nighttime awakenings on worker 
productivity and performance. Sleep, 32 (Abstract Suppl.), A257.

Swanson L., Arnedt J., Rosa R., Rosekind M., Belenky G., Balkin T., & 
Drake C. (2009, June). Sleep, health, and work outcomes for shift 
workers: results from the 2008 Sleep in America Poll. Sleep, 32, 
(Abstract Suppl.), A58-59.
NASA/Government Technical Memoranda

Rosekind, M.R., Graeber, R.C., Dinges, D.F., Connell, L.J., Rountree, 
M.S., Spinweber, C.L. and Gillin, K.A. (1994). Crew Factors in Flight 
Operations: IX. Effects of Planned Cockpit Rest on Crew Performance and 
Alertness in Long-Haul Operations. (Technical Memorandum 103884). 
Moffett Field, CA: NASA.

Kelly, T.L., Rosekind, M.R., & Naitoh, P. (1994). Sleep Management 
Manual. Naval Health Research Center Report NHRC-TD-5E-1994.

Gander, P.H., Connell, L.J., Gregory, K.B., Miller, D.L., Rosekind, 
M.R., and Graeber, R.C. (1996). Crew Factors in Flight Operations: VII. 
Psychophysiological Responses to Overnight Cargo Operations. (Technical 
Memorandum 110380). Moffett Field, CA: NASA.

Dinges, D.F., Graeber, R.C., Rosekind, M.R., Samel, A., and Wegmann, 
H.M. (1996). Principles and Guidelines for Duty and Rest Scheduling in 
Commercial Aviation. (Technical Memorandum 10404). Moffett Field, CA: 
NASA.

Rosekind, M.R., Gander, P.H., Connell, L.J., and Co, E.L. (1999). Crew 
factors in flight operations X: Alertness management in flight 
operations (Technical Memorandum 1999-208780). Moffett Field, CA: NASA.

Co, E. L., Gregory, K. B., Johnson, M. J., Rosekind, M. R. (1999). Crew 
factors in flight operations XI: A Survey of Fatigue Factors in 
Regional Airline Operations (Technical Memorandum 208799). Moffett 
Field, CA: NASA.

Co E.L., Gregory K.B., Johnson J.M., Rosekind M.R., (1999): Crew 
factors in flight operations XIV: Alertness Management in Regional 
Flight Operations (Technical Memorandum 208799). Moffett Field, CA: 
NASA.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Co, E.L. (2000). Crew 
factors in flight operations XII: A survey of sleep quantity and 
quality in on-board crew rest facilities. (Technical Memorandum 2000-
20961). Moffett Field, CA: NASA.

Rosekind, M.R., Co, E.L., Gregory, K.B., Miller, D.L. (2000): Crew 
factors in flight operations XIII: A survey of fatigue factors in 
corporate/executive aviation operations. (Technical Memorandum 209610). 
Moffett Field, CA: NASA.

Rosekind, M.R., Co, E.L., Neri, D.F., Oyung, R.L., Mallis, M.M. (2002): 
Crew factors in flight operations XIV: Alertness management in regional 
flight operations education module. (Technical Memorandum 2002-211393). 
Moffett Field, CA: NASA.

Rosekind, M.R., Co, E.L. Neri, D.F., Oyung, R.L., Mallis, M.M. (2002). 
Crew factors in flight operations XV: Alertness management in general 
aviation. (Technical Memorandum 2002-211394). Moffett Field, CA: NASA.
Technical Papers

Rosekind, M.R., Gander, P.H., and Dinges, D.F. Alertness management in 
flight operations: Strategic napping. SAE Technical Paper Series 
#912138, September, 1991.

Rosekind, M.R., Weldon, K.J., and Lebacqz, J.V. Pegasus Launch Anomaly: 
Evaluation of Contributory Fatigue Factors. In Special Investigation 
Report: Commercial Space Launch Incident, Launch Procedure Anomaly, 
Orbital Sciences Corporation, Pegasus/SCD-1, 80 Nautical Miles east of 
Cape Canaveral, Florida, February 9, 1993 (NTSB/SIR-93/02). Washington, 
D.C.: National Transportation Safety Board. 1993. (NTIS No. PB93-
917003).

Kelly, S.M., Rosekind, M.R., Dinges, D.F., Miller, D.L., Gillen, K.A., 
Gregory, K.B., Aguilar, R.D., and Smith, R.M. Flight controller 
alertness and performance during MOD shiftwork operations. Proceedings 
of a workshop at Space Operations, Applications and Research (SOAR'93) 
Conference, NASA Johnson Space Center, Houston, TX., August, 1993. NASA 
Conference Publication #3240.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Co, E.L., & Lebacqz, J.V. 
Analysis of Crew Fatigue Factors in AIA Guantanamo Bay Aviation 
Accident. In Aircraft Accident Report: Uncontrolled Collision with 
Terrain, American International Airways Flight 808, Douglas DC-8, 
N814CK, U.S. Naval Air Station, Guantanamo Bay, Cuba, August 18, 1993 
(NTSB/AAR-94/04). Washington, D.C.: National Transportation Safety 
Board. 1994. (NTIS No. PB94-910406).

Rosekind, M.R., Weldon, K.J., Co, E.L., Miller, D.L., Gregory, K.B., 
Smith, R.M., Johnson, J.M., Gander, P.H., and Lebacqz, J.V. Fatigue 
factors in regional airline operations. In Public Forum on Commuter 
Airline Safety, National Transportation Safety Board, Atlanta, GA, June 
14-16, 1994.

Rosekind, M.R., Smith, R.M., Miller, D.L., Co, E.L., Gregory, K.B., 
Gander, P.H., and Lebacqz, J.V. (1994). Naps as an alertness management 
strategy. In T. Akerstedt, & G. Kecklund (Eds.), Stress Research 
Reports: Work Hours, Sleepiness and Accidents--Sept 8-10, Proceedings 
and Abstracts (pp. 87-90). Stockholm, Sweden: National Institute for 
Psychological Factors and Health.

Neri, D.F. & Rosekind, M.R. (March, 1997). Recommended principles and 
guidelines for shuttle astronaut crew scheduling. Moffett Field, CA: 
NASA Ames Research Center.

Neri, D.F., Dinges, D.F., & Rosekind, M.R. (June, 1997). Sustained 
carrier operations: sleep loss, performance, and fatigue 
countermeasures. Moffett Field, CA: NASA Ames Research Center.

Rosekind, M.R., Neri, D.F., and Dinges, D.F. (September, 1997). From 
laboratory to flightdeck: Promoting operational alertness. Fatigue and 
Duty Time Limitations--An International Review, Proceedings of the 
Royal Aeronautical Society, London, UK.

Rosekind, M.R. (1999). Fatigue in Transportation: Physiological, 
Performance, and Safety Issues. In Evaluation of U.S. Department of 
Transportation Efforts in the 1990s to Address Operator Fatigue (pp. 
68-81, NTSB SR-99/01). Washington, D.C.: National Transportation Safety 
Board. (NTIS No. PB99-917002 Notation 7155).
Industry/Specialized Articles

Graeber, R.C., Rosekind, M.R., Connell, L.J., & Dinges, D.F. Cockpit 
Napping. ICAO Journal, 1990, 45(10):6-10.

Graeber, R.C. and Rosekind, M.R. The NASA Nap. Airworthy Aviator: The 
Newsletter of Human Factors in Aviation, 1990, 1(4).

Rosekind, M.R., Gander, P.H., Miller, D.L., Gregory, K.B., McNally, 
K.L., Smith, R.M., and Lebacqz, J.V. NASA Ames Fatigue Countermeasures 
Program. FAA Aviation Safety Journal, 1993, 3(1).

Co, E.L., Rosekind, M.R., Johnson, J.M., Weldon, K.J., Smith, R.M., 
Miller, D.L., Gregory, K.B., Gander, P.H., and Lebacqz, J.V. Fatigue 
Countermeasures: Alertness Management in Flight Operations. In 
Proceedings of the Eleventh Annual International Aircraft Cabin Safety 
Symposium. Southern California Safety Institute, Long Beach, CA, 1994.

Rosekind, M.R., Co, E.L., Johnson, J.M., Smith, R.M., Weldon, K.J., 
Miller, D.L., Gregory, K.B., Gander, P.H., and Lebacqz, J.V. Alertness 
management in long haul flight operations. In Proceedings of the 
Thirty-Ninth Corporate Aviation Safety Seminar, Flight Safety 
Foundation, St. Louis, Missouri, 1994.

Rosekind, M.R., Gander, P.H., Smith, R.M., Weldon, K.J., Co, E.L., and 
McNally, K.L. Fatigue in Aviation. Air Line Pilot, 1994, 63(10), 22-25.

Rosekind, M.R., Neri, D.F., Miller, D.L., Gregory, K.B., Webbon, L.L., 
& Oyung, R.L. (May, 1997). Crew fatigue research focusing on 
development and use of effective countermeasures. ICAO Journal 52(4), 
20-22.

Rosekind, M.R., Hamilton-Oravetz, S.H., Sweet, D.N., McCoy, J.M., Co, 
E.L., & Gregory, K.B. (March, 1999). Show me the data: Which fatigue 
countermeasures work? Paper presented at 11th annual European Aviation 
Safety Seminar (EASS): ``Flight Safety: Management, Measurement, and 
Margins,'' Amsterdam, Netherlands.

Rosekind, M.R., Boyd, J.N., Dement, W.C. Managing Alertness in Sleep 
Center Personnel. Sleep Review, 2001, 2(2):17-21, 58.

Rosekind, M.R. Managing fatigue in the 24/7 practice of healthcare: 
Opportunities to improve patient safety. In Howard S.K. & Morell R.C. 
(eds) Anesthesia Patient Safety Foundation Newsletter, Pittsburgh, PA, 
(Spring, 2005).

Rosekind, M.R. Peak performance requires optimal sleep and alertness. 
In Olympic Coach Magazine, 20(2), Colorado Springs, CO, (Spring, 2008).

Rosekind, M.R. Managing Fatigue in EMS Flight Operations: Challenges 
and Opportunities. Invited Industry White Paper, (October 2008).
               Attachment 3: Question #16 (Presentations)
Papers and Posters

Rosekind, M.R. Evaluating treatment effects using home polysomnography. 
In Thoresen, C.E. (Chair), Behavioral self-management in the treatment 
of insomnia. Symposium presented at meetings of the American 
Psychological Association, San Francisco, CA, August, 1977.

Thoresen, C.E., Rosekind, M.R., Coates, T.J., Kirmil-Gray, K., Garson, 
G., George, J.M., and Hamilton, S. Telephone transmission of all-night 
polysomnographic data from subjects' homes. Scientific exhibit 
presented at meetings of the Association for the Psychophysiological 
Study of Sleep, Palo Alto, CA, April, 1978.

Stavosky, J.M., Rosekind, M.R., England, W.R., Miles, L.E., and Dement, 
W.C. Circadian rhythms of body temperature and sleep latency in blind 
subjects. Poster presented at meetings of the Association for the 
Psychophysiological Study of Sleep, Mexico City, Mexico, April, 1980.

Thoresen, C.E., Burnett, K.F., Rosekind., George, J.M., Clark, J.R., 
and Hamilton, S. Chronic stress and reported sleep disturbance. Poster 
presented at meetings of the Association for the Psychophysiological 
Study of Sleep, Mexico City, Mexico, April, 1980.

Burnett, K.F., Taylor, C.B., Thoresen, C.E., Rosekind, M.R., Stavosky, 
J.M., Bragg-Remeschel, D.A., Miles, L.E., and DeBusk, R.F. Validation 
of a computerized sleep onset detection program utilizing ambulatory 
heart rate and activity level recordings. Poster presented at meetings 
of the Association for the Psychophysiological Study of Sleep, Hyannis, 
MA, June, 1981.

Rosekind, M.R. Applying to graduate school in psychology: Why and how. 
In Rosekind, M.R. (Chair) and Harvey, J.H. (Discussant), Symposium 
presented at meetings of the American Psychological Association, Los 
Angeles, CA, August, 1981.

Thoresen, C.E., Burnett, K.F., Rosekind, M.R., Bracke, P., Kirmil-Gray, 
K., Dexter, G., Jacobson, S.G., and Clark, J. Psychosocial contrasts 
between normal and sleep disturbed subjects with onset, maintenance, 
and combined complaints. Poster presented at meetings of the 
Association for the Psychophysiological Study of Sleep, Hyannis, MA 
June, 1981.

Thoresen, C.E., Rosekind, M.R., Burnett, K.F., Stavosky, J., Jacobson, 
S., Dexter, G., and Miles, L. Ambulatory physiological monitoring in 
the natural environment of normal and sleep disturbed subjects with 
latency, maintenance, and combined complaints. Poster presented at 
meetings of the Association for the Psychophysiological Study of Sleep, 
Hyannis, MA, June 1981.

Rosekind, M.R. Going to graduate school in psychology: Why, how, and 
where. In Salovey, P. (Chair), Going to graduate school in psychology: 
A first hand account. Symposium presented at meetings of the Eastern 
Psychological Association, Baltimore, MD, April, 1982.

Rosekind, M.R. A preventive intervention: Helping physically ill 
children cope with hospitalization. In Weissberg, R. (Chair), 
Community-based interventions with children: Graduate and undergraduate 
training issues and experiences. Symposium presented at meetings of the 
Eastern Psychological Association, Baltimore, MD, April, 1984.

Rosekind, M.R. and Schwartz, G.E. The perception of sleep and 
wakefulness I: Accuracy and certainty of subjective judgments. Poster 
presented at the Third Annual Meetings of the Association of 
Professional Sleep Societies, San Diego, CA, June, 1988.

Rosekind, M.R. and Schwartz, G.E. The perception of sleep and 
wakefulness II: Information used for discrimination and effects of 
personality style. Poster presented at the Third Annual Meetings of the 
Association of Professional Sleep Societies, San Diego, CA, June, 1988.

Sohn, J., Rosekind, M.R., Galli, J., Herman, K., Davis, S., Carskadon, 
M.A. Subjective perception of sleep and sleepiness in the classroom. 
Poster presented at the Third Annual Meeting of the Northeastern Sleep 
Society, White Plains, NY, April 1989.

Carskadon, M.A., Rosekind, M.R., Galli, J., Sohn, J., Herman, K.B. 
Classroom multiple sleep latency tests. Oral presentation (Carskadon, 
M.A.) at the Annual Meetings of the Association of Professional Sleep 
Societies, Washington, D.C., June, 1989.

Carskadon, M.A., Rosekind, M.R., Galli, J., Sohn, J., Herman, K.B., 
Davis, S.S. Adolescent sleepiness during sleep restriction in the 
natural environment. Oral presentation (Carskadon, M.A.) at the Annual 
Meetings of the Association of Professional Sleep Societies, 
Washington, D.C., June, 1989.

Carskadon, M.A., Mancuso, J., Rosekind, M.R. Impact of part-time 
employment on adolescent sleep patterns. Oral presentation (Carskadon, 
M.A.) at the Annual Meetings of the Association of Professional Sleep 
Societies, Washington, D.C., June, 1989.

Carskadon, M.A., Cavallo, A., Rosekind, M.R., Mancuso, J., Cattell-
Harvey, G. Effects of clonidine on sleepiness and nap sleep. Oral 
poster presentation (Rosekind, M.R.) at the Annual Meetings of the 
Association of Professional Sleep Societies, Washington, D.C., June, 
1989.

Cavallo, A., Carskadon, M.A., Rosekind, M.R., Mancuso, J., Cattell-
Harvey, G. Effects of clonidine and sleep on growth hormone (GH) 
secretion. Oral poster presentation and poster at the Annual Meetings 
of the Association of Professional Sleep Societies, Washington, D.C., 
June, 1989.

Rosekind, M.R. and Ronan, K.J.C. Improving sleep and wakefulness 
discrimination in subjective insomnia: A case study. Poster presented 
at the Annual Meetings of the Association of Professional Sleep 
Societies, Washington, D.C., June, 1989.

Rosekind, M.R. Jet lag and sleep problems. Invited symposium (Cheryl 
Spinweber, Ph.D., Chair), Western Psychological Association Annual 
Meeting, Los Angeles, CA, April, 1990.

Rosekind, M.R., Townsend, B., Rountree, M., Connell, L., Yost, D., 
Graeber, R.C., Spinweber, C., Dinges, D.F., Dement, W.C. Modification 
of the Medilog 9000-II recorder to reduce 400 HZ noise in the cockpit 
environment. Oral poster presentation and poster at the Annual Meetings 
of the Association of Professional Sleep Societies, Minneapolis, 
Minnesota, June, 1990.

Rosekind, M.R., Rountree, M., Yost, D., Welsh, B., Cohen, S., Seidel, 
W.F., Dement, W.C. Laboratory investigation of sleepiness in night 
shiftworkers. Oral presentation at the Annual Meetings of the 
Association of Professional Sleep Societies, Minneapolis, Minnesota, 
June, 1990.

Graeber, R.C., Rosekind, M.R., Dinges, D.F., Connell, L.J., Powell, 
J.W. Fatigue-related reaction time performance in long-haul flight 
crews. Oral presentation at the Annual Meetings of the Association of 
Professional Sleep Societies, Minneapolis, Minnesota, June, 1990.

Rosekind, M.R. and Rountree, M.S. Preplanned cockpit rest: 
Physiological effects on alertness in long-haul flight crews. Oral 
presentation in ``Flight Crew Fatigue in Transport Operations,'' 
Graeber, R.C. (Chair), at the Sixth International Symposium on Aviation 
Psychology, Ohio State University, Columbus, Ohio, May, 1991.

Rosekind, M.R., Connell, L.J., Dinges, D.F. and Graeber, R.C. 
Preplanned cockpit rest: Effects on physiological alertness in long-
haul flight crews. Oral presentation at the Annual Meetings of the 
Aerospace Medical Association, Cincinnati, Ohio, May, 1991.

Dinges, D.F., Connell, L.J., Rosekind, M.R. and Graeber, R.C. 
Preplanned cockpit rest: Effects on vigilance performance in long-haul 
flight crews. Oral presentation at the Annual Meetings of the Aerospace 
Medical Association, Cincinnati, Ohio, May, 1991.

Smith-Coggins, R., Rosekind, M.R., Hurd, S. and Buccino, K. 
Relationship of day vs. night sleep to physician performance and mood. 
Oral presentation at the Annual Meetings of the Society for Academic 
Emergency Medicine, May, 12-15, 1991.

Rosekind, M.R., Connell, L.J., Dinges, D.F., Rountree, M.S. and 
Graeber, R.C. Preplanned cockpit rest: EEG sleep and effects on 
physiological alertness. Oral poster presentation at the Annual 
Meetings of the Association of Professional Sleep Societies, Toronto, 
Canada, June, 1991.

Connell, L.J., Dinges, D.F., Rosekind, M.R., Gregory, K.B., Rountree, 
M.S. and Graeber, R.C. Preplanned cockpit rest: Changes in aircrew 
subjective alertness during long-haul flights. Oral poster presentation 
at the Annual Meetings of the Association of Professional Sleep 
Societies, Toronto, Canada, June, 1991.

Dinges, D.F., Connell, L.J., Rosekind, M.R., Gillen, K.A., Kribbs, N.B. 
and Graeber, R.C. Effects of cockpit naps and 24-hr layovers on sleep 
debt in long-haul transmeridian flight crews. Poster presentation at 
the Annual Meetings of the Association of Professional Sleep Societies, 
Toronto, Canada, June, 1991.

Rosekind, M.R., Gander, P.H. and Dinges, D.F. ``Alertness management in 
flight operations: Strategic napping.'' SAE Aerotech '91, Aerospace 
Technology Conference and Exposition, Long Beach, CA, September, 1991.

Rosekind, M.R. and Gander, P.H. Alertness management in two-person 
long-haul flight operations. Invited presentation for panel on ``Flight 
Fatigue in Long-Haul Aircraft,'' Aerospace Medical Association 63rd 
Annual Scientific Meeting, Miami Beach, FL, May, 1992.

Dinges, D.F., Rosekind, M.R., Connell, L.J., Graeber, R.C. and Gillen, 
K.A. Eastbound night flights vs. westbound day flights: Directionally 
dependent effects on flight crew layover sleep. Poster presentation at 
the Association of Professional Sleep Societies Annual Meeting, 
Phoenix, Arizona, May 31-June 3, 1992.

Smith-Coggins-R., Rosekind, M.R., Bucciono, K.R., Cole, W. Promoting 
alertness and performance on the night shift: An intervention study. 
Poster presentation at the Society for Academic Emergency Medicine 
Annual Meeting, San Francisco, CA, May 17-20, 1993. Poster received 
Best Poster award for 1993 Annual Meeting.

Gander, P.H. and Rosekind, M.R. Age, Circadian Rhythms, and Sleep Loss 
in Flight Crews. Oral presentation at the Aerospace Medical Association 
Annual Meeting, Toronto, Canada, May 24, 1993.

Rosekind, M.R., Gander, P.H., McNally, K.L., Miller, D.L. and Lebacqz. 
J.V. Fatigue Countermeasures: A NASA Education and Training Module. 
Poster presentation at the Aerospace Medical Association Annual 
Meeting, Toronto, Canada, May 27, 1993.

Rosekind, M.R., Dinges, D.F., Gregory, K.B., Gillen, K.A., Smith, R.M., 
Powell, J.W. and Miller, D.L. Estimating nap sleep in operational 
settings: A comparison of actigraphy vs. ambulatory Polysomnography. 
Oral poster presentation at the 7th Annual meeting of the Association 
of Professional Sleep Societies, Los Angeles, CA, June 26, 1993.

Smith, R.M., Rosekind, M.R., Gregory, K.B., Miller, D.L. and McNally, 
K.L. Comparison of disposable vs. disc electrodes in ambulatory 
recordings. Poster presentation at the 7th Annual meeting of the 
Association of Professional Sleep Societies, Los Angeles, CA, June 26, 
1993.

Kelly, S.M., Rosekind, M.R., Dinges, D.F., Miller, D.L., Gillen, K.A., 
Gregory, K.B., Aguilar, R.D. and Smith, R.M. Flight controller 
alertness and performance during MOD shiftwork operations. Presented at 
Space Operations, Applications and Research (SOAR) Conference, NASA 
Johnson Space Center, Houston, TX, August 4, 1993.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Co, E.L. and Lebacqz, J.V. 
Analysis of crew fatigue factors in AIA Guantanamo Bay Aviation 
Accident. Presented at ``Work hours, sleepiness, and accidents,'' 
Karolinska Institute, National Institute for Psychosocial Factors and 
Health, Stockholm, Sweden, September 8, 1994.

Rosekind, M.R., Smith, R.M., Miller, D.L., Co, E.L., Gregory, K.B., 
Gander, P.H. and Lebacqz, J.V. Naps as an alertness management 
strategy. Presented at ``Work hours, sleepiness, and accidents,'' 
Karolinska Institute, National Institute for Psychosocial Factors and 
Health, Stockholm, Sweden, September 10, 1994.

Rosekind, M.R., Miller, D.L., Gregory, K.B. and Dinges, D.F. Survey of 
sleep quality and quantity in on-board crew rest facilities. Poster 
presentation at Aerospace Medical Association annual meeting, Anaheim, 
CA, May 10, 1995.

Gander, P.H., Gregory, K.B., Miller, D.L., Connell, L.J., Graeber, R.C. 
and Rosekind, M.R. Flight crew sleep and circadian rhythms during 
overnight cargo operations. Poster presentation at Aerospace Medical 
Association annual meeting in Anaheim, CA, May 10, 1995.

Rosekind, M.R. Naps as an alertness management strategy in shiftwork 
environments. In Management of sleep/wake disturbances associated with 
shiftwork, course presented prior to Association of Professional Sleep 
Societies Annual Meeting, Nashville, TN, May 31, 1995.

Dinges, D.F., Ott, G.E., Gillen, K.A., Orne, E.C., Powell, J.W., 
Carlin, M.C., Kribbs, N.B., Rosekind, M.R. and Orne, M.T. Homeostatic 
and circadian control of waking during sleep deprivation. Oral 
presentation at Association of Professional Sleep Societies Annual 
Meeting, Nashville, TN, June 2, 1995.

Dinges, D.F., Gillen, K.A., Powell, J.W., Pack, F., Williams, K.S., 
Kribbs, N.B., Orne, E.C., Carlin, M.C., Ott, G.E., Rosekind, M.R., 
Orne, M.T. and Pack, A.I. Mood Reports During Total and Partial Sleep 
Deprivation: Is Anger Inevitable? Oral presentation at Association of 
Professional Sleep Societies Annual Meeting, Nashville, TN, June 2, 
1995.

Rosekind, M.R., Miller, D.L., Gregory, K.B. and Dinges, D.F. Flight 
crew sleep in long-haul aircraft bunk facilities: Survey results. Oral 
poster presentation at Association of Professional Sleep Societies 
Annual Meeting, Nashville, TN, June 2, 1995.

Gander, P.H., Gregory, K.B. and Rosekind, M.R. Flight schedules and the 
circadian clock influence sleep loss during overnight cargo operations. 
Oral presentation at Association of Professional Sleep Societies Annual 
Meeting, Nashville, TN, June 3, 1995.

Rosekind, M.R., Gander, P.H., Webbon, L.L. and Miller, D.L. Managing 
Fatigue in Aviation Operations: Education and Training. Presentation at 
Aerospace Medical Association annual meeting, Atlanta, GA, May 8, 1996.

Rosekind, M.R., Miller, D.L., Gander, P.H., Gregory, K.B., Oyung, R.L., 
Webbon, L.L., Johnson, J.M., Smith, R.M. and Co, E.L. Fatigue 
Countermeasures in Aviation Operations. Oral presentation at Aerospace 
Medical Association annual meeting, Atlanta, GA, May 8, 1996.

Gander, P.H., Gregory, K.B., Miller, D.L. and Rosekind, M.R. Circadian 
and Environmental Factors Affecting Sleep of Long-Haul Flight Crews. 
Poster presentation at Association of Professional Sleep Societies 
Annual Meeting, Washington D.C, May 31, 1996.

Rosekind, M.R., Smith, R.M., Gregory, K.B. and Miller, D.L. NASA 
AIRLOG: Sleep/Wake Diary. Poster presentation at Association of 
Professional Sleep Societies Annual Meeting, Washington D.C, May 31, 
1996.

Rosekind, M.R., Gregory, K.B., Miller, D.L., Co, E.L., Lebacqz, J.V., 
and Brenner, M. Crew Fatigue Factors in the Guantanamo Bay Aviation 
Accident. Poster presentation at Association of Professional Sleep 
Societies Annual Meeting, Washington D.C, May 31, 1996.

Neri, D.F. & Rosekind, M.R. Sleep and rest requirements: physiological 
considerations. Panel presentation at the 68th annual scientific 
meeting of the Aerospace Medical Association, Chicago, IL, May, 1997.

Rosekind, M.R. & Neri, D.F. Operational issues: What science is 
available? Panel presentation at the 68th annual scientific meeting of 
the Aerospace Medical Association, Chicago, IL, May, 1997.

Roth, T., Roehrs, T., Bonahoom, A., Rosekind, M.R., Koshorek, G., and 
Rosenthal, L. Cumulative effects of sleep loss. Poster presentation at 
Association of Professional Sleep Societies Annual Meeting, New 
Orleans, LA, June 10, 1998.

Rosekind, M.R., Neri, D.F., Gregory, K.B., Mallis, M.M., Bowman, S.L., 
Oyung, R.L. A NASA Education and Training Module on Alertness 
Management: A Survey of Implementation and Application. Poster 
presentation at Association of Professional Sleep Societies Annual 
Meeting, Chicago, IL, June 9, 2001.

Mallis, M., Gregory, K., Brandt, S., Grubb, W., and Rosekind, M. 
Effects of insomnia subtypes on perceived occupational functioning: 
survey of nursing professionals. Poster presented at the Annual 
Meetings of the Association of Professional Sleep Societies, 
Minneapolis, MN, June 9-14, 2007.

Mallis, M., Brandt, S., Gregory, K., Grubb, W., and Rosekind, M. 
Effects of insomnia subtypes on perceived health, mood, and help-
seeking: survey of nursing professionals. Poster presented at the 
Annual Meetings of the Association of Professional Sleep Societies, 
Minneapolis, MN, June 9-14, 2007.

Mallis, M.M., Rosekind, M.R., Lerner, D., Seal, B., Brandt, S.L., 
Gregory, K.B. Insomnia and sleep loss: Workplace productivity loss and 
associated costs. Poster presentation at International Society for 
Pharmacoeconomics and Outcomes Research 10th Annual European Congress, 
Dublin, Ireland, October 20-23, 2007.

Rosekind, M.R., Brandt, S.L., Mallis, M.M., Seal, B., Gregory, K.B., 
Balkrishnan, R. Sleep disruption and insomnia: Relation to work 
productivity and treatment use. Poster presentation at Academy of 
Managed Care Pharmacy Annual Educational Conference, Boston, MA, 
October 24-27, 2007.

Mallis, M.M., Rosekind, M.R., Lerner, D., Seal, B., Brandt, S.L., & 
Gregory, K.B. (2007, October). Insomnia and sleep loss: Workplace 
productivity loss and associated costs. Poster presentation at the 
International Society for Pharmacoeconomics and Outcomes Research 10th 
Annual European Congress, Dublin, Ireland.

Rosekind, M.R., Brandt, S.L., Mallis, M.M., Seal, B., Gregory, K.B., & 
Balkrishnan, R. (2007, October). Sleep disruption and insomnia: 
Relation to work productivity and treatment use. Poster presentation at 
the Academy of Managed Care Pharmacy Educational Conference, Boston, 
MA.

Rosekind, M.R., Gregory, K.B., Brandt, S.L., Mallis, M.M., Joish, V.N., 
& Lerner, D. (2008, June). Insomnia and sleep loss: Reported effects on 
performance, safety, and productivity. Poster presentation at the 23rd 
Annual Meeting of the Associated Professional Sleep Societies, 
Baltimore, MD.
Invited

Narcolepsy and animal related research. Invited lecture presented to 
Community Medicine 149: Introduction to Sleep and Sleep Disorders, 
University of California at San Diego, School of Medicine, April, 1978.

Rosekind, M.R. and Nowack, K.M. Sleep and sleep disorders for health 
professionals. University Extension, University of California at Davis. 
Full-day seminar accredited for continuing education credit by the 
University of California at San Francisco, Nursing, February, 1979 and 
March, 1980.

Sleep disorders: An introduction to their diagnosis and treatment. 
Psychopharmacology Grand Rounds, Department of Psychiatry, Yale 
University School of Medicine, November, 1983.

An introduction to the diagnosis and treatment of sleep disorders. In 
service presentation, Capital Region Mental Health Center, Hartford, 
CT, March, 1985.

Sleep disorders: Past, present and future. Grand Rounds, Department of 
Psychiatry, Yale University School of Medicine and Yale-New Haven 
Hospital, February, 1985.

A biopsychosocial approach to the evaluation and treatment of sleep 
disorders. Adult and Pediatric Sleep Disorders Conference sponsored by 
the Hospital of St. Raphael and the New Haven Sleep Disorders Center, 
New Haven, CT, September, 1986.

An introduction to behavioral and cognitive-behavioral therapy. 
Neuropsychiatry Rounds, Department of Psychiatry, Yale University 
School of Medicine, August, 1986.

An introduction to sleep disorders: Diagnosis and treatment. 
Psychosomatic Grand Rounds, Department of Psychiatry, Yale University 
School of Medicine, May, 1982, August, 1984, 1985, 1986.

Schwartz, J.I. and Rosekind, M.R. Behavioral medicine: Behavioral 
approaches to treatment. Mini-Course, Psychopharmacology Rounds, 
Department of Psychiatry, Yale University School of Medicine, Spring, 
1986.

Sleep and sleep disorders: Circa 1988. Psychology Section, West Haven 
Veterans Medical Center, West Haven, CT, September, 1988.

The diagnosis and treatment of sleep disorders. Cape Cod Hospital, Cape 
Cod, MA, August, 1988.

Sleep disorders: An introduction. Quincy City Hospital, Quincy, MA, 
September, 1988.

Sleep disorders: State-of-the-art diagnosis and treatment. 97th Army 
General Hospital, Frankfurt, West Germany, March, 1989.

An introduction to the diagnosis and treatment of sleep disorders. 
Institute of Living, Hartford, CT, April, 1989.

Sleep disorders medicine: State-of-the-art, 1989. Annual Medical Staff 
Conference, St. Francis Hospital, Santa Barbara, CA, December, 1989.

Conducting research in applied settings. Sleep Medicine and Technology 
Training and Education Center, 8 presentations, Palo Alto, CA, 1989-
1990.

Shiftwork, jet lag and biological rhythm disruptions. Medical Aspects 
of Foreign Travel, Mountain Medicine Institute and University of 
California, San Francisco, Treasure Island, San Francisco, CA, May, 
1990; 1991; 1992.

Sleep disorders medicine: State-of-the-art, 1990. Invited address, 
Annual Scientific Meeting of the Missouri Academy of Family Physicians, 
Osage Beach, MO, June, 1990.

Time travel: Sleep and circadian disruptions. Invited presentation to 
the 1990 Annual Cross-Tell Navy Divers Conference held at the Naval 
Diving and Salvage Training Center, Panama City, FL, October, 1990.

Rosekind, M.R., Graeber, R.C. and Connell, L.J. Continuous EEG 
recordings during long-haul flights: Effects of preplanned cockpit 
rest. Presented at CEC-Workshop on ``Psychophysiological measures in 
transport operations,'' DLR-Institute for Aerospace Medicine, Cologne, 
Germany, October, 1990.

Adaptation to shiftwork. Invited presentation for Emergency Department 
Attending Physicians, Stanford University School of Medicine, July 
1991.

Role of fatigue in commercial vehicle accidents. Presented to National 
Transportation Safety Board (NTSB) members, researchers, and 
investigators organizing a study on commercial truck accidents related 
to fatigue. One of three presentations (others by R. Mackie and W.C. 
Dement). Participated in discussion of study design and objectives. Met 
and/or spoke with John Lauber, Ph.D., NTSB member, Susan Coughlin, NTSB 
member, Bernard Loeb, Ph.D., Director of Research, and J. Kolstad, NTSB 
Chairman, October, 1991.

Fatigue Countermeasures. Presented to Annual Cross-Tell Diving 
Conference at the Naval Diving and Salvage Training Center, Panama 
City, FL; second year in a row presenting to this group, only 1 other 
presenter has been asked back in the last 8 years, November, 1991.

Fatigue Countermeasures. Presented to the U.S. Army Priority Air 
Transport Detachment, Andrews Air Force Base, Washington, D.C., 
December, 1991.

Biological Rhythms and the Transportation Industry: Implications for 
the Airline Industry. 1992 Industrial Symposium: Importance of 
Biological Rhythms for Industry; sponsored by The Center for Biological 
Timing, a National Science Foundation Science and Technology Center, 
February, 1992.

Flight Crew Fatigue. Invited presentation for first annual Beechjet/
Diamond Operators Conference, Beechcraft, Wichita, Kansas, April, 1992.

NASA Ames Fatigue Countermeasures Program. Presented to Independent 
Pilots Association, UPS and UPS Management Personnel, Louisville, 
Kentucky, May, 1992.

Rosekind, M.R., Lebacqz, J.V., Miller, D.M., Gregory, K.B., McNally, 
K.L., Smith, R.M. and Boyle, M. Fatigue countermeasures: Managing 
alertness and performance in shiftwork operations. Presented to NASA 
Ames Research Center 80 X 120 wind tunnel personnel (Code FFN), June, 
1992.

Strategies for Alertness Management in Flight Operations. Presented to 
Chief Pilot, management, pilot, flight attendant, training, and other 
personnel at American, United, Delta, Northwest, UPS, and DHL, August, 
1992-February, 1993.

NASA Ames Fatigue Countermeasures Program and Strategies for Alertness 
Management in Flight Operations. Presented to Human Factors in Aviation 
course, Department of Biological Sciences, San Jose State University, 
David Wood and Dr. Dan Holley, Instructors, March, 1993.

Strategies for Alertness Management in Flight Operations presented to 
89th Presidential/Congressional Airlift Wing, Andrews Air Force Base, 
Washington, D.C., March 30, 1993.

Fatigue, sleep, and sleep disorders. Presented to Health Psychology 
masters (M.A.) students in the Counseling Psychology Dept., Stanford 
Univ., Professor Carl E. Thoresen, May 18, 1993.

Alertness Management in Flight Operations. Presented to FAA Aviation 
Rulemaking Advisory Committee Working Group on Flight/Duty/Rest 
requirements; meeting held at United Airlines Training Center, Denver, 
CO, May 27, 1993.

NASA Ames Fatigue Countermeasures Program activities, as part of a 
shared presentation with Dr. David Dinges, Univ. of Pennsylvania School 
of Medicine; presented to the Air Freight Association, Washington, 
D.C., June 30, 1993.

Alertness Management in Flight Operations. Presented to National 
Transportation Safety Board, Washington, D.C., including Carl Vogt, 
Chairman, Dr. John Lauber, Member, Susan Coughlin, Member and 35 NTSB 
staff, July, 1, 1993.

Alertness Management in Flight Operations. Presented to Dept of 
Aeronautics and Astronautics, Naval Postgraduate School, Dept of Navy, 
Monterey, CA, July 8, 1993.

Fatigue, Sleep, and Sleepiness in Operational Settings. Presented to 
Command and Controls Seminar, co-sponsored by NASA Johnson Space Center 
Mission Operations Directorate and University of Houston-Clear Lake, 
Houston, TX; (with Sean Kelly, JSC), July 13, 1993.

JSC/ARC MOD Shiftwork Project Status Briefing. Presented to Flight 
Directors Office, Mission Operations Directorate, NASA JSC; included 
Lee Briscoe, Lead Flight Director; Houston, TX; (with Sean Kelly, JSC 
and Dr. Dave Dinges, Univ. of Pennsylvania School of Medicine), July 
13, 1993.

JSC/ARC MOD Shiftwork Project Status Briefing. Presented to Program 
Operations Management Team, Mission Operations Directorate, NASA JSC; 
included Gene Kranz, Chief, MOD and 60 other MOD Directorate and 
Division Chiefs, July 14, 1993.

NASA Ames Fatigue Countermeasures Program,. Presented to New Zealand 
Civil Aviation Authority, including Kevin Ward, Executive Director and 
Program Chiefs (e.g., medical), July 21, 1993.

Fatigue in Operational Settings: Examples from Aviation,. Presented to 
Invited Seminar, Department of Psychiatry and Behavioral Sciences, 
University of Auckland School of Medicine, Auckland, New Zealand, July 
22, 1993.

Alertness Management in Flight Operations. Presented to Air New Zealand 
personnel including Manager of Flight Operations, Medical Department, 
Flight Operations, representatives of pilot groups and line pilots, 
Auckland, New Zealand, July 23, 1993.

Fatigue Research in Aviation: Current Activities and Issues. Presented 
to the ICARUS Committee as a special brief; invited by Dr. John Lauber, 
Member, NTSB and Jack Enders, Flight Safety Foundation, co-chair ICARUS 
Committee; Seattle, Washington, July 26, 1993.

Alertness Management in Flight Operations. Presented to SAE G10 (Human 
Behavior Technology) Committee, San Diego, CA, August 3, 1993.

Rosekind, M.R. and Dinges, D.F. Invited workshop--Alertness Management 
in Flight Operations: Education and Training; presented at the IATA 
22nd Technical Conference on Human Factors in Aviation, Montreal, 
Quebec, Canada, October 5, 1993.

Alertness Management in Flight Operations. Invited presentation in 
Developing Trends in Flight Operations symposium (Capt. Neil Johnston, 
Aer Lingus, Chair), presented at the IATA 22nd Technical Conference on 
Human Factors in Aviation, Montreal, Quebec, Canada, October 8, 1993.

Fatigue Countermeasures in Flight Operations. Invited presentation at 
Independent Pilot Association's 1993 Aviation Health and Safety 
Symposium, Louisville, KY, Oct. 12, 1993.

Alertness Management in Flight Operations (NASA Education and Training 
Module). Presented at Southwest Airlines, Dallas, TX, October 13, 1993.

Fatigue Factors in AIA Guantanamo Bay Accident. Presented as expert 
testimony to National Transportation Safety Board hearing investigating 
accident. Analyzed sleep/wake and related data provided by NTSB 
Investigators and presented relevant information regarding 
physiological factors (i.e., sleep loss, circadian disruption) that may 
have played a role in the accident. Honorable John Hammerschmidt, NTSB 
Board Member presided over the hearing, January 7, 1994.

Fatigue and Alertness Management in Flight Operations. Presented at the 
request of the Director General, Transport Canada for the initial 
meetings of working groups examining Canadian light/duty/rest 
requirements. Provided information to two groups--a major airline 
group; and a regional, commuter, air taxi, rotorcraft group, January 
26-27, 1994.

Fatigue Countermeasures: Alertness Management in Flight Operations. 
Presented to the 11th Annual International Aircraft Cabin Safety 
Symposium and Technical Conference, Jan. 31-Feb. 5, 1994, Long Beach, 
CA, sponsored by the Southern California Safety Institute and Civil 
Aeromedical Institute, February 3, 1994.

Is it really safe to fly? Presented at Scripps Clinic and Research 
Foundation Symposium, ``Sleep and the Public Safety: Issues of 
Alertness, the Work Place, and Unintentional Injury,'' La Jolla, CA, 
February 25, 1994.

Alertness Management in Flight Operations. Presented to Aviation Human 
Factors, San Jose State University; Instructors David Wood and 
Professor Dan Holley, March 15, 1994.

Sleep and Alertness in Operational Settings. Presented to Health 
Psychology Education graduate students, Department of Education, 
Stanford University; Professor Carl Thoresen, March 29, 1994.

Alertness Management in Flight Operations presented to VP Flight 
Operations and Chief Pilots, Continental Airlines, Houston, TX, April 
6, 1994.

Alertness Management in Flight Operations presented to Operational 
Problems in Aerospace Physiology, School of Aerospace Physiology, 
Brooks AFB, San Antonio, TX, April 8, 1994.

Alertness Management in Long-Haul Corporate Flight Operations presented 
to 39th Annual Corporate Air Safety Symposium, Flight Safety 
Foundation, St. Louis, MO, April 14, 1994.

Alertness Enhancement in Flight Operations presented as part of a Human 
Factors Panel at Delta Airlines, ALPA Safety Forum, San Diego, CA, 
April 22, 1994.

Sleep Loss and Alertness in Operational Settings, Colloquium, 
Department of Psychology, University of Arizona, Tucson, AZ, April 29, 
1994.

Sleep, Sleepiness, and Performance. Presented to Airline Medical 
Directors Association, Aerospace Medical Association Annual Meeting, 
San Antonio, TX; entire program organized on flight crew fatigue, June 
7, 1994.

Alertness Management in Flight Operations. Presented to Airline Medical 
Directors Association, Aerospace Medical Association Annual Meeting, 
San Antonio, TX; entire program organized on flight crew fatigue, June 
7, 1994.

Fatigue Issues in the Aviation Industry. Presented to Air Transport 
Assoc. Operations Council, including 14 VPs of Flight Operations from 
major U.S. air carriers, ATA personnel (VP Operations and others), and 
FAA representatives, June 11, 1994.

Alertness Management in Flight Operations. Presented to Naval 
Postgraduate School Seminar, Monterey, CA, June 26, 1994.

Sleep, circadian rhythms, alertness, and performance in flight 
operations. Briefing presented to Anthony Broderick, Assoc. 
Administrator, Charles Huettner, Assoc. Administrator, Dave Herrington, 
Division Chief, Larry Youngblut, Rulemaking Team Leader, Flight/Duty/
Rest Rulemaking Team, and General Counsel representatives, FAA, 
Washington, D.C., July 1, 1994.

Alertness Management in Flight Operations. Presented to America West 
Airlines personnel (about 65) representing flight operations, 
management, pilots, flight attendants, scheduling, safety, training, 
and others, Phoenix, AZ, July 21, 1994.

Alertness management in flight operations. Presented to 1994 Aerospace 
Physiologist Course, USAF School of Aerospace Medicine, Brooks AFB, San 
Antonio, TX, August 12, 1994.

Rosekind, M.R. and Gander, P.H. Alertness management in flight 
operations. Presented to Federal Express management personnel, Memphis, 
TN, August 24, 1994.

Fatigue in aviation operations. Presented at Air Transport Association 
Ops Forum, Blaine, WA, September 19, 1994.

Alertness management in flight operations. Presented to U.S. Coast 
Guard Commanding Officer Conference, Washington, D.C. (attended by 28 
COs of U.S. Coast Guard Stations), September 22, 1994.

Alertness management in corporate flight operations. Presented to 
Gulfstream Pilot Advisory Board, Savannah, GA, November 8, 1994.

Alertness management in flight operations. Presented to Pacific Rim 
International Pilot Group sponsored by Air Transport Association, 
Honolulu, HI, November 11, 1994.

Alertness management in flight operations. Presented to U.S. Coast 
Guard Station flight crews, San Diego, CA, January 4, 1995.

Alertness management in flight operations. Presented to National 
Business Aircraft Association Annual Dispatchers and Schedulers 
meeting, San Francisco, CA, January 12, 1995.

Alertness management in flight operations. Presented to NTSB Board 
Members (Hammerschmidt and Francis) and staff, Washington D.C., January 
19, 1995.

Alertness management in flight operations. Presented to California Air 
National Guard command personnel, Sacramento, CA, January 28, 1995.

Managing fatigue in aviation operations. Keynote presentation at New 
Zealand Civil Aviation Authority Symposium, Auckland, New Zealand, 
February 9, 1995.

Managing fatigue in operational settings. Presented to Santa Clara 
Valley Medical Group, Santa Clara, CA, February 28, 1995.

NASA Ames Fatigue Countermeasures Program and Strategies for Alertness 
Management in Flight Operations. Presented to Human Factors in Aviation 
course, Department of Biological Sciences, San Jose State University, 
David Wood and Dr. Dan Holley, Instructors, March 7, 1995.

Sleep and sleep disorders. Presented to Health Psychology Graduate 
Seminar, Department of Education, Stanford University (Professor Carl 
Thoresen), March 14, 1995.

Alertness management in flight operations. Presented to Air Canada 
senior management and scheduling personnel, Toronto, Canada, March 17, 
1995.

Alertness management in flight operations. Presented to Air National 
Guard senior safety personnel, Denver, CO, March 22, 1995.

Alertness management in flight operations. Presented to Delta Airlines 
Annual ALPA Safety Forum, Fort Lauderdale, FL, March 24, 1995.

Managing fatigue in operational settings. Presented to Sleep and Public 
Policy Forum, sponsored by Sleep Disorders Clinic, Presbyterian 
Hospital, Dallas, TX, March 25, 1995.

Alertness management in flight operations. Presented to National 
Business Aircraft Association Annual International Operators 
Conference, Dallas, TX, March 29, 1995.

Alertness Management in Flight Operations. Presented to Operational 
Problems in Aerospace Physiology, School of Aerospace Physiology, 
Brooks AFB, San Antonio, TX, April 5, 1995.

Time travel: Managing shiftwork and jet lag. Presented to Medical 
Aspects of Foreign Travel, Mountain Medicine Institute, Treasure 
Island, CA, April 29, 1995.

Alertness management in flight operations. Presented to FAA Crew 
Resource and Safety Management Course for senior and mid-level FAA 
managers, FAA HQ, Washington D.C., May 24, 1995.

Managing fatigue in corporate aviation operations. Presented to 
Gulfstream Annual Operators Conference, Savannah, GA, June 7, 1995.

Evaluating human fatigue factors in aviation accident investigations. 
Presented to first annual Accident Investigation Course for Medical 
Personnel, FAA Civil Aeromedical Institute, Oklahoma City, OK, June 19, 
1995.

Alertness management in flight operations. Presented to Delta Airlines 
Corporate Safety Dept., Flight Operations, In flight, and Human Factors 
Group personnel. Invited/arranged by Dr. John Lauber, VP, Corporate 
Safety and Compliance, Atlanta, GA, August 22, 1995.

Alertness management in flight operations. Presented to safety meeting 
for Maryland State Police, Baltimore area Emergency Services personnel, 
FAA, and aviation personnel. Maryland National Guard facility, MD, 
September 26, 1995.

Alertness management in flight operations. Presented to Continental 
Airlines Human Factors Group, Houston, TX, September 29, 1995.

Fatigue countermeasures in flight operations: Implications for FAA 
activities. Presented to FAA HQ, Washington, D.C., October 31, 1995.

Corporate flight operations: Fatigue issues and potential 
countermeasures. Presented to Corporate Safety Seminar, Flight Safety 
Foundation, Seattle, WA, November 9, 1995.

Fatigue countermeasures: Implications for airline maintenance 
operations. Presented to United Airlines Maintenance Safety/Training 
Working Group, San Francisco International Airport, November 28, 1995.

Managing fatigue in the workplace: Addressing safety, productivity, and 
efficiency. Presented to San Jose State University Business Alumni 
Association, San Jose, CA, November 30, 1996.

Alertness Management in Flight Operations. Presented to Operational 
Problems in Aerospace Physiology, School of Aerospace Physiology, 
Brooks AFB, San Antonio, TX, January 24, 1996.

Fatigue countermeasures: Considerations in law enforcement. Presented 
to Santa Clara County Sheriff's Department, San Jose, CA, February 2, 
1996.

Managing fatigue in longhaul corporate flight operations. Presented to 
International Operators Conference, National Business Aircraft Assoc., 
Orlando, FL, February 29, 1996.

Fatigue in the Operating Room: Implications for anesthesia and 
medicine. Presented to Department of Anesthesiology, Columbia 
University School of Medicine, New York, NY, May 9, 1996.

Alertness management in flight operations: Implications for shuttle and 
station ops. Presented to JSC Safety Program (including astronaut 
office, flight operations, training, etc.), Houston, TX, May 21, 1996.

Alertness Management in Flight Operations. Presented to Operational 
Problems in Aerospace Physiology, School of Aerospace Physiology, 
Brooks AFB, San Antonio, TX, May 22, 1996.

Introduction to sleep physiology. Presented to National Sleep 
Foundation International Drive Alert, Arrive Alive Conference, 
Washington, D.C., May 28, 1996.

Fatigue research in transportation. Presented to American Trucking 
Association Litigation Center Annual Conference, Vail, CO, July 15, 
1996.

Human factors and automation: Future considerations. Keynote dinner 
presentation to Maritime Institute symposium on Human Factors in Marine 
Operations, Baltimore, MD, October 1, 1996.

Fatigue factors in corporate aviation: Initial survey results. 
Presented to Flight Safety Foundation Corporate Advisory Committee, 
Savannah, GA, October 30, 1996.

Managing performance and alertness in professional athletics. Presented 
to New York Giants Football Team (about 12 players), Giants Stadium, 
New York, NY, November 1, 1996.

Alertness management: A student perspective. Presented to DeAnza 
College student intern program, NASA Ames Research Center, Moffett 
Field, CA, November 6, 1996.

Corporate aviation approaches to managing fatigue. Presented to 
National Business Aircraft Association Annual Meeting, Orlando, FL, 
November 19, 1996.

Augmented long-haul flight operations: Initial results of field study. 
Presented to Air New Zealand Scientific Advisory Group, Tahiti, 
November 27, 1996.

Managing fatigue in transportation operations: Lessons from aviation. 
Presented to Burlington Northern Santa Fe Railroad executives and union 
representatives, Dallas, TX, January 27, 1997.

Fatigue in transportation: Management strategies. Presented to Chief 
Operating Officer's Safety Council, Burlington Northern Santa Fe 
Railroad, Dallas, TX, January 28, 1997.

Alertness Management in Flight Operations. Presented to U.S. Navy 
Safety Officers meeting, Jacksonville, FL, January, 29, 1997.

Strategies to manage fatigue in corporate aviation operations. 
Presented to Corporate Aviation Directors Roundtable, West Palm Beach, 
FL, March 2, 1997.

Neri, D.F., Rosekind, M.R., Co, E.L., Gregory, K.B., & Miller, D.L. 
Research on the effects of fatigue within the corporate/business 
aircraft arena. Paper presentation at 9th annual European Aviation 
Safety Seminar (EASS): ``Safety--The Global Challenge,'' Amsterdam, 
Netherlands, March, 1997.

Managing fatigue in healthcare settings. Presented to Surgery Grand 
Rounds, Department of Surgery, University of California San Francisco 
School of Medicine, March 12, 1997.

Alertness management in flight operations. Presented to NASA Ames 
Research Center, Moffett Field, CA, March 27, 1997.

Alertness management in flight operations. Presented to Professional 
Helicopter Pilots Society (primarily fire and law enforcement pilots), 
Van Nuys, CA, April 5, 1997.

Alertness management in flight operations. Presented to MCI and Mobil 
Corporate Aviation Departments, Dulles Airport, Washington, D.C., April 
9, 1997.

Time travel: Managing shiftwork and jet lag. Presented to Medical 
Aspects of Foreign Travel, Mountain Medicine Institute, Treasure 
Island, CA, April 26, 1997.

Strategic napping: an effective fatigue countermeasure. Presented to 
American Trucking Association multi-modal symposium on ``Managing 
Fatigue in Transportation,'' Tampa, FL, April 30, 1997.

Fatigue in corporate aviation operations: initial survey results. 
Presented to Flight Safety Foundation Corporate Aviation Safety 
Seminar, Phoenix, AZ, May 1, 1997.

Managing fatigue in corporate aviation operations. Presented to Senior 
Executives, Aviation Methods, Inc., Burlingame, CA, May 16, 1997.

Corporate strategies to manage fatigue in aviation operations. 
Presented to Gulfstream Operators Conference, Savannah, GA, June 3, 
1997.

Managing performance and alertness in law enforcement operations. 
Presented to Federal Bureau of Investigation Special Operations Group, 
including Hostage Rescue Team (HRT) and Critical Incident Response Team 
(CIRT), FBI Academy, Quantico, VA, June 27, 1997.

Alertness management in flight operations. Presented to U.S. Navy 
Safety Officers meeting, San Diego, CA, July 7, 1997.

Corporate survey update. Presented to Corporate Aviation Directors 
Roundtable, San Diego, CA, July 8, 1997.

Introduction to sleep and sleep disorders. Presented to cardiac patient 
group, Kaiser Permanente Hospital, South San Francisco, CA, July 23, 
1997; July 22, 1998.

From laboratory to flightdeck: Promoting operational alertness. Fatigue 
and Duty Time Limitations--An International Review, Proceedings of the 
Royal Aeronautical Society, London, UK, September 16, 1997.

Fatigue in transportation. American Trucking Association meeting, 
Charleston, SC, January 14, 1998.

Sleeper berths: A fatigue countermeasure for trucking. Webasto 
Thermosystems press conference, Miami, FL, January 28, 1998.

Managing fatigue in transportation: The future challenges. Keynote 
lunch address, American Public Transit Association fatigue symposium, 
Washington, D.C., February 19, 1998.

Managing driver fatigue: Practical information for motor carriers, 
trucking schools, and insurance providers. Driver Training & 
Development Alliance, National Forum, Alexandria, VA, March 2, 1998.

Managing fatigue longhaul flight operations: Corporate strategies. 
National Business Aircraft Association International Operators 
Conference, San Antonio, TX, March 17, 1998.

Commercial flight operations: Practical fatigue countermeasures. Civil 
Aviation Authority, New Zealand and Air New Zealand Safety Seminar, 
Auckland, New Zealand, March 31, 1998.

Fatigue countermeasures. Canadian Aviation Safety Seminar, Transport 
Canada, Civil Aviation, Toronto, Ontario, Canada, April 21, 1998.

Managing fatigue in transportation. Department of Transportation Safety 
Council, composed of Modal Administrators and other safety personnel, 
Washington, D.C., April 24, 1998.

Managing fatigue corporate flight operations. Bombardier Operators 
Conference, San Antonio, TX, April 28, 1998.

Trucking Hours of Service Issues. Panel Moderator, American Trucking 
Association Foundation annual meeting, Key Largo, FL, April 30, 1998.

Managing jet lag: Practical strategies for the traveler. Disney 
corporate retreat, Orlando, FL, May 30, 1998.

Addressing fatigue in railroad operations. Association of American 
Railroads Safety Meeting, San Antonio, TX, June 2, 1998.

Managing fatigue in flight operations: Pilot strategies and Managing 
fatigue in flight operations: Maintenance strategies. Gulfstream 
Operators Conference, Savannah, GA, June 3, 1998.

Fatigue in the railroad industry: Issues and strategies. United 
Transportation Union Regional Meetings, June 23, July 12, and August 
11, 1998.

Promoting good sleep: Lodging considerations. Lodging Enterprises, 
Wichita, KS, September 11, 1998.

The new science of fatigue countermeasures. American Trucking 
Association Litigation Center, Scottsdale, AZ, September 14, 1998.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, November 9, 1998.

Real Docs Don't Need Sleep: Sleep Strategies for Managing Fatigue. 
Kaiser Permanente 12th Annual Anesthesia Symposium, San Francisco, CA, 
November 7, 1998.

Shift Work Factors: How They Affect Us and Strategies to Manage Shift 
Work Fatigue: An Integrated Approach. Oregon Health Sciences 
University, Center for Research on Occupational and Environmental 
Toxicology, Portland, OR, January 22, 1999.

The Alert Traveler (presented twice), panel on Peak Performance: 
Managing the Health of the CEO. World Economic Forum, Davos, 
Switzerland, January 28--February 1, 1999.

Alertness Technology: Medications, Diet and the Scientific Findings. 
Flight Safety Foundation, 11th Annual EASS, Amsterdam, Holland, March 
10, 1999.

Fatigue and Cockpit Resource Management, panel moderator. National 
Business Aviation Association 26th Annual International Operator's 
Conference, Orlando, FL, March 24, 1999.

Aviation Fatigue Conference, Taupo, New Zealand, March 29, 1999.

Driver Fatigue: Physiological Considerations and Appropriate 
Countermeasures for Detection and Prevention. ALFA, Coral Gables, FL, 
April 29, 1999.

Managing Fatigue in Aviation Operations; Reducing Crew Fatigue: 
Alertness Management Strategies. International Air Transport 
Association, Amman, Jordan, May 4, 1999.

Alert Traveler, Egypt International Economic Forum, Cairo, Egypt, May 
6, 1999.

Gulfstream Operator's Conference, Savannah, GA, June 9, 1999.

Sleep and Transportation: Meeting the Challenge. 1999 Associated 
Professional Sleep Societies Annual Meeting, Orlando, FL, June 20, 
1999.

Third Annual Safety Congress Meeting, Indiana Harbor Belt Railroad, 
Hammond, IN, September 8, 1999.

Promoting Alertness and Performance in Flight Operations. Aircraft 
Builders' Council Annual Seminar, San Francisco, CA, September 13, 
1999.

Scientific Foundations: Sleep, Circadian Factors, and Performance; and 
Scientific Frontiers: The Latest Findings; and Hours of Service and 
Fatigue: Industry Perspectives (moderator). Federal Bar Association 
Symposium, Washington, D.C., October 25, 26, 1999.

Managing Fatigue at Your Trucking Company: A Practical Approach. 
American Trucking Association Foundation Meeting, Orlando, FL, November 
1, 1999.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, November 5, 1999, January 14, 2000.

India Economic Summit, New Delhi, India, December 5-7, 1999.

The State of the CEO: A Health Review; and What Keeps Memory in Good 
Shape (moderator); and What Will Be the Biggest Advances in Sciences in 
the Next 100 Years? (table host). World Economic Forum, Davos, 
Switzerland, January 27-31, 2000.

Jet Lag and the Business Traveler--Mood, Behavior, and Work 
Functioning; and Overcoming Jet Lag: Alternative Models. World Bank 
Symposium, Washington, D.C., April 27, 2000.

The Internal Body Clock, Jet Lag, and Modern Society. The Times of Our 
Lives Workshop, Stanford University, Stanford, CA, April 29, 2000.

Physiology of Fatigue and Countermeasures. Fatigue and Performance 
Seminar, Teterboro Users' Group, Teterboro, NJ, May 10, 2000.

Translating Sleep Research into Real World Applications: Examples from 
Alertness Solutions. School of Sleep Medicine, Palo Alto, CA, May 19, 
2000.

Long Haul Flight Operations. International Association for Accident and 
Traffic Medicine, Stockholm, Sweden, May 26, 2000.

Behavioral Strategies to Treat Sleepiness and Fatigue; and Promoting 
Alertness and Safety in Sleep Center Staff: Using Our Expertise At Our 
Own Labs (Meet the Professor). Associated Professional Sleep Societies, 
June 18, 19, 2000.

Managing Fatigue in Corporate Flight Operations. Bombardier Maintenance 
and Ops Seminar, Dallas, TX, June 29, 2000.

Managing Fatigue in Corporate Flight Operations. Bombardier Aerospace, 
Wichita, KS, August 19, 2000.

The ATA Alertness Management Initiative. Air Transport Association Ops 
Forum, Jacksonville, FL, September 26, 2000.

Business Aviation Professionals of New England, Chelmsford, MA, 
September 28, 2000.

Science Tells Us About Why Fatigue Management is of Critical 
Importance; and Sleep Disorders. Federal Transit Administration 
Symposium, Washington, D.C., October 26, 2000.

Your Eyes to Practical New Strategies. Association Management 
Conference, San Diego, CA, October 31, 2000.

Safety in Sleep Center Staff: Using Our Expertise at Our Own Labs. 
Keynote address, Pacific Northwest Sleep Association, Stevenson, WA, 
March 10, 2001.

Managing Alertness in 24/7 Settings: Safety and Productivity 
Perspectives. University of Texas Medical Branch, Galveston, TX, April 
11, 2001.

Managing Fatigue in Flight Ops. Grand Rounds, University of Texas 
Medical Branch, Galveston, TX, April 10, 2001.

Well-being, Sleep and Jetlag. British Airways Wellness Conference, Los 
Angeles, CA, May 2, 2001.

Making the Best Use of Your Most Valuable Resource. Annenberg 
Foundation, Minneapolis, MN, May 16, 2001.

Scientific basics: Introduction to Alertness Management. Air Transport 
Association Alertness Management Symposium, Arlington, VA, May 23, 
2001.

Fatigue Management for Sleep Center Personnel (Meet the Professor). 
Associated Professional Sleep Societies, Chicago, IL, June 8, 2001.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, July 20, 2001.

Alertness Management in Healthcare Settings: Barriers and Strategies 
for Change; and Alertness Management in Healthcare Settings: Risks, 
Issues, and Approach. Summit on Effective Practices to Improve Patient 
Safety, Department of Veterans Affairs, Washington, D.C., September 6-
7, 2001.

Lessons Learned: Alertness Management Applications in Medical Training. 
Physician Heal Thyself: Sleep Loss, Fatigue and Medical Training, Brown 
University, Providence, RI, October 19, 2001.

Evaluation and Management of Fatigue in Non-Medical Occupations: 
Lessons Learned. Sleep, Fatigue and Medical Training; Optimizing 
Learning and the Patient Care Environment, American Academy of Sleep 
Medicine/American Medical Association, Alexandria, VA, October 28, 
2001.

Managing Fatigue and Alertness. International Association of Chiefs of 
Police, Toronto, Canada, October 30, 2001.

It's Better to Sleep Flat. British Airways media event, Hong Kong, 
January 15, 2002.

Stress Management, Fatigue, Duty Times and Other Human Factors in Long 
Range Flying. NBAA International Operators Conference, Nashville, TN, 
March 11-12, 2002.

NASA Education and Training Workshop, NASA Ames Research Center, 
Mountain View, CA, March 20--21, 2002 and October 9-10, 2002.

Alertness Management in Law Enforcement. San Mateo County Police 
Chief's and Sheriff's Association Spring 2002 Training Conference, 
Pacific Grove, CA, April 3, 2002.

Sleepwalking Through the Shift? Alertness Management in Healthcare. 
Virginia Partnership for Nursing, Williamsburg, VA, April 16-17, 2002.

Managing Alertness 24/7 in Health Care Settings: Enhancing Patient and 
Provider Safety. VHA Chief Nursing Officers' Network Meeting, Chicago, 
IL, April 20-21, 2002.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, April 26, 2002 and November 8, 2002.

Sleep, Safety, and Public Policy in Understanding Sleep Medicine: What 
the Psychiatrist Needs to Know. American Psychiatric Association, 
Philadelphia, PA, May 19-20, 2002.

Fatigue in Long Range Flight Operations. European Business Aviation 
Conference and Exhibition, Geneva, Switzerland, May 27-30, 2002.

Managing Fatigue and Alertness. Colorado Chief's of Police, 
Breckenridge, CO, June 4, 2002.

Fatigue and Alertness Management for the Sleep Professional. APSS 
Conference, Seattle, WA, June 9, 2002.

Awake at the Wheel: How to be an Alert Driver. Johnson and Johnson 
Fleet of Champions Conference, Boston, MA, June 12, 2002.

Managing Alertness 24/7 in Health Care Settings: Enhancing Patient and 
Provider Safety. VHA Perioperative Executive Advisory Council, New 
Orleans, LA, September 5, 2002.

NASA Education and Training Workshop. Jet Propulsion Laboratories, 
Pasadena, CA, September 17, 2002 and October 24, 2002.

Alertness Management in Healthcare. BETA Healthcare Group Fall Network 
Meeting, San Diego, CA, September 18, 2002, Walnut Creek, CA, September 
19, 2002, Reno, NV, September 20, 2002.

Managing Fatigue in Healthcare. Ground Rounds, Cardinal Health Systems, 
Muncie, IN, September 25, 2002.

Managing Fatigue in Aviation Operations. San Jose State University, San 
Jose, CA, October 1, 2002.

Improving Patient and Provider Safety in 24/7 Healthcare Settings: 
Fatigue Risks, Issues & Solutions. The VHA Partnership Symposium 2002: 
Smart Designs for Patient Safety, Washington, D.C., October 15, 2002.

Managing Jet Lag, A Healthy Journey to Heathrow. British Airways media 
event, Denver, CO, October 29, 2002 and San Diego, CA, November 1, 
2002.

Managing Alertness in 24/7 Settings. Atherton Police Department Annual 
Safety Meeting, Atherton, CA, October 30, 2002.

Sleep, Dreams and Health. Burlingame Lion's Club, Burlingame, CA, 
October 31, 2002.

The Hidden Cost of Fatigue. The Virginia Hospital Research and 
Education Foundation 76th Annual Meeting of the Members, Homestead, VA, 
November 14, 2002.

Overview of the Risks and Consequences of Shift Work: Implications for 
Research, Public Policy and Public Education. National Sleep Foundation 
Drowsy Driving Summit, Washington, D.C., November 21-22, 2002.

Fatigue Countermeasures. Boeing Executive Flight Operations Annual 
Safety Seminar, Palm Springs, CA, January 7, 2003.

NASA Education and Training Workshop. Jet Propulsion Laboratories, 
Pasadena, CA, January 23, 2003 and October 9, 2003.

Awake at the Wheel: How to be an Alert Driver. Advanced Sterilization 
Products, Division of Johnson & Johnson, National Sales Conference, 
Carlsbad, CA, February 4, 2003.

Awake at the Wheel: How to be an Alert Driver. Biosense Webster, 
Division of Johnson & Johnson, Global Sales Meeting, Calgary, Canada, 
February 5, 2003.

Enhancing Patient and Provider Safety: The Challenge of 24/7 
Healthcare. VA Patient Safety Meeting, Las Vegas, NV, February 25, 
2003.

Managing Alertness in 24/7Settings. South San Francisco Police 
Department Dispatchers, San Francisco, CA, February 26, 2003.

Sleep, Dreams and Health. Kaiser Permanente, South San Francisco, CA, 
February 26, 2003.

Alertness Management in 24/7 Healthcare Settings: Improving Patient and 
Provider Safety. Web-based Teleconference, Premier Inc., February 27, 
2003.

Alertness Management: Enhancing Patient and Provider Safety. Health 
Insurance Forum Annual Meeting, Scottsdale, AZ, March 10, 2003.

High Performance Fatigue. Keynote Presentation, North Eastern Sleep 
Society, Hartford, CT, March 13-15, 2003.

Fatigue and Human Factors in the Long-Range Flight Environment. 
International Operators Conference, National Business Aviation 
Association, Colorado Springs, CO, March 18, 2003.

Managing Fatigue in 24/7 Healthcare Settings: Improving Patient and 
Provider Safety. American Organization of Nurse Executives Annual 
Meeting, New Orleans, LA, March 30, 2003.

Alertness Management in 24/7 Healthcare Settings: Improving Patient and 
Provider Safety. Western Anesthesia Residents Conference, Stanford, CA, 
April 5, 2003.

NASA Education and Training Workshop, NASA Ames Research Center, 
Mountain View, CA, April 15-16, 2003 and October 15-16, 2003.

Alertness Management in Healthcare: Enhancing Patient and Provider 
Safety. VHA Empire State, Webex Conference Training, April 17, 2003.

Managing Fatigue in Healthcare: Enhancing Patient and Provider Safety. 
VHA Operating Room Director's Meeting, Edina, MN, May 16, 2003.

Managing Fatigue in Maintenance Operations: Risks, Issues and 
Solutions. National Business Aviation Association Maintenance Manager's 
Conference, Charlotte, NC, May 20, 2003.

Fatigue Countermeasures for Corporate Aviation. Tag Aviation, 
Burlingame, CA, May 23, 2003.

Alertness in the Workplace and Strategies to Combat Fatigue. San Carlos 
Police Department, San Carlos, CA, June 10, 2003.

Managing Fatigue in Healthcare: Enhancing Patient and Provider Safety. 
New Mexico VA Healthcare System Ground Rounds and Town Hall Meeting, 
Albuquerque, NM, June 26, 2003.

Managing Fatigue in Law Enforcement: The 24/7 Challenge. Annual 
International Association of Women in Police Training Conference, San 
Francisco, CA, September 4, 2003.

Combating Drowsy Driving. Traffic Alliance for a Safer California 
Annual Meeting, Sacramento, CA, September 9, 2003.

Alertness Management in Law Enforcement. San Bruno Police Department, 
San Bruno, CA, September 17, 2003.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, September 17, 2003.

AvAlert Training Workshop. DelMar Jets, La Jolla, CA, September 22, 
2003.

Managing Alertness in Business Aviation: Enhancing Flight Safety. 
National Business Aviation Association Workshop, Orlando, FL, October 
5-6, 2003.

Alert Traveler: Your Passport to Managing Jet Lag. Sierra Heart 
Institute, Squaw Creek, CA, October 11, 2003.

Managing Fatigue in 24/7 Healthcare Settings: Improving Patient and 
Provider Safety. Connecticut Hospital Association's Annual Nursing 
Leadership Forum, Wallingford, CT, October 22, 2003.

Fatigue Countermeasures in Corporate Aviation. Bombardier Aerospace 
Safety Standdown, Wichita, KS, October 30, 2003.

Sleep and Dreams. Burlingame High School, October 31, 2003.

Human Fatigue: Practical Strategies that Improve Safety and 
Productivity in Health. Denver Safety Patient Coalition Meeting, 
Littleton, CO, November 7, 2003.

Sleepiness, Vigilance and Alertness. Respironics Medical Advisory 
Conference, Philadelphia, PA, December 3-4, 2003.

Battle Fatigue. Association of California Nurse Leaders Annual Program, 
San Diego, CA, February 10, 2004.

Circadian Shifting, Fatigue, and Fatigue Countermeasures. Pushing the 
Envelope VI Conference and the 25th Annual U.S. Army Operational 
Aeromedical Problems Course, Galveston, TX, February 17-18, 2004.

Shift Work and Accidents. National Sleep Foundation Workshop on Shift 
Work Sleep Disorder, Washington, D.C., March 4-5, 2004.

Investigating Human Fatigue Factors in Transportation Accidents. 
National Transportation Safety Board Academy Course, Ashburn, VA, March 
10-11, 2004 and September 28-29, 2004.

NASA Education and Training Workshop, NASA Ames Research Center, 
Mountain View, CA, March 17-18, 2004 and December 8-9, 2004.

Circadian Physiology: The Biologic Clock; Circadian Disruption and 
Rhythm Abnormalities; and Managing Shift Work: Issues and Strategies. 
Sleep Disorders 2004, Las Vegas, NV, March 22-24, 2004.

Fatigue and Sleep Issues. National Business Aviation Association 
International Operator's Conference, Anaheim, CA, March 23, 2004.

Sleep and Dreams. Burlingame High School, Burlingame, CA, March 26, 
2004.

Occupational Groups (shiftwork, transportation, health care, military). 
Frontiers of Knowledge in Sleep and Sleep Disorders: Opportunities for 
Improving Health and Quality of Life, National Center on Sleep 
Disorders Research; National Heart, Lung and Blood Institute and Trans-
NIH Sleep Research Coordinating Committee, Bethesda, MD, March 29-30, 
2004.

Managing the Physiological and Safety Challenges of Night Flying: A 
Shared Responsibility. Air Cargo Safety Forum, National Transportation 
Safety Board Academy, Ashburn, VA, March 31, 2004.

Awake at the Wheel: How to be an Alert Driver. Johnson and Johnson 
Training Meeting, Braselton, GA, April 1, 2004.

Enhancing Patient and Provider Safety: The Challenge of 24/7 Health 
Care. Parkview Medical Center Retreat, Pueblo, CO, April 13, 2004.

Human Fatigue: Practical Strategies that Improve Safety and 
Productivity in Healthcare. Surgical Infection Prevention: The Colorado 
Collaborative Experience Project, Colorado Foundation for Medical Care, 
Denver, CO, May 5, 2004.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, May 7, 2004.

Alertness Management: Enhancing Patient and Provider Safety. Kentucky 
Hospital Association Annual Convention, Louisville, KY, May 25, 2004.

Caring for Children: How Managing Fatigue will Improve Safety, Quality 
of Care and Health. Third Annual Pediatric Trends: What Every Nurse 
Caring for Children Needs to Know. Children's National Medical Center, 
Greenbelt, MD, June 11, 2004.

Sleep, Dreams and Health. Kiwanis Club, San Carlos, CA, July 19, 2004.

Enhancing Performance and Alertness in Our 24/7 Global Society. Egypt's 
International Economic Forum, 4th Conference on Telecommunication and 
Information Technology in the Arab World, Cairo, Egypt, September 5-7, 
2004.

Underestimating the Societal Costs of Impaired Alertness: Safety, 
Health, and Productivity Risks. Sanofi-Synthelabo's Second 
International Sleep Disorders Forum, Paris, France, September 10-12, 
2004.

Managing Fatigue in Aviation Operations. Human Factors Seminar, Marine 
Aircraft Wing, Miramar, San Diego, CA, September 21, 2004.

Living in a 24/7 Global Society: Alertness and Safety Challenges. 
Keynote Presentation, Provigil National Consultants Meeting for Primary 
Care Physicians, Las Vegas, NV, October 1-3, 2004.

Fatigue Countermeasures in Corporate Aviation. Bombardier Aerospace 
Safety Standdown, Wichita, KS, October 27, 2004.

Managing Fatigue in Organizations: Safety and Productivity Issues. Penn 
Arts & Sciences, Center for Organizational Dynamics, University of 
Pennsylvania, Philadelphia, PA, November 2, 2004.

Eyes Wide Open: How to Sleep Better and be More Alert in Our 24/7 
World. Penn Humanities Forum, University of Pennsylvania, Philadelphia, 
PA, November 3, 2004.

Extended Working Hours: Managing the Health and Safety Consequences. 
Mining and Resource Contractors Safety Training Association One-Day 
Workshop, Perth, Australia, November 17, 2004.

Fatigue Countermeasures in Flight Operations. Safety Standdown, Navel 
Test Wing, Atlantic, Patuxent River, MD, January 20, 2005. (Conducted 
with Captain Robert Agostino, Director, Flight Operations, Learjet and 
Captain Gene Cernan, Apollo XVII Astronaut).

Managing Fatigue in Law Enforcement. California Police Chiefs 
Association's 28th Annual Conference, Sacramento, CA February 9, 2005.

Conducting Effective Technical Presentations. National Transportation 
Safety Board Academy Course, Ashburn, VA, February 23-24, 2005.

Disease State and Treatment Overview: Insomnia and the American Worker. 
Workplace Council on Insomnia, Pfizer/Neurocrine Biosciences Meeting, 
Sonoma, CA, February 27-28, 2005.

Living in a 24/7 Global Society: Alertness and Safety Challenges. 
Provigil Speaker Training Meeting, San Francisco, CA, March 12-13, 
2005.

Invited Panelist. Health and Wellness. Transportation Research Board 
Conference on Future Truck and Bus Safety Research Directions, 
Washington, D.C., March 23-24, 2005.

Managing Alertness in the 24/7 Society. Johnson & Johnson 2005 Safe 
Fleet Executive Breakfast, New Brunswick, NJ, April 5, 2005.

Investigating Human Fatigue Factors in Transportation Accidents. 
National Transportation Safety Board Academy Course, Ashburn, VA, April 
21-22, 2005 and November 17-18, 2005.

Best Practices in the Workplace. Neurocrine Pfizer Workplace Council on 
Insomnia, Task Force Meeting, Phoenix, AZ, April 27-28, 2005.

Managing Fatigue in Law Enforcement. Grass Valley Police Department's 
Annual Meeting, Grass Valley, CA, May 27, 2005.

The Effects of Sleep Deprivation and Countermeasure Strategies. 
Bombardier Aerospace 2005 Maintenance and Operations Seminar, Quebec, 
Canada, June 1, 2005.

Managing Fatigue in Law Enforcement: The 24/7 Challenge. Redwood City 
Police Department, Redwood City, CA, June 16, 2005.

Invited Panelist. Sleep, Health and Society, Pfizer Roundtable 
discussion, Lake Tahoe, NV, July 28-29, 2005.

Invited Panelist. Fatigue Risk Management Programs: How Can They 
Improve Operational Safety and Performance? U.S. Department of 
Transportation Fatigue Management in Transportation Operations 
International Conference, Seattle, WA, September 13-15, 2005.

Alertness Matters Presentation Provided at the Following:

        United Airlines, Elk Grove, IL, September 22, 2005.

        Greyhound Bus Lines, Chicago, IL, September 23, 2005.

        Northwestern Memorial Hospital, Chicago, IL, September 23, 
        2005.

        National Safety Council, Itasca, IL, September 28, 2005.

        Mercy Hospital, Chicago, IL, September 28, 2005.

        RML Specialty Hospital, Hinsdale, IL, September 28, 2005.

        Rush North Shore Medical Center, Skokie, IL, September 29, 
        2005.

        Rush University Medical Center, Chicago, IL, September 29, 
        2005.

Fatigue Countermeasures in Aviation. Bombardier Aerospace Safety 
Standdown, Wichita, KS, October 26, 2005.

The Impact of Fatigue and Sleep Deprivation on First Responders and 
Other Caregivers. King County Chief's Meeting, Bellevue, WA, November 
11, 2005.

Stop! You May be Too Tired to Work Without Injury. Kentucky Sleep 
Society, 7th Annual Sleep Medicine Conference, Louisville, KY, November 
12, 2005.

Managing Fatigue in 24/7 Operations: Risks, Issues and Solutions 
(presented six times). United States Marine Corps, Holiday Safety 
Standdown, Honolulu, HI, December 6-7, 2005.

Sleep, Dreams and Health. Young Presidents' Organization, Palo Alto, 
CA, January 11, 2006.

Sleepwalking Through the Shift. The Forum for Healthcare Learning and 
Excellence, Grand Rounds, Virginia Commonwealth University Medical 
Center, Richmond, VA, February 22, 2006.

Are you Sleepwalking Through the Trauma? The Forum for Healthcare 
Learning and Excellence, Virginia Commonwealth University Medical 
Center, Richmond, VA, February 23, 2006.

Sweet Dreams: A Good Night's Sleep for Your Child and You. Los Altos 
Parent Preschool, Los Altos, CA, March 13, 2006.

Circadian Physiology; Circadian Rhythm Abnormalities; Sleep, 24/7, and 
the Transportation Industry. Sleep Disorders 2006--All You Ever Wanted 
to Know About Sleep, Las Vegas, NV, March 27-28, 2006.

Investigating Human Fatigue Factors in Transportation Accidents. 
National Transportation Safety Board Academy Course, Ashburn, VA, April 
26-27, 2006 and October 18-19, 2006.

Best Practices in the Workplace and Workplace Safety, Building the 
Optimal Model: Insomnia and Safety in the Workplace. Neurocrine Pfizer 
Workplace Council on Insomnia, Task Force Meeting, Scottsdale, AZ, 
April 28, 2006.

Alertness Matters Presentation Provided at the Following:

        Greyhound Bus Lines, Cincinnati, OH, May 2, 2006.

        TriHealth Bethesda North Hospital, Cincinnati, OH, May 2, 2006.

Sleep Deprivation, Shift Work, Jet Lag and Performance Decrement. 
Providence Everett Medical Center, Sleep, Sleepiness and Sleeplessness 
Conference, Everett, WA, May 5, 2006.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, May 12, 2006.

Alertness Matters Presentation Provided at the Following:

        Greyhound Bus Lines, Charlotte, NC, May 23, 2006.

        Coca-Cola, Charlotte, NC, May 24, 2006.

        Wachovia Bank, Charlotte, NC, May 24, 2006.

AvAlert Training Workshop. Bombardier Aerospace Flight Operations, 
Windsor Locks, CT, May 25, 2006.

Alertness Management in Aviation Operations. Emirates Group Safety Day, 
Human Performance in Aviation Safety, Dubai, United Arab Emirates, June 
6, 2006.

Sleep Challenges of a 24/7 Global Society. Awakening Insomnia 
Management: A Collaborative Approach to Improved Care, Sanofi-Aventis 
Satellite Symposium, Salt Lake City, UT, June 20, 2006.

Alertness Matters Presentation Provided at the Following:

        General Motors, Detroit, MI, June 27, 2006.

        Con-Way Freight Central, Ann Arbor, MI, June 27, 2006.

        St. Joseph Mercy Hospital, Ypsilanti, MI, June 27, 2006.

        Greyhound Bus Lines, Detroit, MI, June 28, 2006.

        Aerodynamics, Waterford, MI, June 28, 2006

        Centennial Airport Business Pilots Association, Englewood, CO, 
        August 8, 2006.

        CAE, Denver, CO, August 8, 2006.

        Frontier Airlines, Denver, CO, August 9, 2006.

Managing Alertness in 24/7 Law Enforcement Operations: Enhancing Public 
and Officer Safety. Arthur J. Gallagher's all-day Law Enforcement 
Seminar, Vineland, NJ, September 28, 2006.

Fatigue Countermeasures in Aviation. Bombardier Aerospace Safety 
Standdown, Wichita, KS, October 4, 2006.

Sleep Challenges of the Teenage Years. University High School Assembly, 
San Francisco, CA, October 11, 2006.

Sweet Dreams: A Good Night's Sleep for Your Child and You. West 
Hillsborough School District Speaker Series, West Hillsborough, CA, 
October 26, 2006.

Alert in Adolescence: Sleep Challenges of the Teenage Years. Menlo-
Atherton High School, Atherton, CA, October 24, 2006.

Managing Alertness in 24/7 Operations. Association of Bay Area 
Governments all-day Workshop, Redwood City, CA, November 16, 2006.

Clinician Fatigue and the Safety of Patients and Providers. Strategic 
Nap Program, Veterans' Administration Hospital, Portland, OR, January 
10, 2007.

Sleep Challenges of the Teenage Years. Gunn High School, Palo Alto, CA, 
February 5, 2007.

The Impact of Fatigue and Sleep Deprivation on First Responders and 
Other Caregivers. Olympia Fire Department, Olympia, WA, February 13, 
2007.

Sleep Loss and Fatigue: Effects on Performance, Safety and Health. A 
Scientific Workshop on Women and Sleep by the National Sleep Foundation 
and Atlanta School of Sleep Medicine, Washington, D.C., March 6, 2007.

AvAlert Training Workshop. Procter & Gamble Corporate Aviation 
Department, Cincinnati, OH, March 21, 2007.

Managing Fatigue in Pipeline Operations (4 half-day workshops). Alyeska 
Pipeline, Valdez, AK, March 27-28, 2007.

Managing Fatigue in Maintenance Operations: Risks, Issues & Solutions. 
National Business Aviation Association, Maintenance Management 
Conference, San Diego, CA, April 4, 2007.

Managing Fatigue in 24/7 Healthcare Settings: Improving Patient and 
Provider Safety. American Association of Neuroscience Nurses 39th 
Annual Educational Meeting, Kissimmee, FL, May 2, 2007.

Alertness Management in Aviation Operations. Tag Aviation Operators 
Management Conference, Burlingame, CA, May 9, 2007.

Invited Panelist. Neurocrine Biosciences Sleep Advisory Board Meeting, 
San Diego, CA, May 18, 2007.

Fatigue Issues in Today's Aviation Environment. Presentation at 
European Business Aviation Conference and Exhibition for Medaire, 
Geneva, Switzerland, May 24, 2007.

Fatigue Countermeasures in Aviation. Bombardier Aerospace Safety 
Standdown, Geneva, Switzerland, May 25, 2007.

Alertness Management in 24/7 Operations. Federal Bureau of 
Investigation, Critical Incident Response Group, Regional Aviation 
Safety Conference, Warrenton, VA, September 18, 2007.

Who Needs Sleep?--Why We Sleep and Behavioral Countermeasures (2 
presentations). Michigan Network of Employers for Traffic Safety, Wake 
Up Michigan Symposium, Grand Rapids MI, September 20, 2007.

Managing Alertness in 24/7 Law Enforcement Operations: Enhancing Public 
and Officer Safety. Santa Rosa Police Department, Santa Rosa, CA, 
September 26, 2007.

Invited Panelist. Sanofi Aventis Employer Advisory Board, Boston, MA, 
September 28-29, 2007.

The Impact of Fatigue and Sleep Deprivation on First Responders and 
Other Caregivers. Thurston County Fire Chief's 2007 Leadership 
Conference, Olympia, WA, October 3, 2007.

The Effects and Impact of Fatigue on Patient Safety. Los Angeles County 
Department of Health Services Patient Safety Conference, Culver City, 
CA, October 16, 2007.

Presentations to the United States Olympic Committee and U.S. National 
Teams:

        Performance Services Group, January 22, 2007.

        Games Staff Leadership, April 18, 2007.

        Men's Volleyball Team, May 16, 2007.

        Women's Water Polo Team, May 17, 2007.

        Men's Water Polo Team, May 17, 2007.

        Women's Soccer Team, July 20, 2007.

        Women's Soccer Team, August 19, 2007.

Alertness Management in 24/7 Operations. Federal Bureau of 
Investigation, The Aviation and Surveillance Branch, Critical Incident 
Response Group, Safety Conference, Las Vegas, NV, October 18, 2007.

Alertness Management in Corporate Flight Operations. Bombardier 
Aerospace Safety Standdown, Wichita, KS, October 25, 2007.

Managing Fatigue in 24/7 Operations. British Petroleum Strategic 
Planning Meeting to Address Overtime, Chicago, IL, November 6, 2007.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, November 9, 2007.

Investigating Human Fatigue Factors in Transportation Accidents. 
National Transportation Safety Board Academy Course, Ashburn, VA, 
December 3-4, 2007.

Fatigue Countermeasures in Aviation. American Express Flight Department 
Safety Standdown, Newburgh, NY, December 11, 2007.

Alert in Adolescence: Sleep Matters. El Camino Hospital Pediatric 
Conference, Mountain View, CA, December 17, 2007.

Fatigue Management in 24/7 Work Settings. British Petroleum Education 
and Training Session, Toledo, OH, February 25, 2008.

Invited Panelist. Findings and Strategies from Research Literature and 
Other Industries, Workshop for The Committee on Optimizing Graduate 
Medical Trainee (Resident) Work Schedules to Improve Patient Safety, 
Institute of Medicine, Irvine, CA, March 4, 2008.

Fatigue Countermeasures: Signs & Symptoms. Homeland Security National 
Safety Conference, Ashburn, VA, March 12, 2008.

Why Drivers Need Sleep and What is it Good For? 13th Annual Michigan 
Traffic Safety Summit, East Lansing, MI, March 13, 2008.

Presentations to the United States Olympic Committee and U.S. National 
Teams:

        Women's Ice Hockey, March 25, 2008.

        Women's Field Hockey, June 2, 2008.

        Women's Water Polo, June 5, 2008.

        Men's Volleyball, June 6, 2008.

        Women's Volleyball, June 9, 2008.

Fatigue Management in Trucking: Does it Make Business Sense for 
Carriers? Canadian Trucking Alliance Board of Directors and Annual 
General Meeting, Scottsdale, AZ, April 7, 2008.

Fatigue Management in 24/7 Work Settings (10 presentations). British 
Petroleum Education and Training Sessions, BP Refinery, Toledo, OH, 
April 21-24, 2008.

Beyond Crew Rest: Fatigue Management and Countermeasures for the Flight 
Test Team. Flight Test Safety Workshop, Melbourne, FL, May 6, 2008.

Fatigue Countermeasures. Bombardier Aerospace Safety Standdown, 
European Business Aviation Conference and Exhibition, Geneva 
Switzerland, May 19, 2008.

Invited Panelist (Chair). Operational Evidence of Fatigue: Flight 
Operations. FAA Sponsored Aviation Fatigue Management: Partnerships for 
Solutions Symposium, Vienna, VA, June 17-19, 2008.

Fatigue for Aircrews in the Global Environment: 24/7 when do we ever 
sleep? National Business Aviation Association 13th Annual Flight 
Attendants Conference, Tucson, AZ, June 27-28, 2008.

Fatigue Management in 24/7 Work Settings (6 Presentations). British 
Petroleum Education and Training Sessions, BP Refinery, Whiting, IN, 
July 1-2, 2008.

Fatigue Management in 24/7 Work Settings (14 Presentations). British 
Petroleum Education and Training Sessions, BP Refinery, Whiting, IN, 
July 14-18, 2008.

``The View'' of Fatigue Challenges in Aviation Maintenance. 2008 FAA/
ATA International Symposium on Human Factors in Maintenance and Ramp 
Operations, Orlando, FL, September 4, 2008.

Fatigue Countermeasures in Aviation. Verizon Flight Department Safety 
Standdown, Morristown, NJ, September 5, 2008.

Fatigue Management in 24/7 Operations: British Petroleum's Risks and 
Opportunities. British Petroleum U.S. Leadership Meeting, Bellingham, 
WA, September 9, 2008.

Fatigue and the California Public Safety Officer. Northern California 
Cities Self-Insurance Fund Meeting, Lincoln, CA, September 11, 2008.

Psychomotor Vigilance Testing: The Sensitivity of PVT Data in the OSA 
Patient Population and Administering the PVT in-Lab and Extracting 
Subject Data. Ventus Medical AERO Investigator Meeting, Chicago, IL, 
September 20, 2008.

Managing Commercial Driver Fatigue: Challenges & Solutions (Keynote). 
Saskatchewan Trucking Association's 71st Annual Management Conference, 
Saskatchewan, Canada, October 17, 2008.

Alertness Management in Corporate Flight Operations. Bombardier 
Aerospace Safety Standdown, Wichita, KS, October 23, 2008.

Human Factors and Team Performance (Keynote). Saint Joseph Health 
System Fall Leadership Development Institute, Lexington, KY, November 
6, 2008.

Optimal Mental and Physical Health: The Critical Role of Sleep and 
Common Sleep Problems among Students. Presentation for Mental Health 
Professionals in the Tokyo Community. Tokyo, Japan, November 17, 2008.

Time Travel: Managing Jet Lag to Achieve Optimal Sleep and Performance. 
Yale Club of Tokyo, Foreign Correspondents' Club of Japan, Tokyo, 
Japan, November 18, 2008.

Investigating Human Fatigue Factors in Transportation Accidents. 
National Transportation Safety Board Academy Course, Ashburn, VA, 
February 25-26, 2009.

Managing Fatigue in 24/7 Operations. U.S. Customs and Border 
Protection, 2009 Safety Symposium, San Diego, CA, March 3, 2009.

Effective Fatigue Countermeasures for Corporate Crews. Pacific 
Northwest Business Aviation Association Safety Symposium, The Human 
Side of Aviation, Seattle, WA, March 5, 2009.

Presentations to the United States Olympic Committee and U.S. National 
Teams:

        Men's Beach Volleyball, March 17, 2009.

        Men's Volleyball, May 27, 2009.

        Women's Volleyball, May 27, 2009.

Invited Panelist. Use of Biomathematical Models of Fatigue: Safety, 
Liability, Confidentiality, Adherence and Consequences. Fatigue and 
Performance Modeling 101, 2009 International Conference on Fatigue 
Management in Transportation Operations: A Framework for Progress, 
Boston, MA, March 23-25, 2009.

Law Enforcement: Enhancing Public and Officer Safety. Redwood Empire 
Municipal Insurance Fund Police Chief's Training. San Francisco, CA, 
April 3, 2009.

Drowsy Driving: Challenge and Solutions to Improve Traffic Safety 
(Keynote). California Office of Traffic Safety 2009 Summit, San 
Francisco, CA, April 10, 2009.

Advanced AvAlert Workshop. Bombardier Maintenance & Operation 
Conference, Dallas, TX, April 23, 2009.

Fatigue Management Programs: Addressing the Challenges of 24/7 
Operations. American Occupational Health Conference, San Diego, CA, 
April 26, 2009.

Fatigue Countermeasures. Federal Bureau of Investigation Aviation 
Safety Coordinators Conference, Houston, TX, April 30, 2009.

Fatigue Management in 24/7 Work Settings (8 Presentations). British 
Petroleum Education and Training Sessions, BP Refinery, Whiting, IN, 
May 5-6, 2009.

Fatigue Countermeasures. Bombardier Safety Standdown, European Business 
Aviation Conference and Exhibition Geneva, Switzerland, May 10-12, 
2009.

Managing Alertness in 24/7 Law Enforcement Operations. Association of 
Bay Area Governments all-day Workshop, Oakland, CA, May 14, 2009.

Fatigue Countermeasures in 24/7 Aviation Operations. Federal Bureau of 
Investigation Regional Safety Conference, Point Mugu, CA, May 21, 2009.

Fatigue Countermeasures. Naval Test Wing Pacific Safety Standdown, 
Point Mugu, CA, May 22, 2009.

Fatigue Management in 24/7 Work Settings (5 Presentations). British 
Petroleum Education and Training Sessions, BP Refinery, Toledo, OH, 
June 2-3, 2009.

Planes, Trains and Automobiles: Sleep and Performance Challenges in 
Operational Settings. Providence Sleep Research Interest Group 
Presentation Hosted by Sleep and Chronobiology Research Laboratory, 
Brown University, Providence, RI, September 15, 2009.

Managing Fatigue in Flight Operations: Risks and Solutions. Bombardier 
Aerospace Safety Standdown, Wichita, KS, September 30, 2009.

Managing Fatigue in 24/7 Operations (Keynote). Air Medical Transport 
Conference, San Jose, CA, October 27, 2009.

Conducting Research in a Clinical Setting. School of Sleep Medicine, 
Palo Alto, CA, October 30, 2009.

Managing Fatigue in Flight Operations: Risks & Solutions. Northern 
California Aviation Business Users Group Meeting, San Ramon, CA, 
November 9, 2009.

Managing Alertness in 24/7 Law Enforcement Operations. Santa Clara 
County Sheriff's Department Education and Training Session, Morgan 
Hill, CA, December 11, 2009, January 8, 2010 (2 Presentations), 
February 2, 2010, February 17, 2010 (2 Presentations).

Sleep Loss and Fatigue: Effects on Performance, Safety & Health. 
Redwood Empire Municipal Insurance Fund Board of Directors Meeting, 
Sonoma, CA, January 28, 2010.

Effectively Managing Fatigue in 24/7 American Airlines Operations. 
American Airlines Maintenance Human Factors Workshop, Dallas, TX, 
February 25, 2010.

Reducing Injuries and Accidents: Managing Fatigue in Our 24/7 Society. 
Moving Children Safely Injury and Prevention Conference, Burlingame, 
CA, March 16, 2010.

Fatigue Countermeasures in 24/7 Aviation Operations. Mylan 
Pharmaceutical Aviation Department Safety Standdown, Pittsburgh, PA, 
March 22, 2010.

Alertness Management in Corporate Flight Operations (Keynote). 
Morristown Aviation Association International Operations Seminar, 
Morristown, NJ, April 13, 2010.

Managing Fatigue in Flight Operations: Risks and Solutions. McKesson 
Corporate Flight Department Annual Safety Day, San Francisco, CA, May 
25, 2010.

Managing Alertness in 24/7 EMS/Health Care Settings: Improving Patient 
and Provider Safety. University of Michigan Annual Safety Day, Ann 
Arbor, MI, June 4, 2010.
Community and School Presentations

Palo Alto High School Parent Education Event, Palo Alto, CA, January 9, 
2008.

Woodside Priory Parent Association Event, Portola Valley, CA, January 
15, 2008.

Jewish Community High School of the Bay Parent Event, San Francisco, 
CA, February 7, 2008.

Woodside Priory School Student Assembly, Portola Valley, CA, March 19, 
2008.

Los Altos Parent Preschool, Los Altos, CA, April 7, 2008.

Psychology Class, Burlingame High School, April 28, 2008.

Marin Academy All School Assembly and Parent Presentation, San Rafael, 
CA, September 17, 2008.

Castilleja High School Student Assembly, Palo Alto, CA, September 24, 
2008.

Castilleja Middle School Wellness and Fitness Day, Palo Alto, CA, 
October 20, 2008.

Castilleja Junior Class Travel Recommendations to China, Palo Alto, CA, 
November 7, 2008.

American School in Japan, Middle School Students and Faculty, Tokyo, 
Japan, November 17, 2008.

American School in Japan, School Guidance Counselors, Tokyo, Japan, 
November 17, 2008.

American School in Japan, High School Students and Faculty, Tokyo, 
Japan, November 18, 2008.

American School in Japan, Parent Presentation, Tokyo, Japan, November 
18, 2008.

American School in Japan, Early Learning Center, Tokyo, Japan, November 
19, 2008.

Las Madres Bay Area Parenting Presentation, Cupertino, CA, January 28, 
2009.

Mid-Peninsula High School Parent Meeting, Menlo Park, CA, February 10, 
2009.

Saratoga/Los Gatos High School Parent Education Event, Saratoga, CA, 
April 28, 2009.

The Magnolia of Millbrae, A Senior Living Community, Millbrae, CA, 
August 18, 2009.
Education and Training Activities

Developed an education and training module on fatigue countermeasures 
for the aviation industry (Rosekind, M.R., Gander, P.H., Connell, L.J., 
and Co, E.L. Crew Factors in Flight Operations: X. Alertness Management 
in Flight Operations. NASA Technical Memorandum 1999-208780). The 
module was distributed to the aviation industry through two-day 
workshop provided by the Fatigue Countermeasures Program and held at 
NASA Ames Research Center. The workshop presentations were provided by 
M.R. Rosekind, D.F. Neri, and colleagues.

A total of 39 workshops were held for 779 participants representing 243 
different organizations, within aviation and other operational 
environments (e.g., medicine, marine). The average overall rating for 
the workshops was 9.2 (1=poor to 10=excellent).

Over 75 organizations, including commercial (US and International), 
corporate, and military aviation groups implemented the NASA Ames 
Education and Training Module reaching about 125,000 flight crew and 
other personnel with the information. Workshops and implementation 
continued until 2005
Sponsored Symposium

Co-chair, NTSB/NASA Symposium, ``Managing Fatigue in Transportation: 
Promoting Safety and Productivity.'' Co-sponsored by the NTSB and NASA 
Ames Research Center with 600 participants from 16 countries. Provided 
organization, materials, three formal presentations, moderator for 
symposium, and proceedings, Tysons Corner, Virginia, November 1-2, 
1995.

Created and produced, the Fatigue Resource Directory, a joint 
publication of the NASA Ames Fatigue Countermeasures Program and the 
NTSB for this symposium, November 1, 1995.

Rosekind, M.R., Dinges, D.F. & Neri, D.F. Managing Fatigue in Corporate 
Aviation Operations. Flight Safety Foundation sponsored symposium, 
Paris, France, September 17-18, 1996.
National Transportation Safety Board (NTSB)
Member, National Transportation Safety Board Presentations

Managing Fatigue in Air Transport Operations. Presented to American 
Academy of Pediatrics Annual Conference, San Francisco, CA, October 4, 
2010.

Managing Fatigue: An NTSB Perspective. Presented at Bombardier Safety 
StandDown, Wichita, KS, October 7, 2010.

Enhancing Motorcycle Safety: An NTSB Perspective. Presented to 
Motorcycle Industry Council 2010 Annual Communication Symposium, 
Carson, CA, October 28, 2010.

Effects of Commuting on Pilot Fatigue: An NTSB Perspective. Presented 
to National Research Council, National Academies of Science, 
Washington, D.C., November 22, 2010.

Enhancing Motorcoach Safety: Issues and Opportunities. Presented to 
United Motorcoach Association Safety Management Seminar, Ashburn, VA, 
December 2, 2010.

Enhancing Aviation Safety: Issues and Opportunities. Presented to Air 
Transport Association Safety Council, Orlando, FL, January 12, 2011.

Opportunities to Enhance Motorcoach Safety: An NTSB Perspective. 
Presented to the International Motorcoach Group, Tampa, FL, January 19, 
2011.

Managing Fatigue: An NTSB Perspective. Presented to Cessna Safety 
StandDown, Wichita, KS, January 20, 2011.

Managing Fatigue Risks to Enhance Transportation Safety: Issues and 
Opportunities. Opening and Closing remarks to Transportation Research 
Board Fatigue Modeling Workshop and Annual Meeting, National Academies 
of Science, Washington, D.C., January 23, 2011.

The Biggest Risk in Transportation Safety: Human Behavior. Presented to 
Alpert Medical School of Brown University, Department of Psychiatry and 
Human Behavior, Academic Grand Rounds, Providence, RI, February 2, 
2011.

Inside the NTSB: A NASA Alum's Perspective. Presented to Exploration 
Technology Directorate, NASA Ames Research Center, Moffett Field, CA, 
February 8, 2011.

Sleep: A Critical Factor to Enhance Transportation Safety. Presented to 
Sleep Health & Safety 2011 Symposium, National Sleep Foundation, 
Washington, D.C., March 18, 2011.

Sleep and Circadian Factors in Transportation Safety: An NTSB 
Perspective. Presented to 33rd Annual Southern Sleep Society Meeting, 
New Orleans, LA, March 25, 2011.

Fatigue Management: Embrace Change to Enhance Safety and Health. C.O. 
Sappington Memorial Lecture, American Occupational Health Conference, 
American College of Occupational and Environmental Medicine, 
Washington, D.C., March 26, 2011.

Enhancing Safety with Simulation: Lessons Learned from Transportation. 
Presented to Advanced Initiatives in Medical Simulation Conference, 
Washington, D.C., March 29, 2011.

Fatigue-Impaired Driving: Safety Risks and Challenges. Presented to 
Tort, Trial & Insurance Practice Session, American Bar Association, 
Phoenix, AZ, April 1, 2011.

Work Hours vs. Fatigue Management: The Transportation Experience. 
Presented to National Orthopaedic Leadership Conference, American 
Academy of Orthopaedic Surgeons, Washington, D.C., April 8, 2011.

Enhancing Commercial Vehicle Safety: Challenges and Opportunities. 
Presented to Commercial Vehicle Safety Alliance, Rosemont, IL, April 
13, 2011.

Fatigue Management: Advancing Aviation Safety. Presented to MITRE 
Corporation CAASD Aviation Safety Town Hall Series, McLean, VA, April 
29, 2011.

Managing Fatigue: An NTSB Perspective. Presented to Bombardier 1st 
Annual Commercial Aircraft Safety StandDown, Toronto, Canada, May 2, 
2011.

Enhancing Aviation Safety: RAA Progress and Opportunities. Presented to 
Regional Airline Association Annual Convention, Nashville, TN, May 17, 
2011.

Managing Fatigue in 24/7 Operations: Advancing Transportation Safety. 
Presented to Annual Staff Development Seminar, Delaware Police Chiefs' 
Council, Rehoboth Beach, DE, May 19, 2011.

Examining Fatigue in an Accident Investigation: An NTSB Perspective. 
Presented to Federal Bureau of Investigation Aviation Safety 
Conference, Ashburn, VA, May 25, 2011.

Managing Fatigue to Enhance Aviation Safety: Issues and Opportunities. 
Presented to MITRE Aviation Fatigue Symposium, McLean, VA, June 6-8, 
2011.

An NTSB Perspective on Sleep/Fatigue Risks in Transportation: 
Accidents, Recommendations and Future Needs. Presented to 2011 
Shiftwork Congress, The Sleepy Brain Symposium, Stockholm, Sweden, June 
27, 2011.

Driver and Vehicle Safety Issues: An NTSB Perspective. Presented to 
American Association of Motor Vehicle Administrators, Baltimore, MD, 
July 18, 2011.

Fatigue in the Workplace and on the Road. Presented to Stanford Medical 
Center Trauma Symposium, Palo Alto, CA, August 18, 2011.

The Future: What We Can Expect from Fatigue Risk Management Systems. 
Presented to ICAO Fatigue Risk Management Systems Symposium, Montreal, 
Canada. August 31, 2011.

Fatigue Management: Enhancing Safety and Performance. Presented to 
Leadership and Advice in Crisis, Critical Incident Advisory Group, 
Charlottesville, VA, September 15, 2011.

Enhancing Transportation Safety: The Importance of Managing Fatigue. 
Presented to Transportation Research Board, Fatigue in Transit 
Operations, National Academies of Science, Washington, D.C., October 
12, 2011.

Managing Fatigue in Aviation Operations: An NTSB Perspective. Presented 
to Bombardier Safety Stand-down, Wichita, KS, October 25, 2011.

Managing Fatigue in Aviation Operations: An NTSB Perspective. Presented 
to Citation Jet Pilots 2010 Annual Convention. October 28, 2011.

Managing Fatigue in 24/7 Ops: Lessons Learned from Transportation. 
Presented to Federal Bureau of Investigation Crisis Management 
Coordinators Conference, Quantico, VA, November 2, 2011.

Future of Sleep Apnea in Transportation--Research Needs and 
Applications. American Sleep Apnea Association 2011 Sleep Apnea & 
Multi-Modal Transportation Conference, Baltimore, MD, November 9, 2011.

Sleep and Fatigue in Transportation Safety: An NTSB Perspective. 
Presented to Sleep Grand Rounds, Division of Sleep Medicine, Harvard 
Medical School, Cambridge, MA, November 14, 2011.

Managing Fatigue in 24/7 Ops: Lessons Learned from Transportation. 
Presented to Transportation Disaster Response Course, Ashburn, VA. 
November 17, 2011.

Managing Fatigue During An Accident Investigation Launch. Presented to 
National Transportation Safety Board Investigator In Charge Course, 
Washington, D.C., November 29, 2011.

Statement of Member Mark Rosekind--Advocates for Highway and Auto 
Safety--Roadmap to State Highway Safety Laws, National Press Club, 
Washington, D.C., January 11, 2012.

Managing Fatigue in Helicopter Operations: Risks and Opportunities. 
Remarks to Safety Symposium at HELI-EXPO, Dallas, TX, February 11, 
2012.

Chronobiology and Transportation Safety: Risks and Opportunities. 
Remarks at University of California San Diego Center for Chronobiology 
Symposium, San Diego, CA, February 17, 2012.

Enhancing Transportation Safety: NTSB Investigations and 
Recommendations. Remarks to San Francisco Chapter, International 
Society of Air Safety Investigators, San Francisco CA, February 24, 
2012.

Managing Fatigue in Aviation: NTSB Investigations and Recommendations. 
Remarks to Air Safety Foundation, Ashburn, VA, February 29, 2012.

Drowsy Driving and Safety. Remarks at National Sleep Foundation Sleep, 
Health and Safety Symposium, Washington, D.C., March 3, 2012.

The NTSB: Overview, Addressing Fatigue and Safety Tools. Remarks to 
Southern California Aviation Association, Van Nuys, CA, March 5, 2012.

Enhancing Transportation Safety with Sleep Science: Challenges and 
Opportunities. Remarks at Sleep Grand Rounds, Center for Sleep Sciences 
and Medicine, Stanford Medical School, Palo Alto, CA, March 9, 2012.

Stanford Sleep and Dreams: Enhancing Transportation Safety. Remarks to 
Sleep and Dreams, Stanford University, Palo Alto, CA, March 9, 2012.

The San Bruno Accident and Where We Go From Here. Remarks to Annual 
Pipeline Opportunities Conference, Houston, TX, April 4, 2012.

Perspectives on Flight Time/Duty Time for All-Cargo Operations. Remarks 
at Airline Pilots Association International Air Cargo Safety and 
Security: Closing the Gaps Symposium, Washington, D.C., April 16, 2012.

Managing Fatigue in Maritime Operations: Challenges and Opportunities. 
Remarks at American Waterways Operators Board of Directors Meeting, 
Washington, D.C., April 20, 2012.

Managing Fatigue to Enhance Transportation Safety: Challenges and 
Opportunities. Remarks at Eastern Virginia Medical School, Internal 
Medicine Grand Rounds, Norfolk, VA, April 25, 2012.

Human Behavior: The Most Significant Risk in Transportation Safety. 
Remarks at Eastern Virginia Medical School, Psychiatry Grand Rounds, 
Norfolk, VA, April 25, 2012.

Managing Fatigue in Flight Operations: FRMP Commitment, Policy and 
Procedures. Remarks at A4A/CAA/NACA/RAA Fatigue Risk Management Program 
Symposium, Dulles, VA, April 27, 2012.

Managing Fatigue in 24/7 Ops: Risks, Fatigue Factors and Strategies. 
Remarks at United States Coast Guard Senior Executives Conference, 
Washington, D.C., May 10, 2012.

Managing Fatigue in Aviation Ops: Risks, Fatigue Factors and 
Strategies. Remarks at Regional Airline Association 37th Annual 
Convention, Minneapolis, MN, May 23, 2012.

Stanford Sleep and Dreams: Enhancing Transportation Safety. Remarks to 
Sleep and Dreams, Stanford University, Palo Alto, CA, May 30, 2012.

From Bench to Planes, Trains and Automobiles: How Sleep Science Can 
Enhance Transportation Safety. Keynote Address at 26th Annual Meeting 
of Associated Professional Sleep Societies, LLC, Boston, MA, June 11, 
2012.

Reaching Zero: A Critical Role for DWI/Drug Courts. Remarks at Closing 
Ceremony of National Association of Drug Court Professionals Training 
Conference, Nashville, TN, June 2, 2012.

NTSB Accident Investigations and Recommendations: Making Your County 
Safer. Remarks at National Association of Counties Annual Conference, 
Pittsburgh, PA, July 14, 2012.

Managing Fatigue in GA: Challenges and Opportunities. Presentation to 
GAMA at EAA AirVenture 2012, Osh Kosh, WI, July 25, 2012.

Pay Attention: Challenges and Opportunities to Enhance Transportation 
Safety. Presentation to Center for Automotive Research at Stanford, 
Palo Alto, CA, August 6, 2012.

Managing Fatigue in Aviation Ops: An NTSB Perspective. Presentation to 
Malibu Mirage Owners and Pilots Association, Colorado Springs, CO, 
September 21, 2012.

Fatigue, Shift Work and Sleep Disorders: Key Lessons from 
Transportation Accidents. Presentation at Harvard Sleep and Shiftwork 
Symposium, Boston, MA, September 27, 2012.

Good Sleep, Safe Travels: Managing Fatigue Risks in Transportation. 
Keynote Address to Harvard Division of Sleep Medicine, Boston, MA, 
September 27, 2012.

The NTSB: Enhancing Transportation Safety. Presentation to Ship 
Operations Cooperative Program Fall Meeting, New Orleans, LA, October 
23, 2012.

Managing Fatigue in Aviation Ops: An NTSB Perspective. Presentation to 
TBM Owners and Pilots Association, Amelia Island, FL, October 26, 2012.

Enhancing Transportation Safety: Addressing Fatigue, Shiftwork and 
Sleep Disorders. Presentation to Kentucky Sleep Society, Louisville, 
KY, October 27, 2012.

Sleep Deprivation, Shift Work, Jet Lag and Performance Decrement: 
Safety Challenges. Keynote Address to North Puget Sound Center for 
Sleep Disorders, Everett, WA, November 2, 2012.

Beyond ``Trust But Verify'': What is Next for Pipeline Safety? Opening 
Address at Pipeline Safety Trust Conference, New Orleans, LA, November 
8, 2012.

Managing Fatigue in Aviation Ops: An NTSB Perspective. Presentation at 
FAA Hangar 6 Safety Stand Down, National Airport, Alexandria, VA, 
November 15, 2012.

What Happens on the Roads, Rails and in the Skies: Sleep, Fatigue and 
Transportation. Presentation to Introduction to Sleep Class, Brown 
University, Providence, RI, November 29, 2012.

Meaningful Performance Metrics: Their Role and Value in Pipeline 
Safety. Presentation at PHMSA Pipeline Data Workshop, Washington, D.C., 
January 7, 2013.

Managing Fatigue to Enhance Personal Safety. Presentation on Managing 
Fatigue to Enhance Personal Safety at NTSB All Hands Meeting, 
Washington, D.C., January 8, 2013.

Risky Human Behavior: Threats to Transportation Safety. Hyatt Lecture, 
St. Joseph's University, Philadelphia, PA, February 19, 2013.

The Role of Sleep Loss in Transportation Accidents: NTSB Investigations 
and Recommendations. Presentation to Sleep and Chronobiology Division 
at University of Pennsylvania School of Medicine, Philadelphia, PA, 
February 20, 2013.

The Role of Sleep in Transportation Safety: NTSB Investigations and 
Recommendations. Presentation to National Sleep Awareness Roundtable, 
National Sleep Foundation Sleep and Health 2013 Conference, National 
Harbor, MD, February 28, 2013.

Good Sleep Enhances Transportation Safety: Risks, Progress and Gaps. 
Keynote Presentation at Sleep Health and Safety 2013 Annual Conference, 
National Sleep Foundation, National Harbor, MD, March 1, 2013.

Managing Fatigue to Enhance Safety: Lessons from Transportation. 
Presentation to Occupational Injury Prevention Graduate Seminar Series 
in Injury Research and Policy, Johns Hopkins Bloomberg School of Public 
Health, Baltimore, MD, March 4, 2013.

Stanford Sleep and Dreams: Enhancing Transportation Safety. 
Presentation to Sleep and Dreams, Stanford University, Palo Alto, CA, 
March 8, 2013.

Enhancing General Aviation Safety: NTSB Investigations, Managing 
Fatigue and New GA Safety Alerts. Presentation at Spruce Creek Safety 
Meeting, Daytona Beach, FL, March 24, 2013.

Managing Fatigue to Enhance Safety: Lessons Learned from 
Transportation. Presentation to Halifax Health Grand Rounds, Daytona 
Beach, FL, March 26, 2013.

Managing Fatigue in 24/7 Operations: Lessons from Transportation. 
Presentation to Mid Atlantic Association for Women in Law Enforcement, 
Dover, DE, March 27, 2013.

Examining Fatigue Factors in Accident Investigations: An NTSB 
Perspective. Presentation at Fatigue Risk Management Symposium, 
Orlando, FL, April 16, 2013.

Managing Fatigue Risk in Transportation: Challenges and Opportunities. 
Presentation at Fatigue Risk Management in Aviation Symposium, George 
Mason University, Arlington, VA, May 1, 2013.

NTSB Mission and Investigative Process: The Journey from Accident 
Launch to Probable Cause. Presentation at Coalition for Airline Pilots 
Associations (CAPA) Safety Meeting, Washington, D.C., May 7, 2013.

Fatigue Factors in Accident Investigations: Using Science to Enhance 
Safety. Presentation to Transportation Safety Board of Canada, Ottawa, 
Canada, May 16, 2013.

Stanford Sleep and Dreams: Enhancing Transportation Safety. 
Presentation to Sleep and Dreams, Stanford University, Palo Alto, CA, 
May 29, 2013.

The NTSB and Impaired Driving: Actions Needed to Reach Zero. Keynote 
Opening Presentation at Alcohol Monitoring Systems (AMS) SCRAMcon 2013, 
Englewood, CO, May 31, 2013.

Managing Fatigue in Aviation Ops: An NTSB Perspective. Presentation to 
Pilatus Owners and Pilots Association, Monterey, CA, June 1, 2013.

Managing Fatigue in Aviation Ops: An NTSB Perspective. Presentation at 
The Twin Cessna Flyer Convention, Wichita, KS, June 28, 2013.

Reaching Zero: Actions to Eliminate Substance-Impaired Driving. 
Presentation to National Association of Drug Court Professionals 
(NADCP) Board Of Directors, National Harbor, MD, July 13, 2013.

Managing Fatigue in Aviation: Enhancing Flight Safety. Presentation to 
Aviation Safety Coordinators Conference, Ashburn, VA, July 24, 2013.

The NTSB Safety Mission: From Investigation to Recommendation. 
Presentation at Brotherhood of Locomotive Engineers and Trainmen 
Legislative Representatives Workshop, Washington, D.C., September 23, 
2013.

NTSB Recommendations and Fatigue Countermeasures. Presentation at NTSB 
Investigating Human Fatigue Factors Course, Ashburn, VA, November 22, 
2013.

Fire Safety: An NTSB Perspective. Presentation at FAA 7th Triennial 
International Fire & Cabin Safety Research Council, Philadelphia, PA, 
December 2, 2013.

Managing Fatigue to Enhance Transportation Safety: Challenges and 
Opportunities. Presentation at Naval Strike and Air Warfare Center 
Safety Standdown, Fallon, NV, December 17, 2013.

Creating a Culture of Safety: Challenges and Opportunities. Keynote 
Address at American Waterways Organization Coastal and Interregion 
Safety Committees Joint Annual Meeting, New Orleans, LA January 15, 
2014.

Enhancing Fire Safety: Opportunities for Innovation. Keynote 
Presentation at National Alliance for Advanced Technology Batteries 
Annual Meeting and Symposium, San Diego, CA, January 22, 2014.

Stanford Sleep and Dreams: Enhancing Transportation Safety. 
Presentation at Stanford Sleep and Dreams, Palo Alto, CA, January 31, 
2014.

Sleep and Sleep Disorders in Transportation Safety: Challenges and 
Opportunities. Presentation at State Sleep Medicine Conference, Yale 
School of Medicine, New Haven, CT, February 19, 2014.

Managing Fatigue in Flight Ops: NTSB Investigations and 
Recommendations. Presentation at 36th Annual Neonatal and Pediatric 
Transport Conference Salt Lake City, UT, February 26, 2014.

The NTSB Mission to Enhance Transportation Safety: Investigations, 
Recommendations and Advocacy. Presentation to Aviation Department Utah 
Valley University, Provo, UT, February 26, 2014.

The NTSB Mission to Enhance Transportation Safety: Investigations, 
Recommendations and Advocacy. Presentation at Salt Lake City Community 
College, Salt Lake City, UT, February 27, 2014.

Enhancing Rail Safety: NTSB Investigations and Recommendations. 
Presentation to Transportation and Infrastructure Services Committee, 
Energy, Environment and Natural Resources Committee, National League of 
Cities, Washington, D.C., March 9, 2014.

International Flight Ops: An NTSB Perspective on Fatigue Challenges. 
Presentation at National Business Aviation Association International 
Operators Conference, Tampa, FL, March 19, 2014.

NTSB Efforts to Enhance Safety: Reducing Distraction and Fatigue in 
Transportation. Presentation at Southern District Institute of 
Transportation Engineers 2014 Annual Meeting, Greensboro, GA, March 31, 
2014.

Fatigue as a Safety Risk in Flight Operations: Challenges and 
Opportunities. Presentation at CHC Safety and Quality Summit, 
Vancouver, BC, Canada, April 1, 2014.

Sleepless in America: The Deadly Cost of Fatigue in Transportation. 
Presentation to Maryland College of Occupational and Environmental 
Medicine Update, Johns Hopkins Education and Research Center for 
Occupational Safety and Health, Baltimore, MD, April 5, 2014.

Sleep Loss in Transportation: Safety Risks and Opportunities. 
Presentation at Leadership Summit, National Sleep Foundation, 
Washington D.C., April 7, 2014.

The Critical Role of Sleep to Enhance Transportation Safety: NTSB 
Investigations and Recommendations. Presentation at Maryland Sleep 
Society Annual Meeting, Townson, MD, April 25, 2014.

Promoting Good Sleep to Enhance Transportation Safety; NTSB 
Investigations and Recommendations. Keynote Opening Address at Illinois 
Sleep Society Conference, Oak Lawn, IL, April 26, 2014.

Managing Sleep and Sleep Disorders to Enhance Transportation Safety: 
NTSB Investigations and Recommendations. Presentation at American Sleep 
and Breathing Academy, Sleep and Wellness 2014 Conference, Scottsdale, 
AZ, May 3, 2014.

Reaching Zero: Actions Needed to Eliminate Substance-Impaired Driving. 
Presentation at 111th Automobile Association of America (AAA) Annual 
Meeting, Indian Wells, CA, May 6, 2014.

Stanford Sleep and Dreams: Enhancing Transportation Safety. 
Presentation at Stanford Sleep and Dreams, Stanford University, Palo 
Alto, CA, May 12, 2014.

Reaching Zero: Actions to Eliminate Substance-Impaired Driving. 
Presentation at National Association of Drug Court Professionals 
(NADCP) 20th Annual Training Conference, Anaheim, CA, May 31, 2014.

Promoting Good Sleep to Enhance Transportation Safety: NTSB 
Investigations and Recommendations. Presentation to American Academy of 
Sleep Medicine and Sleep Research Society leadership meeting, 
Washington D.C., June 12, 2014.

The NTSB Safety Mission: From Investigation to Recommendation. 
Presentation to Brotherhood of Locomotive Engineers and Trainmen, 
Washington, D.C., July 16, 2014.

Transit Board Members and the NTSB: Engagement, Investigations, and 
Enhanced Safety. Presentation at Transit Board Members & Board Support 
Seminar, American Public Transportation Association, Cleveland, OH, 
July 21, 2014.

The Vital Role of Sleep for Safety, Health and Performance. Keynote 
presentation at the 6th Annual Meeting of the Integrated Sleep Medicine 
Society Japan, Kobe, Japan, August 2, 2014.

Managing Fatigue in Aviation: Challenges and Opportunities. 
Presentation at FAA Hangar 6 Safety Standdown, Arlington, VA, August 
21, 2014.

Substance-Impaired Driving: Actions Needed to Reach Zero. Presentation 
at RIDOT Northeast Transportation Safety Conference, Providence, RI, 
September 3, 2014.

    Senator McCaskill. Thank you, Doctor.
    Mr. Monje.

      STATEMENT OF CARLOS A. MONJE, JR., COUNSELOR TO THE

         SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION;

             ASSISTANT SECRETARY OF TRANSPORTATION

                      FOR POLICY-DESIGNATE

    Mr. Monje. Thank you, Senator. Chairman McCaskill, Ranking 
Member Thune, members of the Committee, I am humbled to appear 
before you today as President Obama's nominee for Assistant 
Secretary of Transportation for Policy.
    I would like to thank my wife, Anne Filipic, for being with 
me, and for her support and love. I would like to thank my 
friends and colleagues who are here backing me up. Finally, I 
would like to recognize my parents and my sisters, who couldn't 
be here but who taught me the values that led to my career in 
public service.
    Transportation has a particular meaning for me because my 
parents immigrated to the United States because my dad, who is 
a naval architect, accepted a job at the New Orleans shipyards. 
I literally wouldn't be an American today if it wasn't for the 
transportation industry.
    As a former Senate staffer, I have a deep respect for the 
confirmation process. And so I am honored for your time and for 
your consideration today.
    I have served in a variety of positions in the Executive 
and legislative branches for more than a decade. Currently, I 
serve as Counselor to the Secretary at the U.S. Department of 
Transportation. I have been privileged to work in an agency 
with a visionary leader, a clear mission, a dedicated work 
force, and a very strong partnership with its congressional 
oversight committees. Secretary Foxx has directed me to focus 
on some high-priority policy initiatives, such as the GROW 
AMERICA Act, the TIGER discretionary grant program, and 
promoting mobility, equity, and economic development in rural 
and urban areas across the country. I have also had the 
opportunity to see firsthand the impact that infrastructure has 
on communities, how critical freight movement is to our 
economy, how much workers depend on reliable transit and 
uncongested roads to get to work, how good jobs and opportunity 
can flow from well-planned projects.
    I have also seen the consequences when infrastructure 
doesn't keep up with demand: crumbling overpasses, warped rail 
lines, missed opportunities for economic development. To 
address this nationwide challenge, the Administration has 
proposed the GROW AMERICA Act, which would provide reliable and 
substantial funding for road, rail, and transit projects. The 
Act includes a number of critical investments and improvements 
to our safety programs. It improves rail and freight planning, 
and it streamlines project delivery so that our roads and 
bridges can get built more quickly.
    I hope to consult closely with this committee as we work 
together to strengthen our surface transportation programs. If 
confirmed, I also look forward to working with the Committee on 
the reauthorization of our important aviation laws so that we 
can maintain our position as a global leader in aviation 
safety, deliver a modern air traffic control system, and ensure 
aviation access to communities across the country.
    Prior to coming to DOT, I worked for 5 years in the White 
House. For 3 of those years, I served as Chief of Staff at the 
Domestic Policy Council, where I helped manage a team of 50 
senior policy aides. I helped supervise agency budgets, 
advocated administration positions, and planned policy actions. 
DPC's portfolio includes a wide cross-section of the 
President's domestic agenda, including transportation. Before 
that, in the White House, I worked to improve our Federal 
disaster recovery efforts, to support our veterans, and to give 
more Americans the opportunity to volunteer in their 
communities. I worked within the White House Office of Social 
Innovation, which sought new ways for the Federal Government to 
work with our nonprofit and private sectors.
    My most personal work came in making the Federal Government 
a better partner to local communities following disasters. When 
the Administration began in 2009, too many Gulf Coast 
residents, including those in my hometown of New Orleans, were 
trapped in Post-Katrina red tape. One Mississippi official 
compared the Federal Government to ``a dysfunctional grocery 
store,'' where you have to check out at the end of each aisle. 
I am proud that the administration has improved dramatically on 
that record by focusing on outcomes on the ground and by 
breaking down administrative stovepipes. And the lessons we 
learned from our efforts have also improved how we partner with 
communities every day.
    I am very grateful to Secretary Foxx and to President Obama 
for their support. If confirmed, I will work to promote 
innovation to get more out of the taxpayer dollars that are 
entrusted to us, to strengthen our safety framework, to help 
our infrastructure projects serve as the foundation for 
stronger communities.
    I will work with this committee to strengthen the 
department and achieve better results for the American people. 
I know that you and your staff have a deep expertise of our 
shared infrastructure challenges, that your knowledge of the 
needs of your constituents is unrivaled, and that your role as 
a partner in governing is vital to our shared success.
    Chairman McCaskill, Ranking Member Thune, members of the 
Committee, thank you again for your consideration and for the 
opportunity to appear before you. I look forward to your 
questions.
    [The prepared statement and biographical information of Mr. 
Monje follow:]

Prepared Statement of Carlos A. Monje, Jr., Counselor to the Secretary, 
       U.S. Department of Transportation; Assistant Secretary of 
                  Transportation for Policy-Designate
    Chairman Rockefeller, Ranking Member Thune, Members of the 
Committee, I am humbled to appear before you today as President Obama's 
nominee for Assistant Secretary of Transportation for Policy.
    I'd like to thank my wife, Anne Filipic, for being with me, and for 
her support and love. I'd like to thank my friends and colleagues who 
are here. Finally, I'd like to recognize my parents and big sisters who 
couldn't be here, but who taught me the values that led to my career in 
public service. Transportation has a particular meaning for me. My 
parents immigrated to the United States because my dad, a naval 
architect, accepted a job at the New Orleans shipyards. I literally 
wouldn't be an American if it wasn't for the transportation industry.
    As a former Senate staffer, I have a deep respect for the 
confirmation process, so I am honored for your time and consideration 
today.
    I have served in a variety of positions in the executive and 
legislative branches for more than a decade. Currently, I serve as 
Counselor to the Secretary at the U.S. Department of Transportation. 
I've been privileged to work at an agency with a visionary leader, a 
clear mission, a dedicated workforce, and a strong partnership with its 
congressional oversight committees.
    Secretary Foxx directed me to focus on high priority policy 
initiatives, such as the GROW AMERICA Act surface reauthorization 
proposal, the TIGER discretionary grant program, and promoting 
mobility, equity, and economic development in rural and urban areas.
    I've also had the opportunity to see firsthand the impact that 
infrastructure has on communities. How critical freight movement is to 
our economy. How much workers depend on reliable transit and 
uncongested roads to get to work. How good jobs and opportunity can 
flow from well-planned projects.
    I've also seen the consequences when infrastructure doesn't keep up 
with demands: crumbling overpasses, warped rail lines, and missed 
opportunities for economic development. To address this nationwide 
challenge, the administration proposed the GROW AMERICA Act, which 
would provide reliable, substantial funding for road, rail and transit 
projects. The Act includes a number of critical improvements to our 
safety programs, improves rail and freight planning, and streamlines 
project delivery so roads and bridges can get built more quickly.
    If confirmed, I hope to consult closely with this Committee as we 
work together to strengthen our surface transportation programs. I also 
look forward to working with the Committee on the reauthorization of 
our important aviation laws so that we can maintain our position as a 
global leader in aviation safety, deliver a modern air traffic control 
system, and ensure aviation access to communities across the country.
    Prior to coming to DOT, I worked five years in the White House. For 
three of those years, I served as Chief of Staff of the Domestic Policy 
Council (DPC), where I helped manage a team of 50 senior policy aides. 
I helped supervise agency budgets, advocated administration positions, 
and planned policy actions. DPC's portfolio includes education, energy, 
health care, poverty, criminal justice, civil rights, rural policy, 
tribal issues, faith, as well as transportation.
    Before that, I worked to improve Federal disaster recovery efforts, 
to support our veterans, and to give more Americans the opportunity to 
volunteer in their communities. I worked within the White House Office 
of Social Innovation, which sought new ways for the Federal Government 
to work with the nonprofit and private sectors.
    My most personal work came in making the Federal Government a 
better partner to local communities following disasters. When the 
administration began in 2009, too many Gulf Coast residents, including 
those in my home town of New Orleans, were trapped in Post-Katrina red 
tape. One Mississippi official compared the Federal Government to 
quote--a dysfunctional grocery store--where you have to check out at 
the end of each aisle. The administration has dramatically improved 
that track record by focusing on outcomes on the ground and cutting 
down administrative stovepipes. And lessons learned from our efforts 
have also improved how we partner with communities every day.
    I am grateful to Secretary Foxx and President Obama for their 
support. If confirmed, I will work to promote innovation to get more 
out of the taxpayer dollars entrusted to us, to strengthen our safety 
framework, and to help our infrastructure projects serve as the 
foundation for stronger communities.
    I will also work with this committee to strengthen the Department 
and achieve better results for the American people. I know that you and 
your staff have deep expertise on our shared infrastructure challenges, 
that your knowledge of the needs of your constituents is unrivaled, and 
that your role as a partner in governing is vital to our shared 
success.
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, thank you again for your consideration and the opportunity 
to appear before you today. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Carlos Alberto Monje, Jr.

    2. Position to which nominated: Assistant Secretary for 
Transportation Policy, Department of Transportation.
    3. Date of Nomination: September 8, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1200 New Jersey Ave., SE, Washington, D.C. 20590.

    5. Date and Place of Birth: July 17, 1978; New Orleans, LA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Anne Elizabeth Filipic, President, Enroll America.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University
        A.B., History and Literature (Magna Cum Laude) (2000)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    Managerial/Related positions are in italics below:

        U.S. Department of Transportation
        Counselor to the Secretary
        February 2014-Present

        White House Domestic Policy Council
        Special Assistant to the President and Chief of Staff of the 
        Domestic Policy Council (DPC)
        January 2011-February 2014

        Senior Policy Advisor
        February 2009-December 2010

        Presidential Transition Project
        National Security Policy Working Group
        November 2008-February 2009

        Obama for America
        Deputy Policy Director
        March 2007-November 2008

        U.S. Senator Barack Obama (D-IL)
        Special Assistant for Policy and Communications
        January 2006-March 2007

        U.S. Senator Ken Salazar (D-CO)
        Legislative Assistant
        February 2005-December 2005

        Erskine Bowles for U.S. Senate
        Press Secretary
        March 2004-November 2004

        John Edwards for President
        Deputy Press Secretary
        August 2003-March 2004

        U.S. Senator John Edwards (D-NC)
        Deputy Press Secretary
        November 2001-August 2003

        U.S. Senator Chuck Schumer (D-NY)
        Deputy Press Secretary
        August 2001-October 2001

        Fleishman-Hillard
        Assistant Account Executive
        November 2000-July 2001

        Chris Petrini for State Representative
        Field Director
        June 2000-September 2000

    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    I am a member of the Catholic Church. I do not hold any leadership 
positions within my local parish.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Harvard University:

                Lyman Scholarship (1997)

                Harvard College Scholarship (1996-1999)

                Dean's List (1996-2000)

                Harvard College Research Fellowship (1999)

        2013 Presidential Leadership Workshop (Professional Development 
        Program for Appointees)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify all books, articles, columns, or 
other publications and relevant speeches, including a thorough review 
of my personal files and searches of publicly available electronic 
databases. Despite my searches, there may be other materials that I 
have been unable to identify, find or remember. I have located the 
following:

Speeches:

  <bullet> Various informal stakeholder events to discuss GROW AMERICA 
        Act (Spring 2014)

  <bullet> Grantmakers Income Security Taskforce--Grantmakers for 
        Children Youth and Families: Budget and Tax Briefing (March 19, 
        2013)

  <bullet> White House Long-Term Disaster Recovery Working Group, Salt 
        Lake City Session: Closing Remarks (January 18, 2012)

  <bullet> Philanthropy Northwest 2009 Annual Conference Keynote 
        Address (September 2009)

  <bullet> Philanthropy and Rural America Conference speech: ``The 
        Social Innovation Fund and Rural America'' (July 2009)

  <bullet> Stanford Business School Silicon Valley Roundtable for White 
        House Office of Social Innovation (June 23, 2009)

  <bullet> Entrepreneurship in Education, Center for American Progress 
        Roundtable (May 7, 2009)

  <bullet> 10th Annual Social Enterprise Summit: Keynote Address 
        ``Harnessing Policy Opportunities at the National Level'' 
        (April 17, 2009)

  <bullet> White House Champions of Change:

    <ctr-circle> Southwest Border Region (September 2011)

    <ctr-circle> Space Coast Technology and Innovation (June 2011)

    <ctr-circle> Gulf Coast Oil Spill (July 2010)

Federal Publications Contributed to:

  <bullet> Hurricane Sandy Rebuilding Strategy (August 2013)
    http://portal.hud.gov/hudportal/documents/huddoc?id=hsrebuilding
        strategy.pdf

  <bullet> National Disaster Recovery Framework (September 2011)
    http://www.fema.gov/national-disaster-recovery-framework

  <bullet> Deepwater Horizon Recovery Plan (September 2010)
    http://www.restorethegulf.gov/sites/default/files/documents/pdf/
        gulf-recovery-sep-2010.pdf

Online Content:

  <bullet> White House Video Message: Continuing to strengthen our 
        economy in 2014 (January 11, 2014)
    http://www.whitehouse.gov/the-press-office/2014/01/11/white-house-
        video-message-continuing-strengthen-our-economy-2014

  <bullet> Innovation with Crawfish Sauce: What a New Orleans Nonprofit 
        Can Teach the Rest of the Country (October 30, 2009)
    http://www.whitehouse.gov/blog/2009/10/30/innovation-with-crawfish-
        sauce-what-a-new-orleans-nonprofit-can-teach-rest-country

  <bullet> A Special Moment for Service (March 27, 2009)
    http://www.nationalservice.gov/newsroom/official-statements/2009/
        special-moment-service

    I have numerous articles that I authored while a Reporting Intern 
in college with both The Boston Globe and The Times-Picayune. They are 
available publically online through the publications' respective 
archives and websites, www.bostonglobe.com and www.nola.com .
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For more than a decade, I have served in a variety of positions in 
the executive and legislative branches. Most recently, I have served as 
Counselor to the Secretary at the U.S. Department of Transportation 
where I worked on the administration's proposal to reauthorize surface 
transportation programs, on the TIGER discretionary grant program, and 
on efforts to promote equity and economic development.
    Previously, I served for five years at the White House Domestic 
Policy Council (``DPC''). For two of those years, I worked to improve 
disaster recovery, to keep the sacred trust with our Nation's veterans, 
and to give more Americans the opportunity to volunteer in their 
communities. I worked within the Office of Social Innovation, which 
sought new ways for the Federal Government to be a partner with the 
nonprofit industry and private sector.
    In my final three years at the White House, I served as Chief of 
Staff of the DPC, where I helped lead a team that managed a wide 
waterfront of the President's domestic agenda, including education, 
energy, health care, immigration, poverty, criminal justice, civil 
rights, veterans, rural policy, tribal issues, social innovation, and 
faith. During those years, I worked with a team of 50 senior policy 
aides that had deep reach into the administration. I supervised agency 
budgets, advocated administration positions, and planned major 
executive actions and policy rollouts.
    My most fulfilling work involved place-based policy, both in 
disaster recovery and in marquee programs like Strong Cities/Strong 
Communities and Promise Zones. I helped Navy Secretary Ray Mabus write 
the recovery plan for the Gulf Coast following the Deepwater Horizon 
oil spill, helped clear bureaucratic obstacles to recovery following 
Hurricane Katrina, and helped lead the Hurricane Sandy Task Force. I 
also worked with FEMA and HUD to explore how the Federal Government can 
be a better partner to communities facing long-term disaster recovery. 
These experiences taught me the importance of common-sense and 
collaboration, local primacy, and clear roles and responsibilities 
across levels of government and with affected communities.
    The Department of Transportation has been a great partner to state 
and local governments, and the impacts of infrastructure investments 
are long-lasting and concrete. If confirmed, I will work to deepen and 
strengthen those relationships even as the Department works to promote 
performance-based management, share best practices, and modernize the 
transportation network for the 21st century demands it faces.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Taxpayers deserve to know that their dollars are spent well and in 
the public service. It is imperative that the Department maintain that 
trust to make the most of limited resources and to maintain public 
faith that infrastructure projects are worth the investment.
    The policy office at the Department of Transportation (OST-P) has a 
number of roles in this regard. First, OST-P manages the TIGER 
discretionary grant program, which has supported innovative and hard-
to-fund projects across the country. I joined the Department in 2014 
just as the TIGER VI process was beginning. I have been instrumental in 
implementing reforms to the evaluation process and am working to 
improve grants management and evaluation moving forward. I have learned 
the value of proper management and accounting controls, in particular 
the importance of clearly written policies and the documentation of 
decisions. Second, OST-P reviews and provides guidance to the modes on 
their grant programs, including approving Notices of Funding 
Availability.
    I have held a number of management positions, including a team of 
50 senior policy staffers at the White House. Through these roles, I've 
learned the value of clear lines of authority and accountability and of 
objective reporting of results.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Infrastructure investments have long been an area of bipartisan 
agreement in the Congress. How Congress addresses the upcoming 
insolvency of the Highway Trust Fund and the expiration of MAP-21 
represents a test of this tradition. Infrastructure planners need 
multi-year certainty in order to begin ambitious projects. The good 
news is that we have seen substantial cooperation across the aisle, and 
there is momentum for a longer-term bill.
    Safety remains the top priority of the Department. This means a 
combination of long-term, patient vigilance on perennially difficult 
issues, such as reducing impaired and distracted driving, supervising 
motor coaches and reducing aircraft accidents. It also means staying 
ahead of rapidly developing issues, such as the safety of transporting 
crude oil by rail, incorporating unmanned aircraft into the Nation's 
airspace, and implementing new technologies, such as NextGen, positive 
train control and intelligent transportation systems.
    Finally, implementation of the MAP-21 performance measures has the 
potential to be the most transformative innovation in the partnership 
between USDOT and our state and local partners. However, we must 
nurture this opportunity, filling gaps in data and knowledge, setting 
ambitious, but achievable goals and listening to the stakeholders who 
have had the most experience implementing programs, namely states and 
transit agencies.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    As of September 19, 2014, my Thrift Savings Plan (TSP) account 
balance is $61,695.50.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As a member of the Domestic Policy Council, I was the White House 
lead in negotiating the Serve America Act with bipartisan leaders in 
the U.S. House (Education and the Workforce Committee) and Senate (HELP 
Committee). This legislation reauthorized the Corporation for National 
and Community Service. I also worked within the White House on several 
key pieces of legislation, most notably the Hurricane Sandy disaster 
appropriations bill. As Chief of Staff of the DPC, I played important 
roles supporting the President's Domestic Policy Advisor as she 
advocated for key legislation, including comprehensive immigration 
reform and lowering student loan interest rates. In my current 
position, I have briefed congressional staff and advocacy groups about 
the GROW AMERICA Act, the administration's proposal to reauthorize 
surface transportation programs.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Carlos Monje Jr.
Work Experience

U.S. Department of Transportation, Washington, D.C.
Counselor to the Secretary, February 2014-Present
Helped develop and roll out the administration's proposal to 
reauthorize surface transportation programs. Managed the TIGER 
discretionary grant program, and led efforts to promote equity and 
economic development through grant funding, regulations and guidance. 
Advised Secretary Foxx on policy matters.

White House Domestic Policy Council, Washington, D.C.
Special Assistant to the President and Chief of Staff of the DPC, 
January 2011-February 2014
Oversaw all aspects of policy, message and event development of more 
than 40 policy staff across a wide spectrum of domestic policy issues. 
Counseled Domestic Policy Advisor on strategic and tactical 
considerations. Directed DPC-wide policy exercises, including executive 
actions and regulations. Advocated for the DPC across White House 
offices and Federal agencies. Instituted system changes to improve 
communications between front office and staff. Directed all personnel, 
budget and administrative activities. Coordinated White House efforts 
on Hurricane Sandy Rebuilding Task Force.

White House Domestic Policy Council, Washington, D.C.
Senior Policy Advisor, February 2009-December 2010
Coordinated passage of the Edward M. Kennedy Serve America Act, 
bipartisan legislation that improved volunteer opportunities and 
established the Social Innovation Fund. Oversaw Corporation for 
National and Community Service, including its annual budget. 
Coordinated the development of America's Gulf Coast, Navy Secretary Ray 
Mabus' plan to recover from the Deepwater Horizon oil spill. 
Coordinated the Long-Term Disaster Recovery Working Group, and oversaw 
efforts to rebuild the Gulf Coast following the 2005 hurricanes.

Presidential Transition Project, Washington, D.C.
National Security Policy Working Group, November 2008-February 2009
Participated in confirmation teams of Secretaries Janet Napolitano and 
Eric Shinseki.

Obama for America, Chicago, IL
Deputy Policy Director, March 2007-November 2008
Handled homeland security, veterans, national service, rural policy, 
and government reform policy portfolios. Developed policy plans 
utilizing outside experts and worked with communications and political 
staff to plan policy rollouts. Served as policy surrogate at press 
events and conducted outreach to constituency groups. Managed 14 
battleground state policy directors who each localized policy rollouts, 
triaged policy requests and conducted outreach. Served as New Mexico 
state director during the February 5 primary.

U.S. Senator Barack Obama (D-IL), Washington, D.C.
Special Assistant for Policy and Communications, January 2006-March 
2007
Staffed homeland security and veterans committees. Introduced 
legislation to improve care for wounded troops. Passed bipartisan 
legislation to reduce homelessness among veterans and to improve 
screening for Traumatic Brain Injury. Introduced chemical security 
legislation. Worked with press department to earn media coverage on 
legislative efforts.

U.S. Senator Ken Salazar (D-CO), Washington, D.C.
Legislative Assistant, February 2005-December 2005
Handled homeland security and veterans. Passed bipartisan legislation 
to improve benefits for military widows and widowers. Introduced bills 
to improve intelligence sharing with local emergency officials, improve 
health care for rural veterans and services for blinded veterans.

Erskine Bowles for U.S. Senate, Raleigh, NC
Press Secretary, March 2004-November 2004
Served as primary on-the-record spokesman. Developed and executed 
earned media strategy. Wrote campaign policy plans. Conducted radio and 
television interviews. Assisted with paid media, polling, debate 
preparation and speechwriting.

John Edwards for President, Raleigh, NC
Deputy Press Secretary, August 2003-March 2004
Traveled extensively with candidate across country. Wrote op-eds, press 
releases, and speeches. Served as campaign press secretary in Minnesota 
and New Mexico.

U.S. Senator John Edwards (D-NC), Washington, D.C.
Deputy Press Secretary, November 2001-August 2003
Handled press materials, media inquiries and events. Launched Spanish 
website.

U.S. Senator Charles Schumer (D-NY), Washington, D.C.
Deputy Press Secretary, August 2001-October 2001
Handled press materials, and media inquiries.

Fleishman-Hillard, New York, NY
Assistant Account Executive, November 2000-July 2001
Developed press materials and developed media strategy. Handled media 
requests.

Chris Petrini for State Representative, Framingham, MA
Field Director, June 2000-September 2000
Coordinated Get Out The Vote efforts for state legislature race.

Shorenstein Center on Press, Politics and Public Policy, Cambridge, MA
Office Assistant, September 1996-June 2000
Assisted with coordinating fellows program and events at the think 
tank.

Boston Globe, Boston, MA
Reporting Intern, Summer 1999
Served as a full-time correspondent and wrote more than 40 published 
articles.

Times-Picayune, New Orleans, LA
Reporting Intern, Summer 1997
Served as a staff writer and wrote published news and feature stories.
Education

Harvard University, Cambridge, MA
A.B. Magna Cum Laude) in History and Literature, June 2000
Lyman Scholarship. Harvard College Scholarship. Dean's List. Harvard 
College Research Fellowship. The Harvard Crimson. The Harvard Current.

         STATEMENT OF DR. THO BELLA DINH-ZARR, NOMINEE,

      MEMBER, NATIONAL TRANSPORTATION SAFETY BOARD (NTSB)

    Dr. Dinh-Zarr. Thank you, Chairman McCaskill, Ranking 
Member Thune, and members of the Committee. I sincerely 
appreciate the opportunity to appear before you today, and I am 
honored to be President Obama's nominee for Member of the 
National Transportation Safety Board.
    Before I begin, I would like to introduce my family, who 
has always been so supportive of me. With me today is my 
husband, Dr. Robert Zarr, a pediatrician; and my 6-year-old 
son, Kairan. My mother, Tonia; my three older brothers and 
their families are supporting me from the states of Texas, 
Florida, New Jersey, Washington, and North Carolina. I would 
also like to thank the Honorable Norman Y. Mineta, whom I 
consider a mentor and an inspiration. I am grateful to my 
friends and colleagues who are able to be here and who are 
watching from around the country.
    I believe strongly in public service, and if confirmed, it 
would be my great honor to serve our country by supporting the 
mission of the NTSB to advance transportation safety. I have 
had a lifelong passion for transportation in all its forms, and 
I am committed to ensuring that transportation is as safe as 
possible for everyone.
    My personal and professional background has uniquely 
prepared me to be an NTSB board member. My childhood on the 
Gulf Coast and my early years working at the Railroad Museum in 
Galveston, Texas have made me acutely aware of rail, marine, 
and pipeline safety. My graduate training and work in highway 
safety and injury prevention reinforced in me the critical 
importance of transportation safety to the health of our 
country. And, of course, I will never forget that it was an 
American airplane that carried my family to safety when we fled 
Vietnam in 1975, an airplane that we were able to board because 
of my father's life-saving work as a physician and his wartime 
friendships with his American colleagues.
    My late father instilled in our family a deep respect and 
love for this country, a love that my three brothers 
demonstrate every day in their life-saving work as surgeons. 
After witnessing firsthand the devastating effects of traffic 
crashes while working as a young volunteer in a level 1 trauma 
center, I became committed to finding ways to prevent families 
from experiencing this needless suffering.
    I have a diverse background of experience working in both 
the public and the private sectors, and I am proud of a long 
history of collaboration with state and local organizations 
throughout the country, as well as with safety colleagues 
around the world. My training and practical experience in 
public health and injury prevention has prepared me for an 
approach to safety that translates to all modes of 
transportation. My passion for keeping people safe and my 
expertise in data analysis consistently drive me to find good 
solutions to real problems threatening people's lives. I am 
especially proud that my highway safety work has spanned the 
generations, from keeping children safe on the roads to 
innovative transportation solutions to ensure that seniors stay 
safely mobile for as long as possible.
    If confirmed, I will not forget the grieving families I 
have met over the years. I will work hard to do everything I 
can to provide victims, their families, and the American public 
with answers they need and to ensure that data from crash 
investigations and safety studies are used to prevent future 
tragedies.
    The NTSB is in a unique position of being an independent 
body whose mandate can prevent countless deaths and injuries. 
If confirmed, it would be my honor to dedicate myself to the 
life-saving mission and legislative mandate of the NTSB. It has 
always been my belief that each of us must strive to serve our 
country and our communities in the best way that we are able. I 
can think of no greater privilege than to serve my country by 
ensuring that transportation in every mode is as safe as 
possible for all people, now and for generations to come.
    Thank you again for the opportunity to appear before you 
today, and I look forward to answering any questions you may 
have.
    [The prepared statement and biographical information of Dr. 
Dinh-Zarr follow:]

      Prepared Statement of Tho Bella Dinh-Zarr, Nominee, Member, 
              National Transportation Safety Board (NTSB)
    Thank you, Chairman Rockefeller, Ranking Member Thune, and Members 
of the Commerce Committee. I sincerely appreciate the opportunity to 
appear before you today and I am honored to be President Obama's 
nominee for Member of the National Transportation Safety Board.
    Before I begin, I would like to introduce my family who has always 
been so supportive of me. With me today is my husband, Dr. Robert Zarr, 
a pediatrician, and my 6 year old son, Kairan Zarr. My mother, my three 
brothers and their families are supporting me from the states of Texas, 
Florida, New Jersey, Washington, and North Carolina. I would also like 
to thank the Honorable Norman Y. Mineta, whom I consider a mentor and 
an inspiration. I am grateful to my friends and colleagues who are able 
to be here or who are watching from around the country.
    I believe strongly in public service and, if confirmed, it would be 
my great honor to serve our country by supporting the mission of the 
NTSB to advance transportation safety. I have had a lifelong passion 
for transportation in all its forms and I am committed to ensuring that 
transportation is as safe as possible for everyone. My personal and 
professional background has uniquely prepared me to be an NTSB Board 
Member. My childhood on the Gulf Coast and my early years working at 
the Railroad Museum in Galveston, Texas, have made me acutely aware of 
rail, marine and pipeline safety. My graduate training and work in 
highway safety and injury prevention at the University of Texas and the 
Texas A&M Transportation Institute reinforced in me the importance of 
transportation safety to the health of our country. And, of course, I 
will never forget that it was an American airplane that carried my 
family to safety when we fled Vietnam in 1975--an airplane that we were 
able to board because of my father's lifesaving work as a physician and 
his friendships with American colleagues. My late father instilled in 
our family a deep respect and love for this country--a love that my 
three older brothers demonstrate every day in their lifesaving work as 
surgeons. After seeing the devastating effects of traffic crashes while 
working as a young volunteer in a Level 1 Trauma Center, I became 
committed to finding ways to prevent families from experiencing this 
needless suffering.
    I have a diverse background of experience working in both the 
public and private sectors, and I am proud of a long history of 
collaboration with state and local organizations throughout the 
country, as well as with safety colleagues around the world. My 
training and practical experience in public health and injury 
prevention has prepared me for an approach to safety that translates to 
all modes of transportation. My passion for keeping people safe and my 
expertise in data analysis constantly drive me to find good solutions 
to real problems threatening people's lives. I am especially proud that 
my highway safety work has spanned the generations, from child 
passenger safety research and legislation to innovative transportation 
solutions to ensure that seniors stay safely mobile for as long as 
possible.
    If confirmed, I will not forget the grieving families I have met 
over the years. I will work hard to do everything I can to provide 
victims and the American public with the answers they need, and to 
ensure that data from crash investigations and safety studies are used 
to prevent future such tragedies.
    The NTSB is in the unique position of being an independent body 
whose mandate can help prevent countless deaths and injuries. If 
confirmed, it would be my honor to dedicate myself to the lifesaving 
mission and legislative mandate of the NTSB. It has always been my 
belief that each of us must strive to serve our country and our 
communities in the best way that we are able. I can think of no greater 
privilege than to serve my country by ensuring that transportation, 
whether by air, land or sea, is as safe as possible for all people, now 
and for generations to come.
    Thank you again for the opportunity to appear before you today and 
I look forward to answering any questions you might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Tho Bella Dinh-Zarr

        Tho Dinh-Zarr

        Bella Dinh-Zarr

        Tho Anh Dinh (maiden)

    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of Nomination: September 18, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 60 Trafalgar Square, London, United Kingdom.

    5. Date and Place of Birth: March 16, 1971; Danang, Vietnam.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse--Dr. Robert Zarr, Pediatrician, Unity Health Care; son--
        Kairan Zarr, age 6.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A. 1993--Rice University, Houston, Texas

        M.P.H. 1997--University of Texas School of Public Health, 
        Houston, Texas

        Ph.D. 2001--University of Texas School of Public Health, 
        Houston, Texas

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    As AAA National Director of Traffic Safety Policy for 4 years, I 
managed staff, collaborated with colleagues and ensured a large 
federation of independent and unique AAA clubs around the U.S. 
addressed the most important safety priorities. In my 8 years with the 
FIA Foundation, I have managed people with a wide range of 
responsibilities and skills on road safety projects and collaborations 
around the world. These employment experiences have given me the 
managerial and issue-related credentials to, if confirmed, help advance 
the important goal of increased transportation safety.

        Director of the U.S. Office, FIA Foundation, Washington, D.C. & 
        London, UK, 1/2014 to present

        Road Safety Director, FIA Foundation, Washington, D.C. & 
        London, UK, 12/2007-1/2014

        Director, North America, Make Roads Safe--The Campaign for 
        Global Road Safety, Washington, D.C., 7/2006-1/2014

        National Director of Traffic Safety Policy, American Automobile 
        Association (AAA), Washington, D.C., 3/2002-6/2006

        Social Scientist, U.S. Department of Transportation, National 
        Highway Traffic Safety Administration (NHTSA), Washington, 
        D.C., 8/2001-3/2002

        Research Fellow, U.S. Centers for Disease Control & Prevention 
        (CDC), National Center for Injury Prevention and Control 
        (NCIPC), in conjunction with the U.S. Guide to Community 
        Preventive Services Branch, Atlanta, Georgia, 
        4/2000-5/2001

        Research Associate, Texas Transportation Institute, The Texas 
        A&M University System, College Station, Texas, 5/1998-5/2001

        Production Editor, International Journal of Technology 
        Assessment in Health Care, Houston, Texas (Secretariat: 
        Stockholm, Sweden) 1/1997-5/1999

        Community Liaison, RDI Inc., Houston, Texas, 1/1995-5/1997 
        (dates approximate)

        Evaluator, Houston-Harris County Community Partnership, 
        University of Texas School of Public Health, Center for Health 
        Promotion, Houston, Texas 
        5/1995-5/1996 (dates approximate)

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.
    Positions below are current positions except where dates are 
indicated. All positions are uncompensated.

  <bullet> Independent Transportation Network of America (ITNAmerica)--
        Member, Council of Advisors (previously, member of Board of 
        Directors)

  <bullet> National Association of Women Highway Safety Leaders 
        (NAHWSL)--Co-Chair of the Board of Advisors

  <bullet> UN NGO Committee on Sustainable Development--Co-Chair (2013-
        2014)

  <bullet> American Public Health Association, Injury Control and 
        Emergency Health Services Section--Past Chair, Current 
        Development Committee Co-Chair

  <bullet> Transportation Research Board Global Road Safety 
        Subcommittee--Co-Chair

  <bullet> Carnegie Mellon University Transportation Center--Board 
        Member

  <bullet> Make Roads Safe (U.S.)--Board President

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Membership was not restricted in any of these organizations.

----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Capitol Hill Garden Club                                                       2003-present              Member
----------------------------------------------------------------------------------------------------------------
Ludlow-Taylor Elementary School Parent Teacher Association (PTA)                  2011-2013              Member
----------------------------------------------------------------------------------------------------------------
Tyler Elementary School Parent Teacher Organization (PTO)                      2013-present              Member
----------------------------------------------------------------------------------------------------------------
Capitol Hill Public School Parents Organization (CHPSPO)                       2012-present              Member
----------------------------------------------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Youth Choice Award, Individual Winner, Global Youth Traffic 
        Safety Month, 2013

  <bullet> Car & Travel Magazine--Named ``Green Light in 
        Transportation'' by AAA, 2005

  <bullet> NHTSA--Recognition Award, Outstanding Contribution to 
        Traffic Safety, April 2003

  <bullet> CDC Outstanding Scientific Contribution to Public Health 
        Award, June 2002

  <bullet> U.S. Department of Health and Human Services Secretary's 
        Award, July 2001

  <bullet> Fellow, CDC, U.S. Guide to Community Preventive Services 
        Branch, Atlanta, Georgia 2000-2001

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

Publications:

        Sleet, D., Naumann, R., Baldwin, G., Dinh-Zarr, T.B., Ewing, R. 
        (2012). Eco-Friendly Transportation and the Built Environment. 
        Vol. 1, Ch.21. in Friis, R.H. (Ed.). Praeger Handbook of 
        Environmental Health (2012). New York: Oxford University Press.

        Dinh-Zarr, T.B. (2011). Envisioning a Traffic Safety Culture. 
        Texas Transportation Researcher, August 2011.

        Dinh-Zarr, T.B., Goss, C.W., Heitman, E., Roberts, I.G., 
        DiGuiseppi, C. (2009) Interventions for preventing injuries in 
        problem drinkers. The Cochrane Library 2009, Issue 1.

        Dinh-Zarr, T.B. (2008). United Nations Debates Road Safety This 
        Spring. ITE Journal. Institute of Transportation Engineers, 
        April 2008.

        Sleet, D.A., Dinh-Zarr, T.B., & Dellinger, A.M. (2007). Traffic 
        safety in the context of public health and medicine. Improving 
        Traffic Safety Culture in the U.S.: The Journey Forward. AAA 
        Foundation for Traffic Safety, 41-58.

        Dinh-Zarr, T.B. & Hargarten S.W. (2007). Road Crash Deaths of 
        American Travelers: The Make Roads Safe Report. An Analysis of 
        U.S. State Department Data on Unnatural Causes of Death to U.S. 
        Citizens Abroad (2004-2006). FIA Foundation report, April 25, 
        2007.

        Staplin, L. & Dinh-Zarr, T.B. (2006). Promoting rehabilitation 
        of safe driving abilities through computer-based clinical and 
        personal screening techniques. Topics in Geriatric 
        Rehabilitation 22(2), 129-138.

        Eberhard, J.W., Stutts, J., Burkhardt, J., Finn, J., Hunt, L., 
        Staplin, L., Molnar, K.J., Peters-Beumer, L, Dinh-Zarr, T.B., 
        Carr, D.B., Trilling, D.R., & McCarthy, D.P. (2006). Strategies 
        and tools to enable safe mobility for older adults. Topics in 
        Geriatric Rehabilitation 22(1), 3-19.

        Zaza, S., Sleet, D.A., Shults, R.A., Elder, R.W., Dinh-Zarr, 
        T.B., Nichols, J.L., Compton, R., Thompson, R.S., & Task Force 
        on Community Preventive Services (2005). Motor vehicle occupant 
        injury. In S. Zaza, PA Briss, KW Harris (Eds.), The Guide to 
        Community Preventive Services (pp. 329-384), New York: Oxford 
        University Press.

        Reininger, B., Martin, D., Ross, M., Sinicrope, P., & Dinh-
        Zarr, T. (2005). Advancing the Theory and Measurement of 
        Collective Empowerment: A Qualitative Study. Int Q Community 
        Health Education 2005-2006: 25(3): 211-38.

        Lin, M., Porretta, K., Shope, J., Dinh-Zarr, T.B., Griffin, L., 
        & Stutts, J. (Eds.) (2003). Special Issue: Senior 
        Transportation Safety and Mobility. Journal of Safety Research, 
        Volume 34 (4).

        Dinh-Zarr, T.B., Heitman, E., Baker, S.P., Vaca, F.E., Wen, W., 
        Osberg, S., & DiGuiseppi, C. (2002). Health risks of Latino 
        children (Letter to the Editor). JAMA (Journal of the American 
        Medical Association), 288 (16).

        Dinh-Zarr, T.B., Sleet, D.A., Shults, R.A., Zaza, S., Elder, 
        R.W., Nichols, J.L., Thompson, R.S., & Sosin, D.M. (2001). 
        Reviews of evidence regarding interventions to increase the use 
        of safety belts. American Journal of Preventive Medicine, 21(4) 
        Suppl 1, 48-65.

        Dinh-Zarr, T., DiGuiseppi, C., Heitman, E., & Roberts, I. 
        (1999). Preventing Injuries through Interventions for Problem 
        Drinking. A Systematic Review of Randomized Controlled Trials. 
        Alcohol & Alcoholism, 34 (4), 609-621.

        Reininger, B., Dinh-Zarr, T., Sinicrope, P., & Martin, D. 
        (1999). Dimensions of Participation and Leadership: 
        Implications for Community-based Health Promotion for Youth. 
        Family & Community Health, 22 (2), 72-82.

        Zarr, R., Heitman, E., Delclos, G., & Dinh, T. (1998). 
        Tuberculosis in Texas: Trends and Issues in Surveillance. Texas 
        Medicine, August. (Winner of Harriet Cunningham Award for 
        Meritorious Scientific Writing).

        Jerger, S., Martin, R., Pearson, D., & Dinh, T. (1995). 
        Childhood hearing impairment: Auditory and linguistic 
        interactions during multidimensional speech processing. Journal 
        of Speech & Hearing Research, 38(4):930-48. (The Hearing 
        Journal's Best of `95 Award Article).

        Jerger, S., Elizondo, R., Dinh, T., Sanchez, P., & Chavira, E. 
        (1994). Linguistic influences on the auditory processing of 
        speech by children with normal hearing or hearing impairment. 
        Ear & Hearing, 15(2): 138-60.

Speeches:

        National Association of Women Highway Safety Leaders (NAWHSL). 
        September 5, 2014. Grand Rapids, Michigan. ``The Key Role of 
        Women Worldwide.''

        Canadian Multidisciplinary Road Safety Conference. June 3, 
        2014. Vancouver, B.C. ``The Decade of Action for Road Safety.''

        2014 Society of Professional Engineers Conference on Health, 
        Safety, and Environment. March 18, 2014. Long Beach, 
        California. ``How to Save a Million Lives (and a Billion 
        Dollars).''

        Global Health Mini-University. March 7, 2014. Washington, D.C. 
        ``An Epidemic on Wheels: How to Save a Million Lives (and a 
        Billion Dollars).''

        NAWHSL Annual Meeting. August 2013. San Diego, CA. ``Update on 
        the UN Decade of Action for Road Safety & The Long Short Walk: 
        NAWHSL Historical Perspective.''

        Transportation Librarians Roundtable. June 13, 2013. 
        Washington, D.C. (virtual conference). ``The Decade of Action 
        for Road Safety.''

        New York Auto Show Safety Summit. April 5, 2013. New York, New 
        York. ``The Decade of Action for Road Safety.''

        XIX International AIDS Conference. July 19, 2012. Washington, 
        D.C. ``What's Road Safety Got to Do With It? The Intersection 
        of Road Safety with Public Health and Development in the 
        Context of HIV/AIDS.''

        Lifesavers Conference. June 15, 2012. Orlando, Florida. ``We're 
        All in This Together (Road Safety).''

        AID Forum. June 7, 2012. Washington, D.C. ``Road Safety: Child 
        vs. Road.''

        Best Practices in Work Zone SafetyVirtual Conference & 
        Innovation Showcase (American Road and Transportation Builders 
        Association, ARTBA). May 29, 2012. Washington, D.C. ``Work Zone 
        Safety in the Decade of Action.''

        Automotive Safety Council Annual Meeting. March 22, 2012. 
        Scottsdale, Arizona. ``The Decade of Action for Road Safety.''

        Texas Traffic Safety Conference. March 21-23, 2010. Austin, 
        Texas. ``We're All in This Together: The Decade of Action for 
        Global Road Safety.''

        NAWHSL Annual Meeting. September 2010. Kansas City, Missouri. 
        ``The Five Pillars of the Decade of Action for Road Safety.''

        NAWHSL Annual Meeting. September 2007. Portland, Oregon. ``Make 
        Roads Safe: The Campaign for Global Road Safety.''

        AAA Roadwise Review Press Conference at the National Press 
        Club. January 12, 2005. Washington, D.C. ``Roadwise Review: A 
        Tool to Help Senior Drivers Keep Driving Safely.''

        The White House Conference on Aging--Listening Session. January 
        8, 2005. Washington, D.C. ``A Senior Friendly Transportation 
        Environment: The Consumer Perspective.''

        NAWHSL Annual Meeting. August 23, 2003. New Orleans, Louisiana. 
        ``Traffic Safety: A Public Health Challenge.''

    Note: I have written or given hundreds of speeches over the past 15 
years (because giving speeches is a key component of my work), so it 
would be difficult to list all of them, but I have tried to list major 
speeches and at least one version of all similar speeches.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Committee: House Subcommittee on Highways and Transit of the 
        House Committee on Transportation and Infrastructure
        Date: June 27, 2002
        Topic: Highway Safety and Reauthorization of the Transportation 
        Equity Act for the 21st Century (TEA-21)

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe in public service and would be honored to serve my 
country by supporting the mission and legislative mandate of the NTSB 
if confirmed. My personal and professional background has uniquely 
prepared me to be an NTSB Board Member. From my early years working at 
the Railroad Museum in Galveston, Texas, and being acutely aware of 
marine safety on the Gulf Coast, to my formal training in motor vehicle 
safety and injury prevention, I have always believed in the importance 
of transportation safety. And, of course, I will never forget that it 
was an American airplane that carried my family to safety when we fled 
Vietnam--an airplane that we were able to board because of my father's 
lifesaving medical work as a physician and his friendships with 
Americans.
    The NTSB is in the unique position of being an independent body 
which can help save lives and prevent injuries across all modes of 
transportation. My training and experience in public health have 
prepared me to objectively assess and utilize information from 
different sources towards the ultimate goal of preventing deaths and 
injuries. If confirmed, I will be dedicated to continually improving 
transportation safety.
    Furthermore, I have an excellent history of collaboration and have 
always ensured that my priorities and opinions are expressed clearly 
and taken into consideration. My strengths are my background in public 
health and injury prevention, which, if confirmed, will enable me to 
contribute to all modes of transportation. Also, if confirmed, my 
specific training and experience in traffic safety will contribute 
toward the advancement of NTSB's surface transportation safety 
activities.
    I strongly believe that each of us must strive to serve our country 
and our communities in the best way possible. This means that we each 
should use our unique skills and experience, in my case in 
transportation safety and injury prevention, to provide our country and 
our communities with the information and tools needed to help ensure 
that people are safe, secure, and have the opportunity to live healthy, 
productive, and happy lives.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe transparency, collaboration, and appropriate oversight 
are essential to a healthy, well-functioning agency. If confirmed, I 
will work closely with the NTSB Chairman, Board Members, and staff to 
review procedures to ensure that there are proper and consistent checks 
and controls throughout the agency.
    I have an excellent history of management of people, diverse groups 
and organizations. My experience as AAA National Director of Traffic 
Safety Policy involved both managing individuals and collaborating with 
colleagues, as well ensuring a large federation of independent and 
unique AAA clubs around the country addressed the most important safety 
priorities. My current work with the FIA Foundation and my 
chairmanships of the Injury Control and Emergency Health Services 
Section of the American Public Health Association and the 
Transportation Research Board Global Road Safety Subcommittee have 
involved managing and collaborating with people with a wide range of 
responsibilities and skills around the world. In addition, my work with 
the U.S. Guide to Community Preventive Services at the CDC has given me 
a good understanding of how research can be used to promote safety, how 
to manage research as part of an organization, and how to use the best 
available evidence to keep safety as the top priority.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The NTSB's top challenges are:

  (1)  The NTSB must continue to adapt to the evolving transportation 
        environment in order to address emerging safety challenges in 
        all modes of transportation. To do this, the NTSB must be agile 
        in understanding and developing solutions to the new risks 
        presented by our ever-changing world (such as new technology 
        and changing demographics). My strengths of flexibility and 
        adaptability, coupled with my strong sense of vision, equip me 
        well to contribute, if confirmed, to the agency's continued 
        success in the midst of rapid changes in transportation.

  (2)  The NTSB faces the challenges of maintaining objectivity and 
        independence, while at the same time, making use of available 
        resources and collaborating with other organizations and 
        agencies. A Federal safety agency such as the NTSB must utilize 
        data from as many credible sources as possible, including 
        fellow government agencies, in order to maximize resources and 
        have the most up-to-date transportation data. The challenge 
        will be for the NTSB to do this while continuing to maintain 
        its objectivity and independence, which is integral to its 
        success and identity. I am confident that, with continued good 
        leadership, the NTSB will be able to use widely acquired 
        information to formulate its own independent views and continue 
        in its important role of ensuring and improving transportation 
        safety.

  (3)  The NTSB has an excellent reputation, but, as with all well-
        respected organizations, it faces the challenge of maintaining, 
        and even improving, its image in the face of vigilant media and 
        a well-informed public. The assets of NTSB are many, and it 
        will be important to ensure that the public recognizes these 
        assets in times of disaster. The NTSB can capitalize on its 
        lesser-known strengths such as using research and prevention 
        data to complement its well-known work such as crash 
        investigations. It will be critical for NTSB to be pro-active, 
        control its own image, and build an even stronger positive 
        reputation for the media and the public. When the agency 
        addresses difficult issues highlighted by the media, NTSB will 
        continue to build on its foundation of good will and public 
        support, thus advancing transportation safety.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have consulted with the NTSB's Acting Designated Agency Ethics 
Official, and any potential conflicts of interest that arise will be 
resolved in accordance to the terms of my ethics agreement with the 
agency.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                 Resume of T. Bella Dinh-Zarr, PhD, MPH
Employment

Director of the U.S. Office, FIA Foundation (a private philanthropy), 
Washington, D.C., January 2014-present.

Road Safety Director, FIA Foundation, Washington, D.C., December 2007-
January 2014.

Director, North America, Make Roads Safe--The Campaign for Global Road 
Safety, Washington, D.C., July 2006-January 2014.

National Director of Traffic Safety Policy, AAA (American Automobile 
Association), Washington, D.C., March 2002-June 2006.

Social Scientist, U.S. Department of Transportation, National Highway 
Traffic Safety Administration (NHTSA), Washington, D.C., August 2001-
March 2002.

Research Fellow, U.S. Centers for Disease Control & Prevention (CDC), 
National Center for Injury Prevention and Control (NCIPC), in 
conjunction with the U.S. Guide to Community Preventive Services 
Branch, Atlanta, Georgia, April 2000-May 2001.

Research Associate, Texas Transportation Institute, The Texas A&M 
University System, College Station, Texas, May 1998-May 2001.

Production Editor, International Journal of Technology Assessment in 
Health Care, Houston, Texas, January 1997-May 1999.

Community Liaison, RDI Inc., Houston, Texas, January 1995-May 1997 
(dates approximate).

Evaluator, Houston-Harris County Community Partnership, University of 
Texas School of Public Health, Center for Health Promotion, Houston, 
Texas, USA, May 1995-May 1996 (dates approximate).

Selected Honors and Awards

  <bullet> Youth Choice Award, Global Youth Traffic Safety Month, 2013

  <bullet> Global Traffic Safety Achievement Award. World Traffic 
        Safety Summit at the New York International Auto Show, 2012 
        (with the FIA Foundation)

  <bullet> Car & Travel Magazine--Named ``Green Light in 
        Transportation'' by AAA, 2005

  <bullet> US DOT NHTSA--Recognition Award, Outstanding Contribution to 
        Traffic Safety, April 2003 (with the CDC Motor Vehicle Team)

  <bullet> CDC Outstanding Scientific Contribution to Public Health 
        Award, June 2002 (with the Guide to Community Preventive 
        Services Team)

  <bullet> U.S. Department of Health and Human Services Secretary's 
        Award, July 2001 (with the CDC Motor Vehicle Team)

Memberships & Professional Service

Co-Chair, Global Road Safety Subcommittee ANB 10(8), Transportation 
Research Board (National Academy of Sciences)

Chair, Board of Advisors, National Association of Women Highway Safety 
Leaders

Advisory Board Member, ITN America (Independent Transportation Network 
of America)

Past Chair and Current Development Co-Chair, Injury Control & Emergency 
Health Services (ICEHS) Section of the American Public Health 
Association (APHA)

Education

PhD in Management and Health Policy Sciences, University of Texas 
School of Public Health, Houston, Texas, 2001. Minors: Injury 
Epidemiology, Health Economics. Dissertation: Systematic reviews of 
interventions to increase safety belt use: Safety belt laws, primary 
enforcement laws, and enhanced enforcement. Delta Omega Public Health 
Honor Society.

Master of Public Health (MPH), University of Texas School of Public 
Health, Houston, Texas, 1997. Thesis: Do Interventions for Problem 
Drinking Prevent Injuries? A Systematic Review of Randomized Controlled 
Trials.

Public Health Traineeship, Institute of Child Health & Great Ormond 
Street Hospital, University College London and The Cochrane 
Collaboration, London, UK, 1996.

Bachelor of Arts, Rice University, Houston, Texas, 1993. Spanish Honors 
Graduate and Sigma Delta Pi National Hispanic Honor Society. Study 
Abroad at La Universidad Catolica de Valparaiso, Chile.

Selected Publications

Sleet, D., Naumann, R., Baldwin, G., Dinh-Zarr, T.B., Ewing, R. (2012). 
Eco-Friendly Transportation and the Built Environment. Vol. 1, Ch.21. 
in Friis, R.H. (Ed.). Praeger Handbook of Environmental Health (2012). 
New York: Oxford University Press.

Dinh-Zarr, T.B. (2011). Envisioning a Traffic Safety Culture. Texas 
Transportation Researcher, August 2011.

Dinh-Zarr, T.B., Goss, C.W., Heitman, E., Roberts, I.G., DiGuiseppi, C. 
(2009) Interventions for preventing injuries in problem drinkers. The 
Cochrane Library 2009, Issue 1.

Sleet, D.A., Dinh-Zarr, T.B., & Dellinger, A.M. (2007). Traffic safety 
in the context of public health and medicine. Improving Traffic Safety 
Culture in the U.S.: The Journey Forward. AAA Foundation for Traffic 
Safety, 41-58.

Dinh-Zarr, T.B. & Hargarten S.W. (2007). Road Crash Deaths of American 
Travelers: The Make Roads Safe Report. An Analysis of U.S. State 
Department Data on Unnatural Causes of Death to U.S. Citizens Abroad 
(2004-2006). FIA Foundation report, April 25, 2007.

Staplin, L. & Dinh-Zarr, T.B. (2006). Promoting rehabilitation of safe 
driving abilities through computer-based clinical and personal 
screening techniques. Topics in Geriatric Rehabilitation 22(2), 129-
138.

Eberhard, J.W., Stutts, J., Burkhardt, J., Finn, J., Hunt, L., Staplin, 
L., Molnar, K.J., Peters-Beumer, L, Dinh-Zarr, T.B., Carr, D.B., 
Trilling, D.R., & McCarthy, D.P. (2006). Strategies and tools to enable 
safe mobility for older adults. Topics in Geriatric Rehabilitation 
22(1), 3-19.

Zaza, S., Sleet, D.A., Shults, R.A., Elder, R.W., Dinh-Zarr, T.B., 
Nichols, J.L., Compton, R., Thompson, R.S., & Task Force on Community 
Preventive Services (2005). Motor vehicle occupant injury. In S. Zaza, 
PA Briss, KW Harris (Eds.), The Guide to Community Preventive Services 
(pp. 329-384), New York: Oxford University Press.

Languages

Spanish (fluent) and Vietnamese (conversational)

    Senator McCaskill. Thank you so much.
    We thank all of you for being here. And I think I am going 
to spend most of my time because of the work I have done in 
this area on the Subcommittee, Dr. Rosekind, with NHTSA.
    It's a sad state of affairs when an airbag manufacturer has 
now refused NHTSA's request to do a nationwide recall of 
airbags that are killing people. It says a lot about where we 
are in this country right now and how your agency is viewed. It 
has become fairly clear to me in the hearings that we have had 
on both the ignition switches at GM and the Takata hearing that 
these companies are way more afraid of a civil lawsuit than 
they are of NHTSA. And I think it's really important that you 
keep that at the top of your list in terms of priorities. If 
you are not feared and respected, then you cannot do a good job 
policing the safety of automobiles in this country. You have to 
be feared and respected. And I don't think NHTSA is either 
feared or respected at this point.
    So let's talk about the budget. It has been flat-lined for 
over a decade. Now, keep in mind what has been going on with 
technology over this decade. Keep in mind how automobiles have 
changed over this decade. But, yet, the budget for NHTSA has 
been flat-lined, particularly in the area where you need to 
keep up with this technology. And, once again, this year, the 
request is another about $10.5 million. I need both for you to 
talk about working on the budget and what the real needs are, 
and then, Mr. Monje, I would like you to speak to that also, 
working with Dr. Rosekind, if confirmed, to really for the 
first time in a decade look to see if we are even taking this 
job seriously in light of the resources that we are committing 
to it.
    Dr. Rosekind. Senator McCaskill, thank you for the 
question. And I want to thank you for the hearings that you 
have held. I come from the NTSB. It's all about transparency. 
Those hearings have been critical for the American people to 
understand what's going on.
    If you want to come back to the enforcement side a little 
bit more, I'd be happy to do that later, but, specifically to 
your question, I think the--and I am at the same place where 
you are, seeing a lot of this in the public sphere, but I think 
all of us actually don't realize how severe the situation is.
    Typically 45,000 complaints come to NTSA because of the 
visibility of the hearings here and elsewhere. Those are up to 
75,000 now. Of the 50 people you keep hearing about in the 
Office of Defect Investigation, 9 people look at those 75,000 
complaints. Only 16 are actual investigators who go out in the 
field. But I think what you are highlighting that is really 
critical, it's not just about the individual personnel, but 
it's the technology. What computer systems and other kinds of 
technology solutions do we have to process, evaluate, identify, 
and connect the dots when you are getting 75,000 complaints 
every year? You want those complaints. Every voice should 
count. But we need to increase not just the people but also the 
technology.
    So I think, budget-wise, while there has been a lot of 
focus on personnel, I really think that that entire system 
needs to be considering how an upgrade is going to help us deal 
not just with those complaints but the other data sources that 
are available to determine where we are seeing defects early so 
that decisions can be acted on quickly.
    Senator McCaskill. And I want to also weigh in that it's 
not just how many you have but the kinds of people you have. If 
you are not hiring the kinds of engineers that these automakers 
would want to hire away from you because of their incredible 
competence and capability, you can't regulate an industry. If 
you don't know the right questions to ask, you don't know what 
is being omitted, you don't know what else you need to know if 
you don't have the same training and competence as the 
engineers you are going head to head with.
    So let's talk about the Inspector General's report. We have 
talked about it before in the Subcommittee. There were ten 
recommendations made by the Inspector General, the DOT 
Inspector General, for NTSA. One of them has not been 
addressed. And that is determining what I was just referencing: 
the appropriate mix between the work force assessment. What 
should your workforce look like?
    You missed the May--you didn't. They missed the May 2014 
target. And he testified, Deputy Administrator Friedman 
testified, back in September that it would be done by mid 
November. Well, we have gone through mid November, and it is 
now December. And we still do not have it. It is critical we 
have this.
    It is my understanding that NHTSA hired a contractor to 
conduct the original workforce assessment but was dissatisfied 
with the findings and then has spent the last months trying to 
revise it. I would like your commitment that we get the revised 
report when it is ready, but I would also like your commitment 
that we get that report that they are revising. I would like to 
see what the outside--we paid for it. The Government paid for 
this outside assessment that is now busy being revised. I want 
to see what that original assessment said before the revisions 
occurred so we can get a sense of if, in fact, it was 
inaccurate. I think it is important that we have the ability to 
check that. Would you make a commitment that we could see both 
of those if you are confirmed?
    Dr. Rosekind. Absolutely. And if confirmed, you can you can 
pretty much guarantee that I am going to have the same level of 
not just review but eyes to what actions need to actually take 
place to change what is going on at NHTSA.
    Senator McCaskill. Thank you. Senator Heller. Oh, excuse 
me. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Madam Chairman. And thank 
you for your leadership of the Consumer Protection Subcommittee 
and this committee today.
    Dr. Rosekind, wouldn't you agree with me that Takata's 
rejection of a national recall is simply unacceptable and 
unconscionable?
    Dr. Rosekind. I have to be a little cautious just as a 
nominee talking about where I am going to go. I think that I 
can--that is my balanced perspective.
    On the other hand, I am a driver and passenger and a 
pedestrian. And I can tell you that I not only agree but am 
very concerned, like all of you have been, with the slowness 
across all of the recalls, timing, their responsiveness, and 
the information they have been forthcoming with.
    Senator Blumenthal. And what will you do as NHTSA 
Administrator to enforce a national recall?
    Dr. Rosekind. If confirmed, I am going to look to every one 
of the legal tools that are available to enforce the 
regulations and the laws. And this came up in Senator 
McCaskill's question as well.
    I think, as you know, there are a lot of concerns about the 
authorities, the fines and penalties, et cetera. In a safety 
culture, people aren't worried they are not going to act in a 
proactive safety way. That has to be established.
    There is a concern, of course, that sometimes the legal 
course takes time. And so I understand the ability to try and 
have companies take their own action. If that is not happening, 
though, NHTSA needs to be the enforcer.
    Senator Blumenthal. My impression--and I think it is widely 
shared--is that NHTSA has been an agency recently adrift, even 
aground, because of the lack of the aggressive kind of action 
that I believe ought to be taken and that you have supported, 
at least implicitly, in your response today. And I would 
suggest that with respect to that enforcement action, that you 
can make a profoundly important first impression--and you only 
get to make a first impression once--by taking that kind of 
aggressive no-holds-barred action to help eliminate the widely 
held perception that regulatory capture has taken hold at NHTSA 
and that this watchdog agency has become too cozy with the 
industry that it is supposed to oversee and scrutinize.
    When Mr. Friedman was here last, I asked him about the 
potential action that NHTSA could take to make sure that there 
are sufficient airbags available to do the repairs that are 
necessary for the literally millions of cars, perhaps 15 
million or more cars. And at the rate that the Takata witness 
at that point said that airbags would be available, about 
300,000 a month, perhaps as high as 450,000 a month, it will 
take years. So I asked Mr. Friedman whether he would commit to 
recommending to the Secretary of Transportation that NHTSA use 
its power under section 301-20(c)(3) of the Motor Vehicle 
Safety Act to order car manufacturers to use replacement parts 
that other airbag manufacturers make, even if it means 
requiring Takata to share proprietary information. Do you agree 
with me that NHTSA has this power?
    Dr. Rosekind. Thank you for that question. I agree that 
NHTSA has that power. And I think there have been questions 
about sort of the authority tools that are available. 
Absolutely, those need to be looked at.
    I think the more important question is what you are 
highlighting. You have to be ready to act and use them.
    Senator Blumenthal. And will you commit to using that 
power? I think there is no question in my mind that that power 
resides in the Department of Transportation to order effective 
steps that make available sufficient airbags in the interest of 
public safety. And I am asking for your commitment that you 
will do whatever is necessary to use that power and invoke the 
Secretary's name and authority to require Takata and the auto 
manufacturers to do the right thing.
    Dr. Rosekind. If confirmed, you can count on my commitment 
to use every possible legal mechanism as enforceable as 
possible to the greatest extent to get these things enacted. 
You have already said it. I said it in my statement. This is 
all about public safety. We cannot be shy. We cannot withhold 
all of the tools available to us to get what needs to be done 
to help save lives and prevent injuries.
    Senator Blumenthal. My last question, would you agree with 
me that a regional recall policy simply makes no sense in an 
era when drivers from different parts of our nation drive to 
the more humid or heated parts and where products have to be 
designed for nationwide markets?
    Dr. Rosekind. Well, and I appreciate that question because 
it highlights that NHTSA is extremely data-driven. You have to 
go with the data. But what you are raising are just some 
practical, normal, common sense things that need to be applied 
as well. And I think that has been one of the challenges. If 
the data aren't there, sometimes there is no action. And the 
reality is there still might be a defect that's a concern. You 
just don't have the data. So that is where common sense and 
other kinds of decisionmaking need to come in so that you are 
protecting lives and preventing injuries.
    Senator Blumenthal. I appreciate your very forthright 
answers to my questions. And if there is a second round, I look 
forward to following up.
    Thank you, Madam Chair.
    Senator McCaskill. Senator Markey is not here. Senator 
Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Madam Chairwoman. Thank you for 
holding this hearing. And I want to thank you personally for 
your hard work and effort on this particular issue. We have 
worked together on our Subcommittee and have had interesting 
hearings, to say the least.
    I want to thank the nominees that are here today and 
congratulate you. I also want to welcome the families also, 
whether they're here or elsewhere watching today's hearing. And 
they should be proud of this moment.
    Like the others, I think my questions will more be towards 
you, Dr. Rosekind, because of the Subcommittee hearings and the 
issues that have been brought up because of that.
    Obviously it is imperative for the American people to know 
their cars are safe. I know you agree with that. We all agree 
with that. But you are walking into an agency that has lost 
trust with the American people.
    I guess my question is this. When you had this conversation 
with the President, did he acknowledge the loss of trust for 
this particular agency?
    Dr. Rosekind. We haven't had that discussion directly, but 
I would say part of my nomination is to come before you 
acknowledging the work that needs to be done.
    And I appreciate that question because it gives me a chance 
to highlight in my statement I understand the specific juncture 
which I am about to step into if confirmed. And I think the 
challenges are tremendous, but there is a--I also view this as 
a tremendous opportunity, frankly, because I think there is a 
chance that there--these hearings and other activities have 
clearly identified many directions that need to be examined, 
pursued, acted on. And I think that some of those opportunities 
are going to mean actually safer roads, safer vehicles for all 
of us.
    Senator Heller. Did you have a specific conversation with 
the President about restoring credibility to the agency?
    Dr. Rosekind. Not specifically with the President, no.
    Senator Heller. Did you have a specific conversation with 
him about what your detailed plan is to turn the agency around?
    Dr. Rosekind. I appreciate the question to say it has not 
been with the President. I have talked--those kinds of 
conversations have been more with the Secretary.
    Senator Heller. OK. OK. I want to change topics for just a 
minute. And we bore on this a little bit earlier, about what 
we're doing in Nevada. They are building probably the most 
advanced cars in the country in the State of Nevada. Tesla 
announced a new gigafactory to build their vehicles here. Here 
is my concern. You know, GM has even said publicly that they 
didn't understand how their cars worked. Takata, we had that 
discussion last week. Now we have a new discussion with Graco 
about their child safety seats. And things are moving in all 
directions. Here is my concern. If GM doesn't understand how 
their vehicles work, how does NHTSA come to the conclusion 
about how their vehicles work?
    Dr. Rosekind. I appreciate that question because it gives 
me a chance to highlight how there is an ongoing technological 
challenge to always make sure you're not just keeping pace but 
actually trying to stay ahead.
    So I am third generation San Francisco. I come from Silicon 
Valley. It is about bleeding-edge technology, not leading-edge. 
So I totally get this and, in fact, Senator McCaskill's early 
question. NASA, NTSB, it is always a challenge to figure out 
how these agencies maintain highly trained technical 
individuals who can be doing their jobs with these different 
industries that they are interacting with. So the challenge 
there is identifying the people, keeping them, but most 
important is what you have just stated, frankly. And that is 
knowing that that challenge is out there.
    The worst thing that happens is the boredom, complacency 
basically, where people aren't continuing to learn and stay up 
to speed on what is going on.
    Senator Heller. Do you believe that NHTSA today has the 
right employees to do that?
    Dr. Rosekind. I appreciate that question because as a 
nominee, I haven't seen yet the specific layout of all the 
particular expertise. I think that is a question that needs to 
be asked, that needs to be not only asked, but some of the 
evaluations of personnel, that needs to be one of the specific 
things that you look for. That is part of what I am committing 
to, is take a new, a fresh new set of eyes and a different 
approach and go after those questions. And if you find where 
improvements can be made, make them.
    Senator Heller. Obviously resources are the questions, 
probably the most important question, as they talked about, 
your flat budget over the last few years. And I am just 
concerned that you will have the employees and the expertise in 
your shop in order to stay ahead of the new technology that's 
coming down the road. How can you convince me that that is your 
top priority?
    Dr. Rosekind. One, I'm just going to repeat. I'm from 
Silicon Valley. It's all about the technology part. And, having 
worked at NASA and NTSB, which are two technical organizations, 
if your technical expertise isn't up to speed, things don't 
fly, things don't get investigated accurately, et cetera. It is 
critical. And so that's why I have to admit I am less about 
counting the numbers as to looking at what you are talking 
about, which is the expertise of the personnel to get their job 
done.
    Senator Heller. Yes. I think in some of the Subcommittee 
hearings we have, we have noticed that it has been difficult to 
connect the dots. NHTSA has had problems connecting the dots. 
And that is why we are where we are today.
    Again, congratulations to all of you and thank you.
    Madam Chairman, I yield back.
    Senator McCaskill. Senator Thune.
    Senator Thune. Thank you, Madam Chair.
    Dr. Rosekind, I really didn't intend to make this a hearing 
about NHTSA. It sounds like most of the questions have been 
regarding the record number of recalls and the growing concern 
that, as Senator Heller stated, that NHTSA can't connect the 
dots when it matters the most, the public, American public, 
seemed to be losing confidence in NHTSA and the administration 
to get it right on vehicle safety. And I think it is fair to 
say 2014 has not been a good year for NHTSA. And so I guess the 
question is kind of a general one. But if you are confirmed as 
the next administrator, what specific steps do you plan to take 
to restore the public's trust in NHTSA?
    Dr. Rosekind. Thank you for the question. They are not 
written down, but at the NTSB, there are three things that I 
would almost call principles and practices of the agency: 
independence, transparency, and accuracy. So that gives you a 
sense of my perspective and viewpoint. So I am going to take 
the same critical eye used in the investigations, using 
independence, transparency, and accuracy that have been done at 
the NTSB, and apply those at NHTSA. So when you think about 
having a critical eye, mine, if confirmed, would probably be 
the most critical to look at every single area where things 
could change and then not hesitate to make those changes.
    I really believe that we need to drive safety forward at 
the agency. There is no question about it. We have to 
acknowledge its successes. We are at the lowest fatality rate 
since 1950. Seatbelt use is up at a high. We have to balance 
that with the improvements that are clearly being identified 
and the need to change.
    Senator Thune. I mentioned this earlier in my opening 
statement, but according to the New York Times, the Obama 
administration is conducting a comprehensive review of NHTSA to 
determine if it has ``the dial set correctly on safety.'' The 
inquiry is being conducted by the Department of Transportation. 
It is in addition to an internal investigation that is being 
done by DOT's IG. Are you familiar with the comprehensive 
review that is being conducted by the Administration? And if 
so, could you provide us with details of this review ,including 
when you might expect it to be concluded?
    Dr. Rosekind. I appreciate the question. I am familiar with 
it. But as a nominee and external to the agency right now, I 
don't have all of the details, but I will commit to not only 
reviewing but discussing. I think that is a perfect example of 
how much I am actually looking forward to working with you, 
staff, and this committee in not just reviewing those but 
identifying the actions that need to be taken to fulfill 
getting a safer NHTSA moving forward.
    Senator Thune. So you would make those findings available 
to Congress at the appropriate time if confirmed?
    Dr. Rosekind. Absolutely.
    Senator Thune. Terrific. Thank you.
    Dr. Dinh-Zarr, some of your academic work focused, as I 
mentioned, on driver impairment. In South Dakota, we have got a 
State law that provides alternative methods of enforcement on 
drunk driving sanctions through a program that is known as 24/7 
Sobriety. As an example, rather than only using ignition 
interlocks, the state also uses twice-daily breathalyzers and 
alcohol-monitoring devices to enforce mandatory sobriety and to 
prevent repeat drunk driving incidents. These programs provide 
different but comparable safety enhancements that have 
dramatically reduced repeat offenses. Would you support 
recommendations for alternative programs that provide an 
equivalent level of safety?
    Dr. Dinh-Zarr. Thank you, Senator Thune. I appreciate that 
question because I have actually been keeping an eye on your 
state, as you know. And that is a specific interest of mine. 
And my background because it has spanned many different states, 
I am very sensitive to the differences in cultures in every 
state and the need to ensure that any type of recommendation is 
implemented in the states in a way that we will save the most 
lives.
    As you mentioned in your case, in South Dakota, you found a 
way that has been very effective and has been welcomed, it 
seems, by South Dakotans, at least the ones I have talked to.
    So, absolutely, I would do everything I can to ensure that 
any recommendations, if confirmed, that I acted upon as an NTSB 
member, I would work closely with my Chairman and the fellow 
board members to ensure that the states can utilize them in a 
way that is most helpful and that can save the most lives and 
that can prevent the most injuries and can utilize innovative 
practices, such as in your state.
    Senator Thune. Terrific. Thank you.
    Mr. Monje, in your work at the Department of 
Transportation, you have worked on the unauthorized 
infrastructure grant program known as TIGER. How can the 
program be more transparent and efficient so that the American 
taxpayer can have confidence in the use of their tax dollars?
    Mr. Monje. Thank you very much, Senator, for the question. 
The TIGER program is one of the most innovative programs at the 
department. We have been very proud of the projects we have 
been able to fund, innovative projects that bring in additional 
funding that wouldn't otherwise happen were if not for the 
program.
    There have been a number of steps we have taken over the 
last year to improve the transparency of the program, of 
improving the documentation. And those are things we need to 
continue to work on as the years move forward. I think what I 
would like to see out of the TIGER program moving forward is 
proposed in the GROW AMERICA Act, is an increasing of that 
program and as well as taking some of the lessons learned that 
we have had from that program and bringing it to other programs 
within the department.
    Senator Thune. OK. Great. My time has expired. Madam Chair, 
thank you. Thank you all very much.
    Senator McCaskill. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair.
    And congratulations to each of you, very important 
positions in our society, especially in this era.
    I know Senator Blumenthal touched upon this, but I just 
want to reinforce that, you know, Takata is rejecting NHTSA's 
call to make this a nationwide recall. And I just want to say 
that it is entirely unacceptable that Takata is refusing to 
accept this common sense resolution of this issue.
    Right now there are thousands of people from Massachusetts 
driving down to Florida. They are called snowbirds. And they 
are not going to come back until after the Red Sox leave spring 
training. They are down there. The State of Florida estimates 
that there are one million of these snowbirds per year from the 
northern states that go down to Florida. And they are in 
automobiles that did not originate in humid states. And so 
there is a real danger here, and we have to make sure that 
there is a complete compliance by Takata with NHTSA's request 
that they, in fact, have a nationwide recall.
    So I guess what I can say to you is, Dr. Rosekind, that you 
must make Takata recall all of these airbags. You must force 
the automobile companies to comply with a nationwide recall. 
There is no choice. The safety of the American people is at 
stake. Takata is toying with the safety of the American people 
when they refuse to recognize this danger, and I just want to 
say that to you, Doctor, and hope that you understand how much 
we want this issue to be resolved.
    Now, let me move on to a related issue. And that's in 2007, 
NHTSA asked for and received secret documents from GM related 
to the death of 2 Wisconsin teenagers. That document was first 
made public by me at our May 7 hearing, and it is referenced 
repeatedly in Mr. Valukas' report. It included a report by the 
Wisconsin State Patrol Academy that said that the ignition 
switch defect prevented the airbags from deploying. It also 
found other examples of the same problems happening in other 
cars and identified a 2005 GM warning to dealers about the 
issue. In short, it correctly identified the safety defect.
    Do you agree with me that GM's CEO, Mary Barra, and others, 
that the public had been told about this secret document and 
warned about its conclusion at the time, it is possible that 
some of the deaths and injuries caused by this defect could 
have been avoided?
    Dr. Rosekind. And thank you for that question. Yes. And I 
think what you are highlighting is the need for greater 
transparency at many different levels to understand where 
complaints are coming from, where defects are, et cetera. And 
that is one area I should just mention from the NTSB I am going 
to apply at NHTSA: independence, transparency, and accuracy. 
And I think that is something--if you look at NTSB 
investigations, you know what is going on.
    Senator Markey. OK. Thank you. Now, in October, Senator 
Blumenthal and I sent a letter to NHTSA informing NHTSA that 
the 2009 death of an Oklahoma teenager caused by an exploding 
airbag that was settled by Honda and Takata in a secret court 
decision had never been reported by either Honda or Takata to 
NHTSA's early warning reporting data base.
    I have also learned of five other serious injuries that 
were not reported to the early warning reporting data base by 
Honda.
    Do you disagree that if the public knew about all of the 
deaths and serious injuries caused by exploding airbags at the 
time that the companies knew, that it is possible that some of 
the later deaths and injuries caused by this defect could have 
been avoided?
    Dr. Rosekind. And I appreciate that question because, 
again, it is about transparency, transparency, transparency. 
What you are highlighting is a number of areas that need to be 
examined to see where transparency could be increased.
    Senator Markey. Well, a lawsuit over the 2009 Oklahoma 
death that Honda and Takata both failed to report to the early 
warning reporting database was settled secretly in 2009. Do you 
disagree that if the public knew that the Oklahoma death and 
knew that Honda and Takata had been sued about this death, that 
it is possible that some of the later deaths and injuries could 
have been avoided?
    Dr. Rosekind. And what you are highlighting is 
transparency. The more the public knows where the defects and 
problems are, the more they get to make their personal choice 
about what to do.
    Senator Markey. Thank you. Well, Senator Blumenthal and I 
have authored legislation to require more information to be 
publicly available to NHTSA's early warning reporting data 
base, including documents like the ones that were kept secret 
by GM, Honda, and Takata that could have saved lives if only 
the public had known that they existed. GM and we have reached 
substantial agreement on a slightly modified version of that 
legislation. If confirmed, would you commit to work with me on 
this legislation and other ways to increase transparency and 
public disclosure by automakers and NHTSA itself?
    Dr. Rosekind. Absolutely. I look forward to working with 
you, the Committee, and your staff to do exactly that.
    Senator Markey. Thank you. Thank you, Madam Chair.
    Senator McCaskill. Thank you, Senator Markey.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you to all of 
you. Congratulations on your nominations. My state has had a 
lot of interaction with all of your agencies. Secretary Foxx 
made it his second visit after he got in to see our bridge and 
that disaster that had occurred and how we were able to build a 
new bridge within a year, but we lost 13 people. And it was a 
tragedy and certainly shook our citizens up about the status of 
our transportation infrastructure and the need for safety. So I 
thank you for taking on these important roles.
    I will tell you, Ms. Dinh-Zarr that I have been amusing 
myself by watching your son behind you. I cannot figure out if 
he is doing homework or taking notes on our questions.
    [Laughter.]
    Dr. Dinh-Zarr. I think he would like to be a Senator, 
Senator.
    Senator Klobuchar. Yes. He looked like he was a little 
critical as he was writing these notes. It's better than my 
daughter, who once during a major speech I gave when she was 
around that age took a Harry Potter book and put it in front of 
her face in the front row.
    [Laughter.]
    Senator Klobuchar. So this is much more mature.
    I wanted to ask you specifically first about rail 
derailments. I know that NTSB has a unique perspective on 
safety, and we have had some derailments in our state, as they 
have had across the country. And where do you think we should 
be focusing our attention and resources? And what do you think 
we need to do differently in the rail area to avoid these 
crashes?
    Dr. Dinh-Zarr. Thank you, Senator, for that question and 
for giving some attention to my son as well.
    Rail obviously is very important to the health of our 
country. And it is also a personal priority for me. And, as I 
understand it, the NTSB has quite a few recommendations related 
to rail safety, as you know, everything from related--
longstanding recommendations related to positive train control 
and other areas. And I think that, if confirmed, what I would 
make a priority is to work with the excellent staff of the NTSB 
as well as with the Chair and other members of NTSB to ensure 
that those longstanding and very important recommendations are 
implemented as quickly as possible.
    Senator Klobuchar. I mean, really, all three of you, as you 
go forward, I hope you will continue the focus on distracted 
driving. I know, as you know, Secretary LaHood made this a 
major focus and Secretary Foxx. There are some problems with 
the grant programs. Senator Hoeven and I have a bipartisan bill 
to fix them. I think the only state last year that got the 
grant was Connecticut. And, you know, we love Connecticut, but 
I think that that we can maybe make the grant program better 
and more accessible to other states as we look at trying to 
push states gradually to change their laws. This, as you all 
know,--I don't have to tell you--is a major problem.
    I wanted to shift to the last issue, which we have been 
focused on a lot today. And that is the issue of Takata and the 
airbags and just make sure that you are aware, Mr. Rosekind, 
about what happened in Minnesota. I spent a few hours at this 
family's home over Thanksgiving, a woman named Shashi Chopra 
from North Oaks, Minnesota. She was simply a passenger in a 
2002 BMW crash. They were going about 30 miles an hour near 
their house. Someone ran into them. And it deployed a Takata 
airbag and left her permanently blind. They were only going 30 
miles an hour. And the airbag somehow had too much force in it, 
and it ruptured both of the veins leading into her eyes, and 
she cannot see. She has been at Mayo Clinic for multiple 
surgeries. She is a businesswoman, ran an Indian restaurant in 
our state that is pretty well-known. And her kids have 
completely changed their lives to take care of her. And that is 
what I saw when I was at home. So I want to start with that 
question there about just--you have talked a lot about these 
recalls. And what concrete changes do you think you should 
implement? Because you should know in their case, they sent a 
complaint in to NHTSA in May 2013 or in March 2013. The 
accident happens in May 2013. They submit the letter to NHTSA 
about the case, and they really didn't hear back. So if you 
could comment on that, the change of the complaint process?
    Dr. Rosekind. Yes. Thank you for that question, and thank 
you. I think this committee and your hearings and your 
statement just there, you have got to put names and faces to 
these things. You know, we keep talking about saving lives and 
preventing injuries, but these are all people. And their lives 
are changed forever. So thank you very much for doing that.
    And I think what you have also highlighted is--you know, if 
confirmed, one of my first immediate focuses is going to be the 
defect recall system. And, again, there has been a lot of focus 
on the investigation, but what you have highlighted is we have 
just gone from 45,000 complaints to like 75,000 complaints that 
the agency is getting. And with only nine people looking at 
those, we're not even talking about connecting the dots. We are 
just talking about the overload of having that many complaints.
    I also think what you are pointing out is every voice 
counts. So we have to look at just the systems of data that are 
available to be analyzed. And another thing, just as a thought, 
is we need to be looking at other systems that are available, 
public health surveillance. There are other things in 
aerospace. There are a lot of different systems that are 
looking for defects in high-reliability kind of organizations. 
And, if confirmed, I would go in to see how those systems could 
be applied to the challenges that are at NHTSA today.
    Senator Klobuchar. You might want to look at the University 
of Minnesota on food safety. They have this award-winning way 
they look at it. When complaints start coming in across the 
country, 2 or 3 times they have been able to identify the 
national--peanut butter, those kinds of things. And they do it 
very quickly with sort of old-fashioned detective work of 
calling the immediate places. It is a completely different 
problem, but clearly you have got a problem where you have 
disparate information coming in from so many places and find it 
hard, I think, to identify more quickly what the problem is.
    And, like my colleagues, I am also supportive of this 
nationwide recall. When I heard Senator Markey say a million 
people go down to Florida, when you add in Arizona, probably 
half of them are from my state. So we are very aware of the 
snowbird issue and the fact that these vehicles are traveling 
up and down. And we saw the map from NHTSA when we had the 
hearing last week, 2 weeks ago. And we were able to see the 
tragedies that occurred in some other states that were not in 
the Deep South. And so we ask you to continue to push on that 
issue as well.
    So thank you.
    Senator McCaskill. Senator Klobuchar. Excuse me. Senator 
Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. And thanks for 
holding this hearing.
    Congratulations to all of the nominees.
    Mr. Rosekind, I wanted to start with you. What do we need 
to do to ensure 100 percent repair recalls?
    Dr. Rosekind. Thanks for that question. And one of my first 
immediate focuses is going to be understanding the whole defect 
recall process. And I appreciate you raising that because there 
has been a lot of discussion about the identification side but 
not, as some of the other questions have pointed out, the 
recall because none of it matters if it doesn't get fixed.
    Senator Cantwell. Right.
    Dr. Rosekind. And if there aren't enough parts and they are 
not done in a timely manner, every time a person is in their 
car, they are at risk. As so that is part of my first look, is 
to understand that whole system from the identification side to 
the final fix.
    Senator Cantwell. Do you support 100 percent recall?
    Dr. Rosekind. I'm sorry? A hundred percent recall?
    Senator Cantwell. Yes. Do you support getting to a 100 
percent recall? That has been accomplished in Germany. And so I 
want to know, as a nominee, do you support that same process 
for the United States, getting to 100 percent?
    Dr. Rosekind. Great. Thank you for that question.
    I don't think there's--this is one of those common sense 
kinds of issues. If you've got a defect and you're recalling 
because they all have to be fixed, I'm not sure there's 
another--there's no other number that's your target except 100 
percent.
    Senator Cantwell. Well, that is good to hear you say 
because when we had some of these individuals before our 
committee just a short time ago, most of them blamed the fact 
that they weren't going to pursue 100 percent recall on the 
fact that it wasn't being required by the Federal Government. 
And I'm sure today what is happening now in them denying 
whether they are going to move forward on 100 percent is also 
because they believe that they're operating within the legal 
framework that they have to operate in. So if we can get to 100 
percent, which I think that is what we are asking for, I think 
that the American people will be safer. Obviously, Germany has 
proven that they can get there. So we should do the same.
    OK. Mr. Monje--is that right, Monje? Is that the right--
Monje, is that?
    Mr. Monje. Monje. Yes, ma'am.
    Senator Cantwell. Monje. Thank you.
    I obviously care a lot about what the Department of 
Transportation has been doing on freight mobility. And that is 
going to be something that is in your purview. So I wanted to 
ask you about some of the recommendations and implementing 
those recommendations and whether you are fully committed to 
implementing the recommendations of the task force that was 
created by Secretary LaHood.
    Mr. Monje. Thank you very much, Senator. And thank you for 
your advocacy on freight. You are known in our building as 
Senator Freight. And if it weren't for you, the Freight 
Advisory Committee wouldn't be.
    Senator McCaskill. A new nickname for you.
    Senator Cantwell. Well, I like to say Washington, when it 
comes to Washington State----
    Mr. Monje. Yes, ma'am.
    Senator Cantwell.--courts are us. So I will certainly take 
the Senator Freight title. Thank you.
    Mr. Monje. Yes, ma'am. Well, as I mentioned in my opening 
statement, freight really is the lifeblood of our economy. And 
I had the opportunity with the National Freight Advisory 
Committee to visit Memphis, where they really integrated 
freight into their entire economy, and the factories that have 
built up all around the airport just because of their ability 
to bring goods in and out.
    The National Freight Advisory Committee had 81 
recommendations that they gave to us. And a lot of those we can 
act upon within existing authority, including thinking about 
freight multimodally. Our national freight strategic plan 
really takes that tack.
    Some of the other things that they have recommended to us 
is figuring out where our data gaps are. And that's where 
you'll see in our conditions and performance report that is 
upcoming, a real emphasis on where our data gaps are.
    And also they have addressed--they have asked us to look at 
the workforce issues. And we have got a partnership that we 
have been working with the Department of Ed and the Department 
of Labor to figure out what the workforce needs are in the 
freight industry and how we can address them. But there are a 
lot of things we can't do within existing authorities. And that 
is why the GROW AMERICA Act proposes a $10 billion freight 
program to find where those national chokepoints are and 
encourage multistate planning.
    So, again, thank you for your advocacy.
    Senator Cantwell. Well, I certainly support this as an 
economic development strategy for our country. There is a huge 
growing middle class around the globe. They want our products, 
but if we can't get them there, they will obviously look to 
other markets. And so making sure our corridors are expediting 
product is very important.
    But I wanted to ask you specifically, so you do believe in 
streamlining the--these are things you can do internally. You 
do believe in streamlining the multimodal approval process?
    Mr. Monje. We are doing everything we can to promote 
permitting reform and to try to find those last mile and 
intermodal solutions. That is one of the things the TIGER 
program really has focused on. There aren't a lot of grant 
programs that are able to do exactly what you are talking 
about, and that is why we have proposed the $10 billion program 
within GROW AMERICA.
    Senator Cantwell. OK. And do you support identifying 
corridors, not just projects but corridors?
    Mr. Monje. Yes, ma'am, absolutely.
    Senator Cantwell. OK. And do you think--well, I already 
know you support a dedicated funding source to these projects. 
Right?
    Mr. Monje. Yes, ma'am. Thank you.
    Senator Cantwell. All right. Thank you very much. Thank 
you.
    Senator McCaskill. Thank you.
    Senator Blumenthal, we will go to you. We are also waiting 
for Senator Ayotte to arrive. I believe she is coming. So you 
can have a second round, and then I will take another second 
round if Kelly is not here yet.
    Senator Blumenthal. Thank you. Thank you, Madam Chairman.
    Dr. Rosekind, we focused on the need for a national recall. 
I don't know of any scientific evidence for a regional recall 
with respect to airbags. Do you?
    Dr. Rosekind. I appreciate that question because it 
highlights trying to be evidence-based in driving, and I think 
that is an excellent question. And, frankly, that is part of my 
understanding the defect recall system better and what criteria 
they used.
    Senator Blumenthal. But with all of your knowledge--and you 
are a distinguished scientist--you don't know of any evidence 
or facts that would justify a regional recall?
    Dr. Rosekind. No.
    Senator Blumenthal. Do you know of any evidence that would 
justify a recall directed at the driver's side but not the 
passenger's side?
    Dr. Rosekind. And I appreciate the question again. This is 
an area I am less familiar with. I actually think my more 
general response would be, again, to the bottom line, it is the 
traveling public and keeping them safe.
    Senator Blumenthal. And----
    Dr. Rosekind. So that means going for as broad a safety net 
as possible so that your evidence actually has to be that it is 
OK to decrease that safety net, not the other way.
    Senator Blumenthal.--the burden would be on anyone saying 
that we should limit it to the driver's side airbags?
    Dr. Rosekind. Yes.
    Senator Blumenthal. And that burden has not been satisfied 
so far, has it?
    Dr. Rosekind. To my understanding. But, again, I am the 
nominee. I have only seen what you have seen, including things 
today.
    Senator Blumenthal. Let me turn to another piece of 
legislation. You know, at the end of the day, Senator McCaskill 
is absolutely right about the resource challenges that this 
agency faces. But even an agency fully and abundantly resourced 
will be ineffective if it lacks teeth, if the penalties are 
ineffective. And right now the $35 million cap on penalties for 
nondisclosure or inadequate disclosure is absolutely a mockery 
of justice. Wouldn't you agree?
    Dr. Rosekind. I appreciate that question because I am just 
going to preface this by saying in the aviation industry, the 
NTSB just released this week its report about the Dreamliner 
787 battery. I would like to point out when there was a problem 
there, the FAA grounded worldwide the entire fleet until 
something was fixed. That is a safety culture that says we are 
stopping everything in honoring safety.
    Senator Blumenthal. And that is the same culture that this 
agency has to adopt. Is that correct?
    Dr. Rosekind. That is why I am bringing it up, because I 
think the questions about what the incentives versus 
punishments are, the safety has to be proactive where people 
are--they see that being safe is really the more--not just the 
safe thing to do but the business and economic thing that needs 
to be done as well.
    Senator Blumenthal. So, on the economic aspect of these 
decisions, the only point, if not the major point, that most of 
this industry is going to understand is ineffective, strong 
penalties. And would you support the legislation that I have 
introduced along with Senator Markey and Senator Nelson to 
completely eliminate the cap on penalties for nondisclosure?
    Dr. Rosekind. And I think the Secretary and deputy 
administrator have already come out and said right now it is 
pocket change and the cost of doing business. There is no 
question it needs to go up. If confirmed, I would be pleased to 
work with you to review and see how we could support increasing 
those penalties.
    Senator Blumenthal. Thank you.
    Another proposal that I have made is to put the burden on 
any parties seeking a secret settlement, seeking secrecy and 
sealing of a settlement, of litigation involving safety that 
could endanger the public, including defective parts. Would you 
support the bill that I have introduced along with Senator 
Lindsey Graham? It is a bipartisan measure that would, in 
effect, require a judge to make a finding that it is in the 
public interest to seal any settlement involving defective 
parts or products.
    Dr. Rosekind. And I appreciate that question because it 
gets to the transparency issue again. And that's not just about 
complaints coming in, but it's the kind of data that you are 
talking about that is not available to the American public 
because of some of these. So, if confirmed, again, I would be 
very willing and pleased to work with you to review and make 
any measure as strong as possible.
    Senator Blumenthal. I want to conclude on an area where you 
are maybe one of the Nation's experts: fatigue management and 
sleep apnea. The Federal Railway Administration still has not 
issued regulations recommended by the NTSB or the other 
agencies regarding developing a--requiring a fleet management 
plan. Wouldn't you think that the FRA has an immediate and 
urgent obligation to issue such rules and regulations?
    Dr. Rosekind. I am going to switch hats very quickly. And I 
really appreciate that question. The saddest thing for an NTSB 
board member is to show up at the scene of an accident and 
realize that lives got lost and there are already 
recommendations that could have saved those lives. And that is 
what you have just highlighted.
    Those recommendations that are out there, if acted on now, 
all those people who are out there right now on those railroads 
with apnea are not being identified, diagnosed, or treated.
    Senator Blumenthal. Because of a lack of regulations from 
the Federal Railway Administration?
    Dr. Rosekind. Correct.
    Senator Blumenthal. And regulations from the Federal 
Railway Administration could have avoided very likely four 
deaths that occurred in Spuyten Duyvil one year ago this week 
or last week.
    Dr. Rosekind. And in the NTSB report on that accident, we 
specifically identified that if criteria used to identify 
people with apnea, that engineer would either have been not on 
the job or would have been treated for sleep apnea.
    Senator Blumenthal. Thank you. Thank you, Madam Chairman.
    Senator McCaskill. Thank you.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chair.
    I appreciate all of you being here.
    Dr. Rosekind, I wanted to ask about the ignition switch 
recall situation. And, in fact, previously coming before our 
committee was Deputy Administrator David Friedman. And I have 
also asked Mr. Millikin, the head of GM's Legal Department, 
about this issue. There was an article in the New York Times 
which described the course of action during the ignition switch 
situation in which, on numerous occasions, GM told the agency 
that they were not going to answer questions about accidents 
potentially involving the ignition switch because it was either 
attorney-client privilege or they lacked insufficient 
information. It seemed to me in those circumstances that, as 
the regulatory agency that is charged with getting to the 
bottom of these situations to ensure consumer safety, that that 
was an unacceptable answer to hear from those you are 
regulating. I wanted to get your viewpoint on that because I 
didn't think that it was acceptable for GM to answer NHTSA 
that, ``I'm not going to tell you about a fatality or the 
circumstances of it or what we are doing to undertake the 
investigation of it based on attorney-client privilege'' given 
the charge that your agency has been given and the importance 
of it.
    Dr. Rosekind. Well, thank you for that question. And for 
me, it is pretty simple. I agree that is unacceptable. You are 
asking for information that is going to save lives, prevent 
injuries, keep the American public safe. You want that 
information to be able to do that job. So no, that should not 
be withheld.
    Senator Ayotte. Well, I really appreciate your commitment 
and your taking over this important position that has obviously 
been vacant for too long, so I am appreciative of your 
willingness to do that. And so when you receive that answer, 
your agency, when you are confirmed, I hope that NHTSA will 
follow up and say to those that are being regulated, ``We are 
not going to accept that for an answer. We are also not going 
to accept that there is insufficient information. You have a 
responsibility to provide us. the regulator, with that 
information.'' So I appreciate your taking an aggressive stance 
on that issue.
    I also wanted to follow up on another issue. As you look 
back at the GM ignition switch recall, there did appear to be 
numerous opportunities where this issue should have been 
discovered earlier. Putting aside what I think were numerous 
opportunities and some outrageous behavior on GM's part, which 
we have had hearings on in this Committee, at NHTSA, I think 
that there were many failures as well, specifically in terms of 
the delay of recalling the ignition switch and recognizing the 
dangers that this presented to the public earlier to hopefully 
save lives. So as you have looked at that situation, what are 
the lessons you take from that?
    Dr. Rosekind. I appreciate that question because it gets us 
to two really important things. The thing that most people 
characterize as is connecting the dots. And I think there has 
been some discussion here already that part of this gets to 
what the data sources are that are available, including when 
people aren't giving you sufficient information. So, again, one 
of my immediate concerns is taking a look at the defect recall 
system fully to understand how to identify as well as the full 
recall process.
    Just knowing that we have gone to 75,000 complaints and 
there are 9 people looking at it, you need to understand not 
just the personnel but the technology that you are using to 
search through that kind of a database to get your answers.
    The second thing, though, I think that's really important 
that you have just highlighted is we just learned that people 
were withholding intentionally for a long time information. 
Well, that's a game-changer. That's a new scenario. You know, 
the agency is looking for certain kinds of patterns and stuff, 
but I am not sure the scenario was there ``Well, somebody is 
intentionally withholding this from you over time.'' So I think 
that's another piece that now has to be integrated basically 
into that detection system, understanding that that can happen.
    Senator Ayotte. As you know, we recently, of course, had 
the hearings on the Takata airbag recall issue, too. And I know 
that my colleagues have asked you some important questions 
about that recall. Let me echo their concerns about the 
regional nature of the recall. As someone who represents a 
northern state, I have plenty of constituents that drive their 
cars down to more humid climates in the winter, as much as we 
love New Hampshire winters. So I appreciate that you are very 
concerned about that and will follow up on that issue as well.
    I would like to see, as you get confirmed for this 
position, you come back within several months to this committee 
and let us know what changes that you feel have been made or 
need to continue to be made to the oversight process of the 
agency and the recall process, so that looking back on these 
truly tragic situations, that we are doing everything we can, 
working with you, to rectify those going forward and to give 
you the support you need to do that.
    Dr. Rosekind. And I am actually very much looking forward 
to working with this committee. I think, again, you have played 
a critical role in bringing this information out to the 
American people. And I hope to be able to come back to you, if 
confirmed, and not just tell you what we have learned but what 
we are doing.
    Senator Ayotte. Great. I appreciate your commitment. Thank 
you.
    Senator McCaskill. Thank you, Senator Ayotte.
    I am going to ask. I have one remaining question that I 
wanted to get on the record. And then I'm going to turn it over 
to--Senator Cantwell has another question. And, then, 
obviously, Senator Nelson just arrived. And I will leave the 
Committee to his leadership and because I have a commitment I 
cannot avoid at 2 o'clock.
    But I wanted to talk a little bit about crude moving by 
rail. While Senator Cantwell may be Senator Freight, Kansas 
City and St. Louis are the second and third largest freight 
hubs in the country. And, obviously, we are very aware of the 
increase in the movement of crude by rail across our country. 
It is, in fact, one of the reasons I support the pipeline 
because I think that product is going to move. We are not going 
to stop it from coming out of the ground. So the question is, 
how do we move it in a way that is most safe, both to the 
environment and the people of this country? And I think a 
pipeline is the safest way to move it, not rail.
    Having said that, rail is now obviously very busy moving 
crude. And I have heard from local first responders, both in 
Kansas City and St. Louis, while we have had some crude-by-rail 
accidents, they have primarily been in more rural locations. 
Obviously, if that were to occur in a major metropolitan area 
like Kansas City or St. Louis, we would have a much more 
significant problem to deal with. And the first responders are 
concerned that they are not getting enough information about 
what is the right response, what is the best response. They 
fear they are not as trained and as knowledgeable as they need 
to be on this issue.
    And so I wanted to ask you first, Mr. Monje, what can you 
do, what can the Department of Transportation do, to ensure 
that the first responders in these major metropolitan areas 
have every bit of information they need in terms of their 
ability to respond to, God forbid, that we would have a crude 
oil spill by a rail accident in these major metropolitan areas?
    Mr. Monje. Thank you very much, Chairman, for that 
question. We agree with you at the department that this is a--
this is something that we didn't anticipate, the growth of 
crude by rail over the last few years. But we have been moving 
extremely quickly as a department to address those safety 
issues, over two dozen activities with the industry to increase 
the transparency, to better communicate with our first 
responders, to reduce speeds and be thoughtful about routes. 
And the department is in the process of finalizing a crude-by-
rail bill, regulation that will do a lot of things that you are 
discussing.
    But you are right that the first responders on the ground 
are the folks that need the training. They need to understand 
what is being transferred, and they need to ensure, to 
understand that the tanks that are bringing these, these 
materials, are safe, which is why the department is taking such 
a deliberate step to get the rules right.
    Senator McCaskill. Well, I will follow up. Hopefully you 
will be confirmed and quickly. And I will follow up about--but, 
really, what they are asking for, which I think is very 
reasonable, it won't even require a regulation or a period of 
comment or all of the controversy that always goes with those, 
just requires them getting best practices on what are the best 
tactics and methods to respond to an accident like this if it 
were to occur, taking into account that their challenges they 
have in a metropolitan area are much different than they are in 
rural areas.
    Let me finish by saying that we are going to try to 
expedite the confirmation process. And so I am requesting that 
the Members of the Committee submit any QFRs, questions for the 
record, by noon tomorrow. There is no staff over there, but if 
the staff that is here for the Republican Senators, if you 
would make sure that all of the staffs understand that the QFRs 
need to be in by noon tomorrow and that the nominees must 
provide responses to those QFRs by noon on Monday in order for 
us to have even an opportunity? I don't know that we can but 
even for there to be an opportunity for confirmation before the 
end of the year, that would have to occur.
    And I will now turn the gavel over to my colleague Senator 
Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson [presiding]. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Rosekind, I just wanted to ask you, do you believe that 
the rule for cargo pilots that was basically carved out of the 
fatigue rule should be reversed?
    Dr. Rosekind. So I'm going to change my hat again. And I 
appreciate that question, Senator. I and the NTSB are on 
record. There is no physiological difference between a pilot 
flying cargo and pallets and passengers. There's no reason for 
the distinction.
    Senator Cantwell. So you think it should be reversed and 
they should be covered?
    Dr. Rosekind. They should all be covered with the same 
rules.
    Senator Cantwell. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Blumenthal.
    Senator Blumenthal. I have asked two sets of questions. So 
I will yield to you, Senator. And then if there is time 
remaining, I would be happy to follow up. Thank you.
    Senator Nelson. OK. Dr. Rosekind, first of all, I am 
absolutely delighted that you have been named for the position 
which has been vacant since, I believe, January of this year. 
That's about 11 and a half months. The organization, although 
with an Acting Administrator, has needed leadership at a time. 
And before I arrived, you have had some discussion of the 
Takata airbags. One of the things that as we bored in on Takata 
and on Honda was whether or not since there doesn't appear to 
be enough replacement parts, Honda would, in fact, provide a 
loaner or a rental car given the fact that people are driving 
around with a live grenade in their steering column. The Honda 
representative, the Vice President of Honda in the U.S. said, 
yes, they would. And, yet, I have yet to have evidence that, in 
fact, that is the case. So what would you like to do about it 
as Chairman?
    Dr. Rosekind. Thank you for the question. And I think there 
has been some discussion. This lets me to--gives me a chance to 
both elaborate and reinforce. In fact, I will just highlight. I 
don't talk about it often, about my father, but I come from a 
law enforcement family. And there are laws. You've got to 
follow them.
    And the second part that you are talking about is, well, if 
you don't have to go to recall because you have said you are 
going to do something, then you need to do it. And what I can 
do is basically commit that, if confirmed, I am going to go and 
find every tool authority, legal and otherwise, to get that job 
done.
    We did talk about this earlier. And it gives me a chance 
to--there has been a lot of focus on defect. If we don't get 
the recall 100 percent and fully done, people are still at 
risk. So I don't think it's, you know, my job to come up with 
all those solutions, especially right now, but there has to be 
a 100 percent solution to make sure those people are safe.
    Senator Nelson. There has been some discussion about an 
immediate fine on a per-day basis. I would suggest to you that 
the fine ought to be on a per-vehicle basis, that if they are 
not replacing the vehicles and people are at risk for either 
being maimed or killed, there needs to be a very stiff 
financial penalty so that the penalty becomes so severe to the 
company that it behooves them, in fact, to provide loaners or 
rental cars so that people do not have to try to drive around 
in these loaded vehicles or, in the alternative, where they try 
to disable the airbag in their existing vehicle.
    Now, the New York Times came out with a story that said 
that after the fact, after this committee had had a hearing, 
that, indeed, they admitted that they had never said publicly 
and released the information that an additional 1,700 people 
had been harmed by exploding Takata airbags. And I think in one 
case, one person was killed. This seems to me to be the height 
of irresponsibility, that in the midst of us having them all 
there at that table, they are still not revealing information. 
What do you intend to do about that as Chairman?
    Dr. Rosekind. Thank you for that question. And it gives me 
an opportunity to highlight again two things. One is 
transparency is critical, and that's getting information and 
making it available, not just to NHTSA and others but to the 
American public so they know what's going on and can make their 
own personal decisions about what is safe for them.
    The other is I believe that when NHTSA asks for 
information, it needs to be provided. There's no ``We don't 
have it,'' et cetera. It needs to be provided. And then every 
tool needs to be used to obtain that information.
    Senator Nelson. Are you sufficiently briefed on the law 
with regard to NHTSA as to what kind of penalties could be 
imposed for an auto manufacturer that specifically hides 
information from the Federal regulator?
    Dr. Rosekind. I appreciate that question because I have 
been briefed on some of those things. I'm not an expert on them 
yet. I have really tried to emphasize that I do know who the 
Chief Counsel is and who is in charge of the enforcement. And I 
know who to call to get that information. More important, I'm 
willing to commit to use every one of those and whatever 
enforcement action is needed. So I am all about the action 
part. I will find people that have those, the technical 
information, that I need. But it's basically give me the tool 
to get the job done. And that's all about keeping all of us 
safer.
    Senator Nelson. Well, I want to commit to you that at least 
some of us on this committee are going to be rather vigorous in 
our oversight function to make sure that the Executive Branch; 
i.e., you once you are confirmed, in fact, are following 
through because this egregious breach of the public safety by 
the way this thing has been drug out and these head fakes and 
sleights-of-hand and then not revealing information, it has 
reached the limit of this Senator's patience as I have visited 
with families whose relative is dead or in one case a 
firefighter that has no right eye anymore. And we will use to 
the full extent of our capability the opportunity to oversee 
that, in fact, you as the Chairman and your regulatory agency 
are doing your job. I hope that's clear.
    Dr. Rosekind. Absolutely. And I appreciate not only the 
statement and the opportunity to tell you that I will actually 
be looking forward to working with you on that oversight and 
pursuing both budget and other kinds of authorities that will 
help us get the job done.
    Senator Nelson. Senator Blumenthal, I am going to turn the 
Committee over to you----
    Senator Blumenthal. That is very dangerous.
    Senator Nelson.--because of this intelligence briefing that 
has just started 10 minutes ago.
    Senator Blumenthal. Thank you very much, Senator.
    Senator Nelson. Thank you.
    Senator Blumenthal [presiding]. I have a couple of quick 
questions. And I appreciate your patience and diligence in 
staying. And I want to express again my appreciation to each of 
you for your willingness to serve in these very critical 
positions.
    Ms. Dinh-Zarr, the recommendation of the National 
Transportation Safety Board was for there to be a fatigue 
management plan made a matter of rules by the Federal Railway 
Administration. That's 1 of more than 60, by my count 64, 
separate rulemaking procedures that have not been concluded by 
the Federal Railway Administration, vitally affecting the 
safety of passengers as well as freight on our nation's rails. 
What can be done to compel the Federal Railway Administration 
to obey the law? And I know that Dr. Rosekind may have some 
observations because of his present membership on the NTSB as 
to answer that question as well. And I invite Mr. Monje as well 
if you have thoughts about it.
    Dr. Dinh-Zarr. Thank you, Senator. As a safety 
professional, I absolutely share your concern about ensuring 
that safety recommendations are implemented as soon as 
possible. As you might have heard when I mentioned before, if I 
were to be--to have the honor of being confirmed, I would 
absolutely do everything in my power to work to make sure that 
these recommendations are taken seriously and are implemented. 
I think that the NTSB has a good and long history of working 
with Government agencies as well as with industry and I hope 
with this committee as well. And I think that if I were to be 
confirmed, I would absolutely use every manner that is 
available to me as a member to push for the adoption of that 
life-saving recommendation but also all of the other ones that 
are related to rail and other modes.
    Senator Blumenthal. Thank you.
    Any other responses?
    Mr. Monje. Thank you very much, Senator. I haven't worked 
on that particular rule, but Secretary Foxx has said that 
safety is everyone's primary responsibility at the department. 
And I know that from my vantage point, the relationship with 
NTSB is one of a partnership for safety. And often the 
recommendations, it is an iterative process to get to a 
solution. A lot of the recommendations are focused on 
individual incidents, where the solutions often rely in 
rulemakings that take a lot of time to develop, require and 
benefit from public involvement and that have to address the 
industry as a whole. So if I have the privilege of being 
confirmed, I will vow to you to work with you and with these 
two other nominees to make it as good as possible.
    Senator Blumenthal. I don't know whether the--I am more 
than happy to let you off the hook on this one, Dr. Rosekind. 
You have really been carrying a substantial burden during his 
hearing. But if you have a response, I would welcome it.
    Dr. Rosekind. And thank you for offering that because I 
will just say over 80 percent of NTSB recommendations are acted 
on in an acceptable manner. But I really thank you because it's 
the other 20 percent we should be worried about, and that is 
what you are highlighting because those are the ones that are 
continuing to cost lives and create injuries.
    Senator Blumenthal. Well, costing lives and creating 
injuries is exactly what the failure to issue those regulations 
can do. And we saw it at Spuyten Duyvil. We saw injuries in 
Bridgeport, Connecticut when there was a derailment there. Many 
of these recommendations are invisible or unknown to the 
public, but the failure to issue them can have real-life 
consequences, literally life or death consequences, certainly 
injury and dollar consequences. So I want to thank each of you 
and Secretary Foxx as well for your commitment on this issue of 
safety.
    And I want to ask one last question although it's outside 
of your jurisdiction. But the ignition switch defect has been 
raised. And we are fast approaching the December 31 deadline 
under the compensation fund, which also has a deadline of March 
of next year for acceptance by the victims or their families of 
any compensation fund decisions. These decisions must, 
therefore, be made before the bankruptcy court may decide what 
their rights are in overcoming the shield that GM has invoked, 
the new GM has invoked, in the bankruptcy court procedures and 
before the Department of Justice finishes its criminal 
investigation that might enlighten the decisions made as to 
whether to accept compensation fund decisions.
    One microcosm of the potential injustice that could be done 
by these deadlines is illustrated by the Averill family of 
Washington, Connecticut, who were unnotified, completely 
uninformed, by GM of their potential eligibility for the fund. 
Had it not been for a New York Times reporter, who dug into the 
deaths resulting from the ignition defect, they still would be 
in the dark. They have been informed now, and their plight 
illustrates, I think, the need to extend the December 31 
deadline and the March deadline.
    I know that you have no direct jurisdiction or power over 
the compensation fund, but my hope is that the Department of 
Transportation, and your agencies in particular, may join in 
calling for an extension of those deadlines in the interest of 
simple justice and humanity. You may not have the legal 
authority to compel it, but you certainly have the moral 
authority to ask for it publicly. And I believe that there is a 
responsibility to exercise that moral authority.
    If you have a comment on my suggestion or plea to you, I 
again would welcome it. I know it may not be a question that 
you anticipated, but I would respect and invite you to comment.
    Mr. Monje. Thank you, Senator. I haven't followed Ken 
Feinberg's process very closely, but I do understand that you 
have been tracking the tragedy of the Averill family. And I 
feel like they are lucky to have someone like you fighting for 
them. And the role of NHTSA in this process is to force GM as 
much as possible to get the best cars on the road to address 
these crises and to get better at identifying the recalls 
before they cause this kind of tragedy.
    Senator Blumenthal. Thank you very much. With that, I'm 
going to close the hearing. I don't have the gavel in front of 
me, but we are over. And thank you again. And thank you to your 
families for their service in supporting you and the vital work 
that I anticipate you will do.
    Thank you.
    [Whereupon, at 2:17 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Mark R. Rosekind
    Question 1. Last August, the National Highway Traffic Safety 
Administration (NHTSA) issued a Notice of Proposed Rulemaking (NPRM) 
for a Federal Motor Vehicle Safety Standard (FMVSS) on the structural 
integrity of motorcoach roofs and retention of side windows in the 
event of a rollover. Stakeholders have criticized this proposed FMVSS, 
because the proposed standard relies on tests that do not replicate 
real-world conditions. That is, NHTSA relied on a quarter-turn roll 
test and a weak window retention test. The proposed FMVSS addressing 
rollover motorcoach crashes will affect the safety of millions of 
riders for decades, and the standard must ensure the safety of 
passengers in real world crashes. If confirmed, can you pledge that 
NHTSA will utilize a more stringent test that replicates real world 
crash conditions to prevent passenger ejection, which is the leading 
cause of death among motorcoach passengers?
    Answer. The NTSB has investigated and issued recommendations 
related to motorcoach safety so it is an area of interest to me. 
Keeping people safe in all modes of transportation is critical and I 
pledge to make the best judgments to do this. If confirmed, I pledge to 
consider all relevant facts and public comments in the docket.

    Question 2. MAP-21 directs NHTSA to promulgate a FMVSS on anti-
ejection countermeasures for motorcoaches. If confirmed, will NHTSA use 
a more rigorous test for window retention and require the use of 
advanced or laminated window glazing as recommended by the National 
Transportation Safety Board?
    Answer. As stated in Answer to Question 1, I pledge to make the 
best judgments to keep people safe. If confirmed, I pledge to consider 
all relevant facts and public comments in the docket.

    Question 3. NHTSA has missed the statutory deadlines for completing 
the following motorcoach safety regulations and requirements from MAP-
21:

  <bullet> Roof strength/crush resistance (Sec. 32703(b)(1))

  <bullet> Anti-ejection countermeasures (Sec. 32703(b)(2))

  <bullet> Anti-ejection retrofit (Sec. 32703(e)), and

  <bullet> Rollover crash avoidance (Sec. 32703(b)(3)).

    If confirmed, can you pledge that NHTSA will complete these 
statutorily required rulemakings?
    Answer. If confirmed, I will commit to review all of the statutory 
requirements and congressional deadlines and evaluate what steps NHTSA 
can take to address the concerns you raise.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Mark R. Rosekind
Reaching to 100 percent repair rates
    Question 1. Mr. Rosekind, what do you think we need to do to ensure 
we get 100-percent repair rates for cars under safety recall? I know 
that is how well they do in Germany.
    Answer. If confirmed, my first focus will be to address the safety 
defect recall process. And that process cannot be fully effective 
unless the defect under the recall gets fixed. Notifying the owner of 
the recall is part of that process, but just as important is the 
manufacturers' responsibility for making sure the recalls get remedied 
in a timely manner. I can assure you that I will use all of the powers 
and authorities available to NHTSA to achieve this.

    Question 2. As a safety investigator, do you think that the best 
safety outcome is to require dealers and mechanics to check every 
single car coming in the door for open recalls?
    Answer. People need to know if there is a safety recall on their 
vehicle so that they can be safe and have their vehicle repaired as 
quickly as possible. This process should be as seamless as possible, 
and as such, dealers and mechanics should absolutely be checking 
people's VIN numbers each and every time that a vehicle is brought in 
for service.
Resources at NHTSA
    Question 3. Cars are only getting more complex, with millions of 
lines of code, and advanced technologies. This is an industry that is 
evolving quickly. And with evolution comes challenges that arise as 
new, different products come on line. Can fifty-one investigators 
across the country really investigate possible defect trends and recall 
equipment that poses a threat in a reasonable amount of time? Or are 
they completely outmatched by the challenge? Give us your perspective 
as a NTSB investigator.
    So, my question to you is, as head of NHTSA, will you request more 
funding for the Safety Defects Investigation program? Or is staff for 
that program not one of the answers?
    Answer. I was surprised to learn that there are only nine people at 
NHTSA reviewing the thousands of complaints that they receive each year 
and that they look at every single one of them as they work to identify 
possible safety defects. If confirmed, I plan to take a hard look at 
the question of what resources are needed for all of NHTSA's important 
safety programs, including its Office of Defects Investigation. And the 
work NHTSA does searching for trends and safety defects doesn't only 
depend on the number of people at the agency. It also depends on 
technology and robust data systems that are available to it. If 
confirmed, I plan to look to every available system that could 
potentially be used to improve on the process of identifying trends and 
safety defects.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Dr. Mark R. Rosekind
    Question 1. The Energy Independence and Security Act directed NHTSA 
to promulgate a national tire fuel efficiency rating system for 
replacement tires. It required, among other things, the development of 
a national tire maintenance consumer education program. NHTSA has 
issued tire fuel efficiency rating system regulations, but those 
regulations did not include any requirements for the consumer 
information program. If you are confirmed, will you commit to working 
to issue regulations to implement this program?
    Answer. As a nominee I do not have the full details on this issue. 
However, if confirmed, I commit to ensuring that NHTSA stays on track 
in its consumer protection and information programs.

    Question 2. The Tire Pressure Monitoring System provisions in the 
TREAD Act were added by me during House consideration of that bill. 
NHTSA's implementation of the TPMS provisions (FMVSS No. 138 is the 
implementing rule for the TPMS provision in TREAD) has been the subject 
of litigation and a court decision that the rule was arbitrary and 
capricious under the Administrative Procedures Act. Of particular 
concern in these court cases was the manner in which the rule addressed 
indirect TPMS technology. On October 31, Mazda recalled approximately 
100,000 vehicles as their TPMS systems were found to be noncompliant 
with FMVSS No. 138. Given that NHTSA's test procedure for FMVSS No. 138 
(TP 138-03) was unable to detect the failure mode responsible for this 
recall, if you are confirmed, will you work to ensure that NHTSA (a) 
considers a modification to the test procedures to ensure that it can 
detect this failure mode in the future, (b) tests other indirect TPMS 
technologies used in other vehicles to determine whether NHTSA's test 
procedures can accurately detect any failure modes in these 
technologies?
    Answer. As a nominee I do not have the full details on the 
particular case you reference. However, I agree with you regarding the 
benefits of TPMS. Maintaining proper tire pressure is important to 
vehicle safety. Tire under inflation can lead to a number of safety 
hazards, such as skidding and/or loss of control of the vehicle, 
hydroplaning, increases in stopping distance, flat tires and blowouts, 
and overloading of the vehicle. It is my understanding that all light 
vehicles have been required to have TPMS beginning on September 1, 
2007, to inform drivers when their tires are significantly 
underinflated. As with any Federal Motor Vehicle Safety Standard, non-
compliance with the standard would lead to an increase in the safety 
risk that the standard was designed to prevent. Thus, if confirmed, you 
have my commitment that I will take a close look at this issue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Dr. Mark R. Rosekind
    Question 1. In response to my question to you at the hearing about 
what specific actions you would take to restore the public's trust in 
the National Highway Traffic Safety Administration (NHTSA), you 
responded that you would apply the three guiding principles of the 
National Transportation Safety Board (NTSB)--namely, ``independence, 
transparency, and accuracy''--to your work at NHTSA. If confirmed, what 
are some of the specific steps will you take in the first 100 days to 
implement those three principles?
    Answer. Independence, transparency, and accuracy represent guiding 
principles that require parallel practices to ensure they translate 
into enhanced safety. Eventually, these principles and practices have 
the greatest effect when they become part of an organization's safety 
culture. If confirmed, I plan to apply these principles when looking at 
NHTSA's recall process, defect identification-recall system, core 
safety programs, and innovations in technology. The objective would be 
to identify specific actions that could enhance safety in each of these 
areas with a focus on reinforcing independence, increasing 
transparency, and ensuring accuracy. All of these would be approached 
and balanced in the context of timely and decisive actions.

    Question 2. The Department of Transportation (DOT) Office of 
Inspector General (OIG) is currently reviewing NHTSA's handling of the 
GM ignition switch recall. As set forth by the Inspector General Act, 
the OIG has autonomy to complete its work without interference. Will 
you commit to maintaining this autonomy and to providing complete and 
timely access to information or personnel for the OIG to complete its 
audits and investigations?
    Answer. Yes, you have my assurance that I will do so. The NTSB 
conducts independent investigations and so I appreciate that the 
independent role of the OIG is an important function of government.

    Question 2a. Will you also commit to keeping this Committee updated 
on the steps NHTSA is taking to implement all OIG recommendations?
    Answer. Yes, I look forward to keeping the Committee updated and 
working with Congress on these and other efforts to improve the safety 
of the traveling public.

    Question 3. You have an impressive background as a specialist on 
human fatigue. Your doctorate is in psychology. As a Member of the 
NTSB, you have a staff of two, but if confirmed you will lead a staff 
of nearly 600 people. How does your experience and expertise translate 
to leading NHTSA, an agency that, according to some critics, is slow to 
identify problems, and has failed to connect the dots on auto defects 
like the faulty ignition switches on certain GM vehicles?
    Answer. As a scientist, I will apply an analytical, data-driven 
approach to examining these issues. My NASA experience in a variety of 
human factors arenas, such as human-machine interaction and translating 
science into effective solutions to address operational problems in 
safety-critical environments, is directly relevant, in concert with my 
private sector experience developing innovative solutions for complex, 
challenging, real-world safety problems. All of my experience and 
expertise are applicable to the issues currently confronting NHTSA, and 
I will bring a fresh set of eyes to leading the agency, taking action, 
and connecting the dots.

    Question 3a. Won't you have a steep learning curve with respect to 
the management of a large workforce at a time when NHTSA needs strong 
leadership at the helm immediately?
    Answer. I will bring strong leadership to the helm of NHTSA 
immediately and, where needed, leverage the agency's existing talent to 
address workforce management issues.
    Over the course of my career, I have been in many leadership roles 
including: Chief of the Aviation Operations Branch in the Flight 
Management and Human Factors Division at NASA Ames Research Center and 
Team Leader of the Fatigue Countermeasures Program in the Aviation 
Safety Research Branch at NASA Ames Research Center. While at NASA, I 
created and led multiple international coalitions conducting research, 
addressing policies, and collaborating on projects. As an NTSB Board 
Member, my advocacy efforts have included leading the creation of a 
national stakeholder coalition to address substance-impaired driving.

    Question 4. Last month, I introduced a bill along with Senator 
Nelson, and cosponsored by Senators Heller, McCaskill, Ayotte, and 
Klobuchar, that would incentivize individuals who uncover serious 
allegations of vehicle defects or noncompliance with motor safety laws 
to blow the whistle and provide original information to government 
regulators. Under my bill, if such information leads to an enforcement 
action with more than $1 million in monetary sanctions, the 
whistleblower may receive up to 30 percent of the total penalties 
collected. Is this a concept you could support?
    Answer. Every voice counts when it comes to identifying defects 
that put the traveling public at risk. Where appropriate, individuals 
may need protection, incentives, or other accommodations to ensure they 
are willing to raise their voice on behalf of safety.

    Question 4a. Will you commit to reviewing this bill and offering 
your input to me and my staff within 30 days of your confirmation?
    Answer. If confirmed, I will commit to an expeditious review of 
this bill and providing my recommendations to you and your staff as 
soon as possible.

    Question 5. The Obama Administration wants to increase fuel economy 
for cars and light-duty trucks to an average of 54.5 mpg by model year 
2025. While automakers can focus on engine efficiency and electric 
vehicles, a new survey by WardsAuto reported that automakers have 
shifted their top focus to so-called ``lightweighting'' and the use of 
lightweight structural materials as new products are designed to meet 
the tougher fuel economy rules. If confirmed, how do you plan to work 
with the EPA going forward on CAFE issues? And how will you work with 
automakers to ensure that the passenger protection of vehicles is not 
compromised as manufacturers focus on lightweighting their vehicles 
going forward?
    Answer. I am aware that EPA and NHTSA have been working jointly on 
CAFE standards. Achieving increased fuel economy for cars and light-
duty trucks is very important, and if confirmed, I plan to continue to 
work closely with the EPA. Manufacturers have a variety of tools to 
achieve higher standards, and as a safety agency, I believe it is 
important to ensure that whatever tools are used to meet CAFE standards 
do not compromise vehicle safety.

    Question 6. Ethanol continues to be an important fuel for the 
Nation and for the state of South Dakota. If confirmed, will you commit 
to working with the Environmental Protection Agency and Congress to 
ensure that automakers continue to receive just credit for the 
production of ethanol flex fuel vehicles?
    Answer. I think it is important to explore all available avenues as 
we seek to increase fuel economy, and I will look at all possible ways 
to do that.

    Question 7. On December 2, 2014, Takata sent a letter to NHTSA 
stating that NHTSA's demand for a nationwide recall isn't supported by 
the evidence, and that NHTSA does not have the authority to order a 
parts maker to do a recall. How do you respond to Takata's claim that 
NHTSA does not have the authority to order a parts maker to conduct a 
recall? Does NHTSA need additional authority in your view, or does 
NHTSA have the requisite authority it needs for such a recall?
    Answer. If confirmed I will take a close look at NHTSA's current 
authorities, but I can assure you that I will use all the tools and 
authorities at NHTSA's disposal to aggressively protect the public from 
safety defects.

    Question 8. In 2011, the NTSB recommended a nationwide ban on 
driver use of portable electronic devices, whether used hands-free or 
handheld. Do you still agree with this recommendation? Why or why not? 
If so, do you think this ban should extend to in-dash systems that are 
designed for drivers?
    Answer. In 2002, five lives were lost and one person injured in a 
crash due to a driver's distraction ``. . . caused by the use of a 
handheld wireless telephone.'' That NTSB investigation included 
recommendations related to education, research, and novice drivers. 
Over the past 12 years, the NTSB has identified distraction as causal 
or contributory to accidents in which lives were lost and people 
injured in all modes of transportation. In 2010, two individuals lost 
their lives, including a student in a school bus, and 37 others were 
injured in a crash in which the NTSB determined: ``. . . that the 
probable cause of the initial Gray Summit collision was distraction, 
likely due to a text messaging conversation being conducted by the GMC 
pickup driver, . . .'' The NTSB recommendations included: ``Ban the 
nonemergency use of portable electronic devices, other than those 
designed to support the driving task, for all drivers.'' The Board 
voted unanimously in support of the recommendations and that included 
my vote. Distraction is a known and established safety risk that has 
cost lives and caused injuries in all modes of transportation.
    At the NTSB, safety recommendations can be based on individual 
crash investigations. At NHTSA, the decision-making process about what 
safety actions to pursue involves consideration of a much broader array 
of factors including safety concerns, diverse research findings, crash 
investigations, practical implementation, public acceptance, 
enforcement issues, cost/benefit analysis, educational strategies, and 
others. If confirmed as NHTSA Administrator, I would be approaching all 
safety issues, including distraction, from this broader context than 
individual crash investigations.
    In-dash systems have the potential to provide safety benefits by 
using human-
machine interaction design principles that support the driving task and 
acknowledge potential distraction risks. NHTSA has specifically 
supported the safety potential and innovation of these systems by 
creating Phase I guidelines to address this opportunity.

    Question 9. Do you interpret NHTSA's jurisdiction as including 
general use mobile devices like smartphones? If so, on what legal 
basis? Do you think NHTSA should exercise that regulatory authority?
    Answer. If confirmed, I am committed to focusing on all of the 
safety issues NHTSA is working on to reduce death and injury on our 
Nation's roads. Distracted driving is a huge safety concern and a 
challenging issue because of the many human behavior factors involved. 
It will require multiple approaches to address it, similar to efforts 
with seat belts and alcohol-impaired driving. With the increased 
presence of technologies in our lives and in our vehicles, it makes 
sense to look at ways to reduce their contribution to driver 
distraction while ensuring industry can continue to provide innovations 
to consumers. This includes educating drivers about the risks, working 
with states to enact distracted driving laws, and looking to technical 
innovations for solutions. My understanding is that NHTSA does not 
intend to regulate in this area, but rather intends to provide 
guidelines with regard to the human-machine interfaces for products 
that link to motor vehicles in order to reduce distraction. If 
confirmed, I will give serious consideration to the issues you raise.

    Question 10. Do you agree that speech-based interfaces designed for 
drivers have significant potential to allow drivers to interact with 
mobile devices more safely?
    Answer. Technology offers tremendous safety benefits. To be most 
effective, technology design and use should involve understanding the 
known safety risks and exploring innovative enhancements that drive 
safety forward. Speech-based interfaces are one example of how 
technology has the potential to improve safety. I am excited about 
technological solutions that have the potential to reduce distraction 
and improve safety for the motoring public. I understand that NHTSA is 
investigating this technology and if confirmed, I will work to ensure 
that NHTSA stays current on these technological developments and their 
safety potential.

    Question 11. What are your thoughts about some of the ways that 
Congress, NHTSA and auto manufacturers can help facilitate safer 
automobiles via active safety systems (e.g., using radar and camera 
systems) that can save lives and reduce costs for drivers by lower 
insurance rates?
    Answer. Coming from Silicon Valley and having worked at NASA, I am 
a strong believer in leveraging technology to improve safety. I 
absolutely agree that it is important to stay ahead of the curve of 
evolving technology, and if confirmed, I will actively pursue this. I 
am excited about the possibilities that are on the horizon as 
technologies are evolving to make vehicles safer.

    Question 12. The Commerce Committee recently heard testimony from 
Air Force Lieutenant Stephanie Erdman, one of the victims who was 
injured by shrapnel from a defective Takata airbag. Lt. Erdman 
testified that she took her vehicle, a 2002 Honda Civic, to a 
dealership three times after Honda had received the recall notice for 
her car, and that neither the company nor its dealer informed her of 
the pending recall. Moreover, the Honda dealership never performed a 
recall repair on Lt. Erdman's vehicle, nor did it warn her about the 
danger she faced if the airbag deployed. Is there more that Congress or 
NHTSA can do to ensure that certified repair facilities or dealerships 
provide notice and perform repairs for active recalls when vehicles are 
brought in for service?
    Answer. It is unacceptable to me that neither Honda, nor the 
dealer, informed Lt. Erdman of her vehicle defect, which resulted in 
this tragedy that could have, and should have, been avoided. People 
need to be informed so that they can take actions to stay safe. Every 
recalled vehicle should be remedied quickly by manufacturers. If 
confirmed, you can count on my commitment to use every possible legal 
mechanism available to hold manufacturers accountable for the safety of 
their vehicles. I would be pleased to work with the Committee on the 
resources NHTSA needs to accomplish its safety mission.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Dr. Mark R. Rosekind
    Question 1. Mr. Rosekind, do you believe that the recent regional, 
then national Takata airbag recall, has been handled appropriately by 
NHTSA? If you had been the Administrator issuing these recalls, would 
you have handled it differently?
    Answer. I believe one of NHTSA's greatest strengths is the agency's 
data-driven approach. However, even when there are no data, there may 
still be a safety concern or defect. Therefore, other information 
sources, common sense, and alternate decision options need to drive 
actions in the absence of data. If confirmed, my approach would be to 
focus on the safety of the entire nation--with the exceptions justified 
by data--and to take every possible step to provide the public with the 
latest, most accurate information and hold manufacturers accountable to 
remedy in full any identified safety defect.

    Question 2. If you are confirmed for the position, will you commit 
to ensuring that when evaluating a recall, the safety of a passenger is 
the greatest priority no matter the cost that may be affiliated with a 
passenger's safety?
    Answer. Throughout my professional career, my primary focus has 
been safety. Most recently, my safety focus has been on enhancing the 
safety of the traveling public as a Board Member of the National 
Transportation Safety Board. It is my greatest priority, and it will 
continue to be so, if confirmed, as NHTSA Administrator. The value of 
just one life and the human costs borne by just one catastrophic injury 
cannot be weighed against anything less than the complete and total 
commitment by government and industry to protect every driver on the 
Nation's roads.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Dr. Mark R. Rosekind
    Question 1. Do you interpret NHTSA's jurisdiction as including 
general use mobile devices like smartphones? If so, on what legal basis 
and do you think NHTSA should exercise that regulatory authority?
    Answer. The rapid adoption of technology in motor vehicles brings 
with it many new issues including regulatory issues, cybersecurity 
related issues and driver distraction issues. These issues will only 
grow as vehicles adopt more technology as we move toward ever more 
automated vehicles. I commit to looking carefully at these questions 
should I be confirmed.

    Question 2. In September, then NHTSA Deputy Administrator, David 
Friedman, informed the Senate Commerce Committee that the agency had 
the authority to regulate smartphones as ``motor vehicle equipment'' to 
address driver distraction, despite the fact that Congress never vested 
such authority with the agency. The statement also ignored that 44 
state legislatures have outlawed texting while driving and companies 
are quickly launching voice-powered technologies for drivers, so they 
can pair and stow their phones while driving. How will you ensure that 
the agency refocuses on its legislative mandate to address automotive 
safety issues and major recalls instead of attempting to regulate how 
our cell phones work?
    Answer. If confirmed, I am committed to focusing on all of the 
safety issues NHTSA is working on to reduce death and injury on our 
Nation's roads. Distracted driving is a huge safety concern and a 
challenging issue because of the many human behavior factors involved. 
It will require multiple approaches to address it, similar to efforts 
with seat belts and alcohol-impaired driving. With the increased 
presence of technologies in our lives and in our vehicles, it makes 
sense to look at ways to reduce their contribution to driver 
distraction. This includes educating drivers about the risks, working 
with states to enact distracted driving laws, and looking to technical 
innovations for solutions. My understanding is that NHTSA does not 
intend to regulate in this area but rather intends to provide 
guidelines with regard to the human-machine interfaces for products 
that link to motor vehicles in order to reduce distraction. If 
confirmed, I will give serious consideration to the issues you raise.

    Question 3. Will NHTSA engage with Congress before issuing any new 
guidelines or regulations related to mobile technologies? Will you 
consult with Members of Congress on the relevant congressional 
committees prior to publishing any new announcements on this issue in 
the Federal Register? If yes, how do you plan to consult with Congress?
    Answer. I am absolutely committed to consulting with Congress on 
all of the safety issues NHTSA addresses. I am aware that NHTSA has 
held public meetings on this issue and has presented before Congress 
many aspects of its distraction program. It is my understanding that 
NHTSA's stated position is that it only plans to provide guidance and 
not to regulate handheld devices used in motor vehicles.

    Question 4. Phase 1 of NHTSA's distracted driving guidelines was 
incredibly long and prescriptive, making recommendations on issues like 
the number or characters that should be readable while driving, for 
example. With the rapid development of smartphones and apps, how would 
the agency keep up with such an innovative industry without applying 
vague guidelines that would inhibit innovation or lead to expensive 
liability risks for American job creators?
    Answer. I believe it is important for NHTSA to keep ahead of 
technological developments so that its guidance remains current and 
relevant. If confirmed, I can assure you that I will pay close 
attention to technological developments as they impact traffic safety.

    Question 5. NHTSA has argued that it intends to develop driver 
distraction guidelines that are voluntary and nonbinding. Please 
explain in specific detail what ``voluntary, nonbinding guidance'' 
means and how innovative businesses can be assured Phase 2 guidelines 
will not have any similar effect, intended or not, to a rule or 
regulation.
    Answer. At this point, as a nominee, I cannot speak to NHTSA's 
specific position or plans on this but if confirmed, I can assure you 
that I will look at this closely.

    Question 6. The American public clearly wants NHTSA to focus its 
resources and efforts on addressing some of the troubling developments 
with vehicle recall issues. Can you commit to addressing these major 
recall issues before the agency in an effective manner prior to 
continuing any further development on Phase 2 guidance?
    Answer. All safety issues are important to the American public and 
to me. If confirmed, I would want to give attention to everything that 
has the potential to help NHTSA reduce death and injury on our Nation's 
roads.

    Question 7. In 2011, the NTSB recommended a nationwide ban on 
driver use of portable electronic devices, whether used hands-free or 
handheld. Do you still agree with this recommendation? Why or why not? 
If so, do you think this ban should extend to in-dash systems that are 
designed for drivers like Apple's CarPlay?
    Answer. In 2002, five lives were lost and one person injured in a 
crash due to a driver's distraction ``. . . caused by the use of a 
handheld wireless telephone.'' That NTSB investigation included 
recommendations related to education, research, and novice drivers. 
Over the past 12 years, the NTSB has identified distraction as causal 
or contributory to accidents in which lives were lost and people 
injured in all modes of transportation. In 2010, two individuals lost 
their lives, including a student in a school bus, and 37 others were 
injured in a crash in which the NTSB determined: ``. . . that the 
probable cause of the initial Gray Summit collision was distraction, 
likely due to a text messaging conversation being conducted by the GMC 
pickup driver, . . .'' The NTSB recommendations included: ``Ban the 
nonemergency use of portable electronic devices, other than those 
designed to support the driving task, for all drivers.'' The Board 
voted unanimously in support of the recommendations and that included 
my vote. Distraction is a known and established safety risk that has 
cost lives and caused injuries in all modes of transportation.
    In-dash systems have the potential to provide safety benefits by 
using human-machine interaction design principles that support the 
driving task and acknowledge potential distraction risks. NHTSA has 
specifically supported the safety potential and innovation of these 
systems by creating Phase I guidelines to address this opportunity.

    Question 8. Do you agree that speech-based interfaces designed for 
drivers have significant potential to allow drivers to interact with 
mobile devices more safely?
    Answer. Technology offers tremendous safety benefits. To be most 
effective, technology design and use should involve understanding the 
known safety risks and exploring innovative enhancements that drive 
safety forward. Speech-based interfaces are one example of how 
technology has the potential to improve safety. I am excited about 
technological solutions that have the potential to reduce distraction 
and improve safety for the motoring public. I understand that NHTSA is 
investigating this technology and if confirmed, I will work to ensure 
that NHTSA stays current on these technological developments and their 
safety potential.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Carlos A. Monje, Jr.
    Question 1. Mr. Monje, what specific recommendations made by the 
National Freight Advisory Committee do you think can be adopted by the 
Administration under existing statutory authorities?
    Answer. In June 2014, NFAC members submitted 81 recommendations to 
Secretary Foxx for the Department to consider during development of the 
National Freight Strategic Plan on topics ranging from improving 
project delivery to increasing funding for multimodal freight projects 
to boosting freight research and implementation of technology to make 
goods movement safer and more efficient
    Each of the 81 recommendations was unique and addressed specific 
concerns regarding freight movement. However, broad themes emerged on 
safety and security; streamlining; harmonization of freight policy and 
programs across modes; improving freight data, research and education; 
and implement technology--all areas the Department is considering as we 
write the National Freight Strategic Plan.
    Already, as NFAC reminded us, the Department is looking at freight 
movement multimodally. Just as shippers tell us that do not care what 
mode their travels on so long as it gets there on time and at a low 
cost, we are seeking freight policies in the Freight Conditions and 
Performance Report and the National Freight Strategic Plan that cover 
all modes on which freight moves.
    We are also increasing the Department's effort to collect 
meaningful freight data. The freight Conditions and Performance Report 
which will be coming out soon explores national freight data gaps and 
opportunities to collect data to better plan and address challenges of 
the freight system.
    The NFAC also sent an important signal that addressing freight 
workforce needs is critical to the efficient movement of freight. The 
Department is engaged in an ongoing study with the Departments of Labor 
and Education to quantify workforce gaps. The data show huge 
transportation workforce needs (4.2 million jobs) over the next decade, 
a majority of which are in logistics related industries and exploring 
opportunities to help address this gap.

    Question 2. Are there things that the NFAC recommended that you 
think got left out of the GROW AMERICA policy proposal but should be 
considered by us in Congress as we look to a surface transportation 
authorization bill next year?
    Answer. Many of the NFAC recommendations addressed the need for 
increased funding for freight projects and environmental streamlining 
along the lines of what the Administration included in the GROW AMERICA 
proposal. As we continue to promote and develop freight policies, I 
urge you to consider the NFAC's attention to the unique challenges of 
first and last mile connectors, especially in urban areas, in the 
overall freight system.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Carlos A. Monje, Jr.
    Question. The Administration has proposed a transition to a 
``Transportation Trust Fund,'' rather than the current Highway Trust 
Fund. In an era of limited funding, how do you propose to manage the 
competing funding demands of different modes without placing or 
shifting the burden for funding one mode onto another?
    Answer. The GROW AMERICA Act is a $302 billion, four-year 
transportation reauthorization proposal that provides increased and 
stable funding for our Nation's highways, bridges, transit and rail 
systems. Much like the highway trust fund today, which contains 
separate accounts for highways and transit, the transportation trust 
fund proposed in the GROW AMERICA Act would have separate accounts that 
provide funding for highways, transit, and rail, as well as a new 
multimodal account. State and local governments have made it clear that 
the budgetary certainty provided by long-term trust fund authorization 
is an absolutely critical element to being able to plan and make the 
transformational investments necessary to grow our economy.
    The Administration's proposal is funded by supplementing current 
revenues with $150 billion in one-time transition revenue from pro-
growth business tax reform. This will prevent Trust Fund insolvency for 
four years and avoid placing the burden of funding one mode onto 
another while increasing investments to meet national economic goals.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Carlos A. Monje, Jr.
    Question 1. A priority for DOT should be encouraging private sector 
initiatives and projects for all modes of transportation. With funding 
issues facing transportation projects, the private sector must play a 
role in meeting our transportation challenges, and DOT will need to 
encourage public-private partnerships and private sector investment.
    In your current role as Counselor to the Secretary at DOT, can you 
tell me how you have advised the Secretary to encourage private sector 
investments and partnerships with the Federal Government to advance 
transportation projects in the United States?
    Answer. The Secretary and the President are committed to improving 
and increasing the number of opportunities for public and private 
sector collaboration in transportation infrastructure. The Build 
America Investment Initiative, established in July of this year, is 
focused directly on increasing private sector investment into our 
Nation's infrastructure. At the Department of Transportation, I have 
supported the development of the Build America Transportation 
Investment Center, a one-stop shop for state and local governments, 
public and private developers and investors seeking to utilize 
innovative financing strategies for transportation infrastructure 
projects, especially public-private partnerships.
    I have also played a significant role in the TIGER Discretionary 
Grant program, which has remained one of our most powerful tools in 
attracting private sector funding into transportation projects. Through 
TIGER, we have incentivized state and local project sponsors to seek 
out private match funding as a means of making their projects more 
competitive in our merit based selection process. Before coming to 
USDOT, I served in the Office of Social Innovation at the White House, 
which has the mission of developing stronger relationships with the 
private sector.

    Question 1a. If confirmed, will you continue to look for ways the 
private sector can partner with the Federal Government to meet our 
transportation challenges?
    Answer. Yes. While I believe there is no substitute for adequate 
Federal funding for the transportation system, I share the Secretary's 
view that innovative financing and public private-partnerships (P3s) 
represent a great opportunity for state and local governments to 
improve the way they deliver large, complex, transportation projects.

    Question 2. Currently, the structure of the Highway Trust Fund is 
unsustainable with major shortfalls in our ability to pay for the 
improvements that our transportation system desperately needs. Yet, 
proposals in Congress to address the issue have been nothing more than 
gimmicks that don't resolve the long term issue.
    With continued shortfalls in the Highway Trust Fund, what should be 
the appropriate Federal role in transportation policy? Is there an 
opportunity for some of our states to better manage and prioritize 
funding that is currently being collected for the Highway Trust Fund?
    Answer. Receipts into the Federal Highway Trust Fund comes from a 
variety of taxes on highway fuel, tires, heavy vehicle use tax, truck/
trailer sales taxes. The motor fuel excise tax, currently 18.4 cents 
per gallon for gasoline/gasohol, and 24.4 cents for special fuel 
(primarily diesel) raises the majority of the revenue. This revenue is 
then placed into the Highway Trust fund by the U.S. Treasury 
Department, after collection by the Internal Revenue Service. These 
funds are then distributed to the states based on formulas provided in 
Federal legislation.
    On a monthly basis, each state is required to report to the 
Department's Federal Highway Administration (FHWA), the amount of 
gallons taxed by that state. This data is analyzed and compiled by FHWA 
staff. The data on the amount of on-highway fuel use for each state is 
then used to attribute Federal revenue to each state.
    The reason for the Highway Trust Fund shortfall is simple--not 
enough revenue is coming into the fund to support the ongoing work 
necessary to maintain our roads, bridges, highways, and transit system.
    The Highway Trust Fund shortfall matter is of great concern to all 
of us who are engaged in the work of building our Nation's 
infrastructure, particularly because the Highway Trust Fund supplies a 
significant portion of the funds that each state depends upon for 
critical infrastructure repairs and new construction. We understand the 
difficulties that each state faces in trying to plan construction work, 
significant infrastructure projects, and even state of good repair 
work, without a clear sense of how--or even whether--that work will be 
funded.
    Congress has for decades funded highway infrastructure and safety, 
transit, and aviation programs through multi-year authorizations that 
provide guaranteed funding; this enables states, local governments, 
private industry, and other stakeholders to plan and make large-scale 
infrastructure investments on a year-to-year basis. This type of 
predicable, dedicated funding is critical to providing stakeholders 
with the certainty they have long required to effectively plan and 
execute projects that will improve transportation infrastructure, allow 
regions and states to achieve their long-term visions for rail 
transportation, and to support economic growth across the country.
    President Obama spoke publicly about shortfall threats and called 
upon Congress to significantly increase investments in transportation 
so that agencies can continue to address the many road, rail and 
transit needs in the states. The passage of the GROW AMERICA Act would 
address the major funding shortfalls in the short term. We support 
closing corporate tax loopholes, as well as a repatriation tax holiday 
and other tax reforms to finance the four-year $302 billion 
transportation bill proposal.
    If confirmed, I commit to working with Congress to pass a long term 
agreement on surface transportation funding on a bipartisan basis.

    Question 3. The U.S. Government Accountability Office (GAO) 
released a report in May that found DOT did not document key decisions 
made in evaluating grant applications and selecting projects during the 
fifth round (FY 2013) of the TIGER grant program. While DOT has 
selection criteria for the TIGER grant program, it has awarded grants 
to lower-ranked projects while bypassing higher-ranked projects, 
accepted applications received after the published deadline, and 
changed technical ratings of lower rated projects selected for funding 
to the highest technical rating category without explaining why it did 
so, raising questions about the integrity of the selection process. In 
response, DOT revised its application evaluation guidelines for the 
2014 funding round to require additional documentation. However, GAO 
points out that the revised guidelines do not specify who may request 
the advancement of a lower-rated project and at what point in the 
process those decisions can occur.
    If confirmed, will you commit to ensuring the utmost transparency 
in the selection process for TIGER projects and DOT cooperation with 
the GAO's recommendations?
    Answer. Yes. The Department of Transportation has taken extensive 
measures to ensure that projects receiving funding from the TIGER 
discretionary grant program are fairly and competitively evaluated, and 
selected to provide the Nation with useful transportation benefits in 
accordance with statutory requirements. In the most recent round of 
TIGER, the Department implemented programmatic improvements to the 
evaluation and selection process consistent with GAO recommendations, 
including but not limited to more streamlined input from the relevant 
Operating Administrations, clarification of the late application 
policy, and an overall improvement of process documentation. However, 
there is always room for improvement. If confirmed, I will be committed 
to ensuring transparency in the TIGER evaluation and selection process.

    Question 4. NASA and DOT--If confirmed, will you work with NASA and 
the commercial industry, and ensure that DOT is fostering innovation 
and encouraging the development of cost-effective, commercial 
spaceflight capabilities?
    Answer. Yes. As the Assistant Secretary for Transportation Policy, 
I will support the Secretary of Transportation and FAA in overseeing 
commercial space transportation operations, in the interest of 
protecting public health and safety, safety of property, and national 
security and foreign policy interests of the United States; and, to 
facilitate the strengthening and expansion of the United States space 
transportation infrastructure. The President's National Space Policy of 
2010 and the National Space Transportation Policy of 2013 emphasizes 
the importance of DOT (FAA) and NASA coordination, and I will ensure 
that DOT supports these policies and is committed to encouraging and 
facilitating the growth of the U.S. commercial space sector.

    Question 5. In July 2013, several changes to the truck driver hours 
of service (HOS) regulations promulgated by the Federal Motor Carrier 
Safety Administration (FMCSA) went into effect, including revisions to 
the ``restart'' provisions. Under the prior restart rule, a driver 
could reset his/her weekly on-duty clock to zero following completion 
of 34-consecutive hours off-duty. Under the new regulations, however, 
the restart period must be at least 34-consecutive hours off-duty, must 
include two consecutive nights (1-5 a.m.), and may only be used once 
per week.
    Do you support the current hours of service regulations as the 
appropriate policy at DOT? How have DOT's policies under the hours of 
service regulations considered concerns from the short haul trucking 
industry that often moves perishable goods in the morning hours?
    Answer. The Department strongly supports the new restart regulation 
that went into effect in 2013. For a vast majority of drivers, a 
restart is not mandatory; it is simply an option for drivers who reach 
their 60- or 70-hour limit in a short time. The Federal Motor Carrier 
Safety Administration believes that short-haul (local delivery) drivers 
rarely need to restart their 60- or 70-hour limit because they are on 
duty fewer hours per day and per week than long-haul (over-the-road) 
drivers, operate on a daily schedule governed by the needs of their 
customers, and return to their home terminal every day. As a result, 
they do not accumulate on-duty hours so rapidly that a restart would be 
needed. Under these circumstances, short-haul drivers can drive every 
night without a restart and without going off-duty between 1:00 and 
5:00 a.m.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                        Dr. Tho Bella Dinh-Zarr
    Question. One of the challenges we see in crash investigations is 
that witnesses are sometimes unwilling to provide complete information 
to investigators for fear of civil or criminal litigation. How can the 
NTSB protect the integrity of investigations and ensure it has the best 
information in light of the criminalization of accidents?
    Answer. The foundation for any effective investigation is the 
ability to gather all factual material available to conduct thorough 
analysis, determine probable cause, and identify ways to prevent 
similar occurrences in the future. When involved parties fear civil or 
criminal litigation, it can hamper investigators' ability to gather 
essential information and can affect the integrity of a safety 
investigation.
    The NTSB's status as an independent agency ensures the integrity of 
its investigations. Its statutory authority precludes it from 
investigating alleged criminal activity, and it does not have 
regulatory or enforcement authority in any transportation mode. A 
hallmark of NTSB investigations is the sharing of factual information 
in each accident investigation between NTSB investigators and 
designated parties with technical expertise. This standard practice 
helps ensure that critical information is provided to those who require 
it during the course of an investigation.
    Also, the NTSB strives to ensure the highest level of transparency 
in all its investigations. By providing a single voice and sharing real 
time factual information, outside parties can be assured that the 
agency's focus is purely on safety.
    While the threat of criminal penalty may always be present, the 
NTSB's safety focus, transparency, and investigative process are 
effective in countering most negative impacts associated with 
criminalization, and if confirmed, I will work to ensure that this 
continues.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                        Dr. Tho Bella Dinh-Zarr
    Question. One of the responsibilities you would have under the 
position which you have been nominated for would be to advocate for 
improvements in transportation safety. What are your priorities 
specifically for improvements to transportation safety on our highways 
and in our air space?
    Answer. If confirmed, one of my top priorities would be to use data 
to determine more ways to prevent crashes and accidents. For example, 
the NTSB has investigated several accidents in which impairment played 
a role--impairment not only from substances but also from fatigue, 
distraction and other causes. Enhancing the NTSB's ability to collect 
and thoroughly analyze data on impairment-related transportation 
accidents can point to innovative ways to prevent deaths and injuries.
    Next, after analyzing the data and gathering the information, it 
must be communicated in a clear manner to the American public. Using 
effective and creative ways to communicate can draw attention to these 
topics for the ultimate goal of saving more lives and preventing more 
injuries.
    Substance impairment and distraction are highlighted on the NTSB's 
Most Wanted List (MWL) for 2014, which is a tool to draw attention to 
these issues and effect change. Also on the MWL and another one of my 
priorities is the goal of strengthening occupant protection, which can 
be vital after a crash has occurred, no matter what the mode. The 
NTSB's investigation of the Asiana flight 214 accident demonstrated 
that some passengers, who survived the plane crash, were badly injured 
because of accident forces, and one of the agency's safety 
recommendations called for more research to be conducted on ways to 
prevent these injuries.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
